<html>
<title> - EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[Senate Hearing 107-600]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-600
 
      EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JUNE 19, 2002--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
81-080                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

            Subcommittee on Treasury and General Government

                BYRON L. DORGAN, North Dakota, Chairman
BARBARA A. MIKULSKI, Maryland        BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              MIKE DeWINE, Ohio
ROBERT C. BYRD, West Virginia        TED STEVENS, Alaska
  (ex officio)                         (ex officio)

                           Professional Staff

                              Chip Walgren
                             Nicole Rutberg
                         Pat Raymond (Minority)
                    Lula Edwards (Minority)








                           C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Byron L. Dorgan.....................     1
Prepared statement of Senator Byron L. Dorgan....................     3
Statement of Senator Ben Nighthorse Campbell.....................     4
Statement of John P. Walters, Director, Office of National Drug 
  Control Policy, Executive Office of the President..............     5
Evaluation.......................................................     6
Modifications....................................................     7
Prepared statement of John P. Walters............................    10
History of the National Youth Anti-Drug Media Campaign...........    10
Evaluation component.............................................    12
Planned modifications in response to evaluation findings.........    12
Statement of James E. Burke, Chairman, Partnership for a Drug-
  Free America...................................................    27
    Letter from..................................................    28
    Prepared statement...........................................    34
Overview of testimony............................................    35
The original campaign idea.......................................    36
Putting the campaign back on course..............................    38
What the NYADMC brings to the Partnership for a Drug-Free America    39
What PDFA brings to the NYADMC...................................    39
Impact of the NYADMC systems on the Partnership for a Drug-Free 
  Amer- 
  ica............................................................    40
Documented effectiveness of Partnership for a Drug-Free America 
  efforts........................................................    41
Statement of Lloyd D. Johnston, Ph.D., Distinguished Research 
  Scientist, Institute for Social Research, University of 
  Michigan.......................................................    43
    Prepared statement...........................................    45
The monitoring the future study..................................    46
Questions on the Media Campaign..................................    46
Trends in adolescent drug use....................................    46
Adolescents' views of the AD Campaign............................    46
The case for inhalants...........................................    47
Selected references..............................................    48
Statement of Robert C. Hornik, Ph.D., Wilbur Schramm Professor of 
  Communication, Annenberg School for Communication, University 
  of Pennsyl- 
  vania..........................................................    50
    Prepared statement...........................................    52
Has the Campaign reached its audience............................    53
What were the Campaign's effects on parents......................    54
What were the Campaign's effects on youth........................    55
Prepared statement of David M. Maklan, Ph.D......................    57
Goal of the National Youth Anti-Drug Media Campaign strategy.....    58
Goals of the National Youth Anti-Drug Media Campaign (NYAMC) 
  evaluation study...............................................    58
Design of the National Youth Anti-Drug Media Campaign evaluation 
  study..........................................................    58
The NYAMC evaluation survey......................................    60
The logic of inferences about effects............................    61
Additional statements and questions and answers..................    75
Prepared statement of the Community Anti-Drug Coalitions of 
  America........................................................    75
Letter from the National Center on Addiction and Substance Abuse.    77
Prepared statement of the Advertising Council....................    77
Questions submitted to John Walters..............................    79
Questions submitted by Senator Byron L. Dorgan...................    79
Creative costs...................................................    79
Consultants......................................................    81
Production costs.................................................    83
Ogilvy and Mather................................................    84
Pro Bono.........................................................    85
Westat...........................................................    86
Authorization....................................................    86
Questions submitted by Senator Ben Nighthorse Campbell...........    87
Questions submitted by Senator Jack Reed.........................    89
Non-ad programs..................................................    89
Other issues.....................................................    91
Question submitted by Senator Mike DeWine........................    93
Questions submitted to James F. Burke............................    94
Questions submitted by Senator Byron L. Dorgan...................    94
Questions submitted by Senator Jack Reed.........................    96
Questions submitted to Dr. Robert C. Hornik, Ph.D., and Dr. Dave 
  Maklan, Ph.D...................................................    97
Questions submitted by Senator Byron L. Dorgan...................    97
Question submitted by Senator Jack Reed....................         101


                               (iii)









      EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                           U.S. Senate,    
                   Subcommittee on Treasury and    
                                General Government,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan and Campbell.


              opening statement of senator byron l. dorgan


    Senator Dorgan. The subcommittee will come to order.
    This is the Appropriations Subcommittee on Treasury and 
General Government and we are holding a hearing today on the 
effectiveness of the National Youth Anti-Drug Media Campaign.
    Let me begin with a very brief statement, after which I 
will call on my colleague, Senator Campbell, the ranking member 
on the subcommittee.
    The idea behind the National Youth Anti-Drug Media Campaign 
started over 4 years ago with an effort that used a combination 
of government-purchased advertising time matched by equal 
contributions from the private sector to harness the power of 
advertising to deter drug use among our youth. We have made a 
very large investment, nearly $1 billion, since this program 
was initiated in 1998.
    While virtually everyone lauds the Anti-Drug Campaign's 
goals, some ask questions about whether the taxpayers are 
getting a fair return for the dollars spent. The bottom line 
is, should Congress continue to allocate $180 million to keep 
the campaign operating through the Federal Government through 
the coming fiscal year?
    We are going to examine this and other issues today, 
starting with an evaluation done for the media campaign itself 
by the highly regarded Westat Communications Group and the 
Annenberg School for Communications at the University of 
Pennsylvania. That study concluded that while there is a 
favorable effect on parents from the advertising media 
campaign, kids have not benefitted in quite the same way. The 
lead researcher, who will testify today, says there was no 
significant decline in marijuana use among youth resulting from 
exposure to the campaign, nor were attitudes about drug use 
improved.
    Ironically, young girls who saw the most ads were more 
likely to start marijuana use than those with less exposure to 
the anti-drug ads, according to the review. While it is not 
clear what the unintended outcome means, the phenomenon needs 
to be explored.
    In fact, the Director of the Office of National Drug 
Control Policy, Mr. Walters, has already said that a review of 
the study suggests that if the campaign cannot reduce drug use, 
then changes should be made. We are anxious to receive his 
views in some depth today.
    Aside from its impact, there are a number of other 
questions about the way the Anti-Drug Media Campaign is being 
run. First, ONDCP has awarded many contracts and subcontracts. 
I believe that the subcontractors total somewhere over 30 at 
this point. The Fleishman Hillard public relations firm 
received a $10 million multi-year contract for research and 
development services, which I am told is the largest such award 
ever. Most ad campaigns make such deals on a yearly basis.
    Experts do say that the media campaign is on target in 
terms of the ratio of dollars spent on advertising. Eighty-
seven percent of the money goes for that purpose, we are told. 
On the other hand, production costs for the spots have raised 
some eyebrows. Some production spots have been up to $600,000 
for ads. How do these figures compare with other marketing 
campaigns and advertising buys in the private sector? There is 
an urgent need to get to the bottom of these and a number of 
other questions that we will ask.
    In the 1990s, the number of youth seeking treatment for 
drug problems in the United States rose more than 50 percent. 
Fifty-four percent of teens will have tried an illicit drug by 
the time they finish high school. Nearly one-third of the 12th 
graders have used an illicit drug other than marijuana.
    It is quite clear to all of us that advertising affects and 
impacts behavior. These powerful messages can motivate us to 
buy everything from toothpaste to automobiles. What Congress 
and the public need to know today is if the government and the 
administration is tailoring the $1 billion now anti-drug 
investment with the same efficiency as it is tailored in the 
private sector. The reason is compelling for all of us. We are 
not just trying to sell soap. We are trying to save lives. That 
is what this campaign was about in its origin and that is what 
the questions will relate to today.
    We are not coming to this hearing suggesting anything, that 
we ought to continue or scrap or change this campaign. We come 
to this hearing only asking a question about a very sizeable 
expenditure, a proposed $180 million expenditure in this coming 
year once again. Is this working? What are the results? What 
should we expect the results to be? How can we measure the 
performance of this very expensive campaign? Is it perhaps the 
case that this campaign is an outstanding example of exactly 
what we should do? Perhaps it needs some modifications. Or is 
it a circumstance where this has not worked the way it was 
expected and there is perhaps no way it can work?
    I do not know the answers to any of those questions, but 
the purpose of this oversight hearing is to ask those 
questions.


                           prepared statement


    I am pleased that my colleague, Senator Campbell, and I 
have had discussions about this campaign. We have had exactly 
the same thoughts about this, wondering what is the effect of 
it all, because this is a very significant part of that which 
we spend in this subcommittee each and every year.
    [The statement follows:]

             Prepared Statement of Senator Byron L. Dorgan

    When kids and their parents turn on the TV, are they getting a 
message to turn off drug use? That was the idea behind the National 
Youth Anti-Drug Media Campaign. Started over 4 years ago, the effort 
has used a combination of government purchased ad time, matched by 
equal contributions from the private sector, to harness the power of 
advertising to deter drug use among our youth.
    The investment has been huge, nearly $1 billion since the program 
was initiated in 1998. While virtually everyone lauds the anti-drug 
campaign's goals, questions are now being asked about whether the 
taxpayers are getting a fair return for every ad dollar spent. The 
bottom line-should Congress allocate up to another $180 million to keep 
the campaign operating through the Federal Government?
    We're going to examine this and other issues today, starting with a 
disturbing evaluation done for the media campaign itself by the highly 
regarded Westat communications group and the Annenberg School for 
Communication of the University of Pennsylvania.
    The study concluded that while there is a favorable effect on 
parents from the ad blitz, kids do not benefit in the same way. The 
lead researcher, who will testify today, says there was no significant 
decline in marijuana use among youth resulting from exposure to the 
campaign, nor were attitudes about drug use improved.
    Ironically, girls who saw the most ads were more likely to start 
marijuana use than those with less exposure to the anti-drug messages. 
While it's not clear what that unintended outcome means, the phenomenon 
needs to be explored.
    In fact, John Walters, the Director of the Office of National Drug 
Control Policy has already said that a review of the study suggests 
that if the campaign can't reduce drug use then changes need to be 
made. We're anxious to receive his views in depth today.
    Aside from its impact, there are a number of other questions about 
the way the anti-drug media campaign is being run. First, the ONDCP has 
awarded a number of contracts and subcontracts. Was the scope and cost 
of the work done within proper bounds?
    The ONDCP media campaign is thought to be the most diverse of its 
kind, reaching out to a wide variety of ethnic groups from Asian 
Americans to Alaskan Natives. Is the entire expense justified?
    The Fleishman Hillard public relations firm received a $10 million 
multi-year contract for research and development services-the largest 
such award ever. However, most ad campaigns make such deals on a yearly 
basis only.
    Experts do say that the media campaign is on target in terms of the 
ratio of dollars spent on advertising--87 percent of the money goes for 
that purpose. On the other hand, production costs for the spots have 
raised some eyebrows. Private sector ads generally don't top $500,000 
while ONDCP may spend up to $600,000 on these ads.
    How do these figures compare with other social marketing campaigns 
or advertising buys in the private sector?
    There is an urgent need to get to the bottom of these and other 
crucial questions. In the 90's the number of youth seeking treatment 
for drug problems in the United States rose more than 50 percent.
    Fifty-four percent of teens will have tried an illicit drug by the 
time they finish high school. Nearly one-third of twelfth graders have 
used an illicit drug other than marijuana.
    It's clear that advertising impacts behavior. These powerful 
messages can motivate us to buy everything from toothpaste to 
automobiles.
    What Congress and the public need to know today is if the 
government and the administration is tailoring its billion dollar anti-
drug investment with the same efficiency as its Madison Avenue 
counterparts.
    The reason is compelling: We're not just trying to sell soap. We're 
hoping to save lives.

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Dorgan. Let me call on the ranking member of the 
subcommittee, Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I think you 
might be a little more charitable than I am in my comments, but 
I do thank you for convening this hearing to deal with a series 
of rather disturbing events lately around the National Youth 
Anti-Drug Media Campaign and I hope we can get to the bottom of 
it.
    I, as you know, served as the chairman of this subcommittee 
when funding for the National Media Campaign for Youth was 
first requested in fiscal year 1998. At that time, the then-
Director of the ONDCP, Barry McCaffrey, outlined the 
administration's proposal to supplement already existing--I 
repeat, already existing--anti-drug public service 
announcements by purchasing prime time TV slots.
    I had some reservations then and so did the then-ranking 
member Herb Kohl, but it sounded good and both of us ended up 
supporting it. It was described to us as a 5-year project which 
would cost $175 million a year and that Federal funds would be 
matched by private contributions. Although I was somewhat 
skeptical about the high cost of the program and the lack of 
detail, I was and am still determined to do whatever is 
necessary to reduce drug use by youngsters in our country.
    Over the next 4 fiscal years, we continued to fund this 
project for a total of almost $929 million with specific 
reporting requirements to make sure that the funds were being 
spent appropriately, and I have to tell you, getting accurate 
information about this project has been very, very difficult.
    Now we have a comprehensive evaluation, as you mentioned, 
of this National Youth Anti-Drug Media Campaign which basically 
says that while both youngsters and parents remember seeing the 
ads and parents may be using what they learned to talk to their 
kids about drugs, there is, and I quote, ``little evidence of 
direct favorable campaign effects on youth.''
    Mr. Chairman, I think that I probably speak for many other 
members when I say that we will do whatever is necessary. As I 
have already said once, it is extremely important to reduce the 
drug use in America. But the key is to spend our resources on 
programs that actually work. In the last 5 years, we have seen 
money spent in magazines that youngsters do not read, such as 
the U.S. News and World Report. I might mention that it was 
told to me, that their parents may read that and then talk to 
the youngsters about the bad effects of drugs. Well, maybe so, 
but that is kind of a stretch from what I originally had viewed 
the money going to in terms of ads.
    We have seen trades made of government money to different 
network stations where they would put, in lieu of purchasing 
ads, the networks would put bylines in the scripts of sit-coms 
and things of that nature in lieu of purchasing ads, thereby 
enabling the networks to resell the ad space, which is to me a 
form of double-dipping. But this national media campaign has 
become what we were really worried about right from the 
beginning, a cash cow for many of the networks when they should 
be doing more public service anyway.
    I expect that this afternoon we will probably hear various 
folks tell us why the media campaign has not lived up to its 
potential, what steps can be taken to fix it, and I am 
certainly willing to listen. But I have got to tell you, it is 
going to take some convincing, for me to support full funding 
for this program when we are in an era that is going to see us 
going into deficit spending again.
    To make matters worse, Mr. Chairman, you might like to look 
at this when you have the time. There now are some disturbing 
reports, and frankly, I have not researched it, just heard 
about it, but that at least some of the appropriated money has 
been funneled to campaign initiatives in at least three States 
to sway public opinion on ballot initiatives dealing with the 
use of marijuana. That is not what we had in mind 6 years ago 
and almost $930 million ago.
    I see that we have a very large audience today. When we 
first started this program, of course, there was almost nobody 
sitting in the audience. As somebody mentioned to me a while 
ago, there are now 30 subcontractors working. I imagine all of 
them have their own interest in continuing this program, 
because when you are spending hundreds of millions of dollars 
every year, clearly, there is a lobbying effort to keep 
spending the money. But I have to tell you, unless we do better 
or make some change, I am inclined to scrap the whole program 
and start over with something that we can get a better handle 
on.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Campbell, thank you very much.
    Director Walters, we thank you for being here today. I 
would like, if I can indulge upon you, to ask if you would 
present testimony, following which--we have three other 
witnesses--I would like to hear their testimony and then have 
the opportunity to question all four of you, for no particular 
reason except that it would be helpful, it seems to me, for 
both you and for us to be able to compare what the Partnership 
for a Drug-Free America and also the folks who did the 
evaluation will testify about. But depending on your time 
circumstance, I will ask if you would do that for us.
    Why do you not proceed. Your full statement will be made a 
part of the record and you may summarize.
STATEMENT OF JOHN P. WALTERS, DIRECTOR, OFFICE OF 
            NATIONAL DRUG CONTROL POLICY, EXECUTIVE 
            OFFICE OF THE PRESIDENT

                              INTRODUCTION

    Mr. Walters. Thank you. I would be happy to try to stay. 
Since I was not aware that you wanted to do this, I have a 
commitment on the House side to see somebody in connection with 
this, so depending on how the time goes, I will be happy to do 
what I can to accommodate you.
    Thank you, Mr. Chairman. Thank you, Ranking Member 
Campbell. I am pleased to be able to talk with you again about 
this program and I also want to thank the Committee for 
receiving written testimony from such key partners here as the 
Ad Council, the Community Anti-Drug Coalitions of America, and 
for calling the Partnership for a Drug-Free America to testify 
in person.
    I would like to start by taking you up on the opportunity 
to persuade you that this is something that I think is an 
important tool that we should support. I repeat the President's 
support for the request for $180 million for the coming fiscal 
year and our desire to reauthorize this program.
    Having said that, that is not in ignorance of the issues 
that you have raised and that are raised by the evaluation. We 
have, as you pointed out, an evaluation of the campaign. It is 
an expensive and detailed evaluation. There has been discussion 
in the past about the need for such a sophisticated evaluation. 
My own view is that such a sophisticated evaluation is crucial. 
Otherwise, I think we do not have sufficient evaluations in 
enough program areas to be sure that we are making a 
difference.
    As I said to you when I testified earlier this year, I 
believe one of the single greatest tasks we have in getting 
this problem under control in the country is overcoming 
cynicism, and we are not going to overcome it with program 
efforts that do not work. We need to make sure we understand 
what is going on and we need to make sure things that are going 
on are effective.

                               EVALUATION

    This evaluation gave us an opportunity to look at, as 
specifically as is possible, I believe, the effectiveness of 
the ads and the ad program that we are funding with substantial 
government resources. In the past, and I think in some 
comparisons in the discussion of these matters, there is 
frequently use of correlations, which happens in a lot of 
complex public policy areas.
    I would say from my experience and looking here, I would be 
very careful, because there is a tendency to reduce things down 
to correlations, but correlations may or may not be meaningful, 
especially in these products. I think what you see is, in 
advertising especially, I can sit in my office and watch an ad 
and say, that is striking to me, but if it is designed to be 
targeted at teenagers, it may not be effective. We need to do 
testing before we show them, and we need to make sure we are 
aware of whether or not they are working.
    Correlations alone, of multiple cultural forces on a 
complex issue like this, are a problem and I urge you to take 
time with these experts to make sure that when the evidence 
that you are relying on is the evidence I have been presented 
with, while trying to sort through this, it is apples and 
apples and not, in some degree, correlations which may be 
problematic.
    Having said that, I think the evaluation does show that we 
have positive news with regard to parents. Roughly half of the 
effort that was focused on getting parents to become more 
involved with young people because of the power of parents' 
influence on the attitudes they convey to young people, their 
approval of behavior that is important to young people, and 
most importantly, perhaps, their willingness to supervise young 
people and not allow idle time to be used for drugs and other 
delinquent behaviors is important. That is working. It is not 
only working in the evaluation in terms of what parents report, 
but it is also working in terms of what the evaluation shows. 
Young people report that parents are talking to them more, that 
they are supervising them more.
    Nonetheless, we also have the troubling news that the 
Campaign has not had an effect on the behavior of young people 
regarding drug use, which is our central focus. In talking to 
you and your staff before this, I would like to focus the 
latter part of my summary on the question that I think is 
central, what I propose to do from here for your consideration 
in reviewing this program.

                             MODIFICATIONS

    As I told you when I testified earlier this year on the 
broader appropriations issues concerning this Campaign, I 
started taking some steps to modify the Campaign when I took 
office in December. Those steps were put in place at the 
beginning of this year. Some of them are ongoing and I would 
recommend some other ones. They are not part of the evaluation 
that you will be hearing about today, which ended in December, 
but let me summarize them and tell you which I think are still 
salient and I intend to pursue, if you agree, in the future.
    The first is testing. It was my view in constructing the 
first ads I was responsible for, the ads linking drugs and 
terror that first debuted at the Super Bowl this year, to be 
sure that we had as much information as possible on how 
effective the material put on the air was going to be. This 
included testing in early stages of development, mid-stage, and 
final, again, to make sure that what we saw as adults or others 
that were consultants said was confirmed as much as we could by 
detailed testing.
    Roughly 1,300 people were involved in focus groups. I 
watched some of the video tapes with young people on those ads. 
We knew when we put them on, as far as I could tell, they were 
as powerful as they could be. They were not just anti-drug ads, 
they were powerful, and that was what we were concerned about.
    Secondly, I think that we need to change the age focus of 
the Campaign. I know there was an effort earlier on in the 
Campaign to focus on younger teens because the argument was 
that we need to get them before initiation, we need to try to 
change attitudes early on. I think that has now been shown to 
be potentially problematic in some cases with the material that 
was involved, but also there are, I think, clear reasons now to 
make the age target older.
    We have long-term evidence suggesting that drug use doubles 
between junior high school and high school years. We cannot 
just inoculate young people when they are young and expect that 
to carry over. They are rethinking their attitudes during that 
period of life. We have to have something that is more 
consistent. We also can put more power, I believe, behind ads 
that are targeted for older teens and material that may be 
inappropriate for younger children.
    In addition, and subsequent to the drugs and terror ads, 
some of which are still running, we are going with other ads. 
We have in development ads that are going to focus on 
marijuana. The reason for this is several-fold, and based on 
evidence and review of policy and the state of this problem 
since I took office.
    First of all, we have known for some time that a large part 
of the illegal drug consumption problem in this country is 
focused on marijuana and that many young people, marijuana has 
been a drug that is the first that they try and increases the 
likelihood that they will go on to other drugs.
    More importantly now, we are looking and reviewing 
material, partly from the National Household Survey, to deploy 
the President's commitment to add money to treatment, $1.6 
billion over the next 5 years. Last year, for the first time, 
we had access in the National Household Survey data results to 
questions that were inserted to determine in the household 
population, what percentage of that population had dependency 
problems and what the character of those dependencies were.
    For the first time, we had an estimate in that population 
of about 4.5 million individuals who have dependency or abuse 
problems or that the characteristic of their use is such that 
they could benefit from treatment. That was not an unusually 
high number considering other estimates.
    What was, I think, surprising even to people who followed 
this, is that of the 4.5 million, 23 percent are teenagers. We 
have not had estimates that large of the dependency population 
being involved, or dependency and abuse population being 
involved that young in the past. It certainly correlates with 
earlier initiation rates in age, and we know from both brain 
science today as well as past longitudinal experience, the 
younger you start, the more dangerous and more rapid the 
conversion to dependency can be, because of the physiological 
and the period of growth that young people are in.
    Not only did we have information that 23 percent of those 
dependent are young people, but for the first time, we could 
identify dependence and abuse to specific drugs because of the 
way the survey was structured. Today, of the 4.5 million age 12 
and over who are dependent, 65 percent are dependent on 
marijuana. Most people, especially baby boomers my age, do not 
have any idea there is a problem. They grew up. They watched 
movies like ``Reefer Madness'' in college and thought it was 
hysterical how people could overreact to marijuana.
    But today, the data both from the treatment admissions as 
well as this latest survey data shows that two-thirds of the 
dependency problem from illegal drugs today is marijuana. That 
is not that people who are dependent also use marijuana. It is 
that marijuana is the source of their dependency or abuse. We 
cannot begin to deploy treatment, we cannot begin to face this 
problem effectively if we do not face the fact that marijuana 
today is more than two times more important as a drug of 
dependency than cocaine, which is the second most powerful one.
    So our job, my job, I believe, is to make people more aware 
of this, and especially young people who are coming in in 
record numbers, at record young ages, who are dependent on 
marijuana. Most people do not believe you can be dependent on 
marijuana. I go to editorial boards. I talk about the state of 
this data. People who not only are well informed, but who write 
the news, are flabbergasted and frequently skeptical, and I 
have to present the material here. It is not perfect knowledge, 
but we need to do a better job, and I think this is an 
important tool of the Campaign to do that.
    Lastly, I would like to say that I have tried to get to the 
bottom of a number of the exchanges about the construction and 
mentions of the Media Campaign, many of which were in place 
before I got to the office. I will not be able to give you 
first-hand accounts of what happened when I was not there. Some 
things, there is just a dispute over. But let me tell you what 
my thinking is.
    The Campaign has tried to use a mixture of advertising 
expertise and wider public health knowledge, the way many of 
the health kinds of public service campaigns that are now being 
deployed for cigarettes and for other kinds of health problems. 
It links more than just advertising. It tries to create other 
kinds of sources of resonance for the campaign and sources of 
information to make people aware of them in the community. 
Websites, partnerships with corporations, and organizations 
such as the PTA, Scouts, and other groups have been important.
    I think that this is helpful. I think the proportion of 
money spent can be looked at and there can be some statements 
of adjustment. But I think the most important issue is, this is 
about providing messages in the culture through the media that 
help to offset many of the negative messages young people get 
about drugs and drug use, and, therefore, we need to have the 
most powerful messages possible on a broad scale.
    I read the evaluation as saying the ads are being heard and 
seen. The recall is reasonably high. In fact, subsequent to the 
Westat study, a tracking study that has been done that is not a 
behavioral measure but just an awareness measure, shows that on 
the drugs and terror ads the awareness is even higher. In early 
May, it reached 86 percent of all teens. So I think the 
material being shown is being heard, although I know there is 
some debate about that by some on this issue.
    I do not think we have powerful enough material. The 
evaluation shows this, and I am concerned that what we need to 
do is make sure there is enough. It is a big campaign and, as 
you know, because I know everybody that is involved in politics 
has to know something about advertising these days, material 
can wear out and we need to have enough of it; it needs to be 
focused; it needs to be powerful.
    I also think that what we tried to do in some cases, and I 
recognize there can be debates about the contractors. However, 
in some cases, some of those contractors helped us to deploy 
messages to ethnic populations and in other non-English 
languages that we could not get through a pro bono system, or 
through one advertising contract or ``one partner fits all'', 
and I think some of those ads--we showed one for Native 
Americans and Alaskan Natives when I was here last--I think 
those are powerful. They have been tested. They are a modest 
expense, but it is an important community we need to reach, 
even though it is hard to evaluate that reach because of the 
smallness of the sub-population. But I think those ads are 
important because those populations are important to include in 
this effort.
    That is not to say that I think there cannot be 
streamlining. I think there can be. Again, when I took office 
at the beginning of December, there were two different ads 
being developed on drugs and terror, one by the Partnership for 
a Drug-Free America and one by Ogilvy, the ad contractor. They 
were in early stages of development. I asked that they be moved 
ahead quickly. There was an opportunity to use the largest 
possible audience, and the most cost effective reach, the Super 
Bowl. We needed to move it quickly. It was done on the most 
widely tested area. The Partnership indicated their ads were 
not going to pan out to be effectively used. But the ads that 
we have aired have been received very well. We will get the 
results in the fall.

                               CONCLUSION

    I believe, again, this can be a crucial tool to meeting the 
President's goal of reducing drug use by teens and adults by 10 
percent in 2 years and 25 percent in 5 years. It has to be work 
to be an important tool, but I think the promise here and in 
advertising generally is such that we all believe that we ought 
to be able to get this right. If we cannot, I know as well as 
you that there are important needs that these monies can be 
called upon for, so it is not a matter of ignoring those needs, 
either.

                           PREPARED STATEMENT

    But I want it to work. We are committed to programs that 
are effective and I commit to you my intention to try to make 
this work if you will continue to support it.
    Senator Dorgan. Director Walters, thank you.
    [The statement follows:]

                 Prepared Statement of John P. Walters

                              introduction
    Chairman Dorgan, Ranking Member Campbell, and distinguished members 
of the Subcommittee: Thank you for the opportunity to appear before the 
Subcommittee today to discuss the National Youth Anti-Drug Media 
Campaign (the ``Campaign''). I appreciate the bipartisan support that 
the Campaign has enjoyed from this Subcommittee, and indeed the entire 
Congress, over the past 5 years and I look forward to working together 
to ensure the success of this critical drug prevention program. I also 
want to thank Jim Burke and the Partnership For a Drug-Free America 
(PDFA), and Ruth Wooden and Donna Finer of the Ad Council for their 
service to our Nation and their commitment to reducing drug use in 
America.
    Reducing drug use is our common objective. The President has set 
bold, national goals of achieving a 10 percent reduction in teenage and 
adult drug use over 2 years, and a 25 percent reduction in drug use, 
nationally, over 5 years. During the last several weeks I acknowledged 
that the latest evaluation of the Campaign contained troubling news. As 
a result, I am pursuing some modifications to the Campaign, which will 
be later discussed in detail, that we believe will maximize its ability 
to stop drug use before it starts. Finally, I am committed to working 
closely with Congress and key Campaign partners to ensure that the 
Campaign plays a significant role in our effort.
         history of the national youth anti-drug media campaign
    In a strong showing of bipartisan commitment to reducing drug use 
Congress first funded the National Youth Anti-Drug Media Campaign in 
fiscal year 1998 at a level of $195 million, $20 million above 
requested $175 million. This innovative proposal created a multi-
dimensional effort designed to educate and empower youth to reject 
illicit drugs. Developed from a sound scientific base, this historic 
effort would be supported by television, radio, online and print 
advertising, informational and educational materials, Internet Web 
sites and partnerships with public health, civic, faith, and service 
organizations. This range of communications activities would ensure 
that the Campaign's messages reach Americans wherever they live, learn, 
work, play, and practice their faith.
    The Drug-Free Media Campaign Act of 1998 (21 U.S.C. 1801, et. seq.) 
authorizes the ONDCP Director to ``conduct a national media campaign . 
. .  for the purpose of reducing and preventing drug abuse among young 
people in the United States.'' In total, over the past 5 years Congress 
has appropriated $928.9 million to support the Campaign.\1\
---------------------------------------------------------------------------
    \1\ Over the course of the Campaign, ONDCP has spent 87 percent of 
its appropriated dollars on advertising. Advertising includes media 
time and space for ad placement (87.2 percent), production (6.1 
percent), direct labor (2.6 percent), overhead (3.0 percent), and fixed 
fees (1.1 percent). Of the 13 percent that is not devoted to 
advertising, 6 percent is for evaluation and research, 4 percent is for 
integrated communications, 2 percent of for Clearinghouse operations, 1 
percent for the communications strategy/corporate participation, and 1 
percent is for ONDCP management costs.
---------------------------------------------------------------------------
    The President's fiscal year 2003 Budget Request provides an 
additional $180 million to continue the Campaign. The President, 
Congress, and the American people rightly have high expectations for 
the Campaign, recognizing its potential to be one of America's most 
important tools for addressing the national priority of reducing youth 
drug use. The Campaign is the only prevention effort for youth 
conducted directly by the Federal Government and the only systematic 
means of a truly national scope to counter the many pro-drug influences 
confronting our children. We need to make improvements, but it is a 
unique and critical tool and it should continue.
    In authorizing the structure of the Campaign, Congress made clear 
that ONDCP should develop an integrated comprehensive public health 
communications campaign--not merely an advertising effort. [21 U.S.C. 
Sec. 1802 (a)(1)(h)] ONDCP committed to Congress that the Campaign 
would rely on the best advice from the public health community, 
behavioral science, and the best practices of the marketing 
communications industry. Pursuant to Congressional direction and 
ONDCP's extensive consultation process, the Campaign has evolved to 
include the following:
    Multicultural Component.--ONDCP developed a robust multicultural 
component to the Campaign, with ads and outreach materials created in a 
variety of languages, based on dedicated research to identify the 
unique cultural differences in the way drugs are regarded by African 
American, Hispanic, American Indian and Alaska Native, and multiple 
Asian and Pacific Islander ethnic groups. For example, 
``LaAntiDroga.com'' provides parents and other adult caregivers with 
strategies and tips in Spanish on raising healthy, drug-free children. 
Free email parenting tips are available in Spanish and a parenting 
brochure is under development. This summer, the Campaign is publishing 
updated brochures on marijuana and inhalants in Korean, Cambodian, 
Chinese and Vietnamese.
    Grassroots Outreach.--ONDCP established grassroots programs that 
broadened our message delivery through professional, nationwide, public 
communications outreach and support to community anti-drug coalitions, 
civic organizations, parenting and youth serving organizations, 
entertainment media, and faith organizations.
    Corporate Participation.--ONDCP is reaching out to corporate 
America and receiving valuable support in extending the Campaign's 
messages through the marketing and communications programs and networks 
of some of the Nation's best-known companies. For example, Safeway is 
reaching customers in more than 1,700 grocery stores and Capital One is 
including anti-drug messages on 20 million billing statements. Borders 
and Waldenbooks will distribute the Campaign's parenting brochures in 
over 1,000 stores. The Campaign's ``Work'' program provides employers 
easy access to drug prevention materials for dissemination to 
employees. Blue Cross Blue Shield and AT&T are participating in the 
Campaigns Work program by heavily promoting Campaign messages and 
materials to their tens of thousands of employees.
    Interactive Programs.--ONDCP created sophisticated Interactive 
communications programs, including effective Internet destinations 
where parents and youth can receive factual, research-based information 
about drugs. With nearly 17 million youth ages 12-17 using the Internet 
regularly, the Campaign has devoted significant resources to developing 
and promoting online anti-drug information. The Campaign's suite of 
nine Websites has garnered over 35 million page views. Freevibe.com, 
which helps youth understand the dangers of drugs, has attracted over 7 
million visitors since its launch in the Fall of 1999. Site visitors 
now are spending an average of 8-9 minutes surfing anti-drug 
information compared to an average of 3-4 minutes when we launched 
Freevibe.com 3 years ago. TheAntiDrug.com, which provides parents and 
other caring adults with strategies and tips on raising drug-free 
children, has attracted over 3 million visitors.
    Support for Public Service Advertising.--The Campaign designed and 
operates a system to lend support to other public service advertising 
through the Advertising Council. The system works by designating pro 
bono broadcast ad time provided by media outlets in fulfillment of the 
Campaign's statutory obligation to obtain a dollar's worth of in kind 
public service for every dollar's worth of advertising the Campaign 
purchases. Through this system, more than 60 non-profit organizations 
and other government agencies have received prime time network and 
cable positions for their public service advertising that carries anti-
drug messages or messages supporting underlying values such as 
effective parenting, youth mentoring, after school programs, or 
education. More than $370 million-worth of television and radio ad 
support for these organizations and their messages has been provided 
through the Campaign.
    Promote Community Anti-drug Coalitions.--Also through the Ad 
Council, the Campaign conducts a public service advertising campaign 
dedicated solely to promoting the growth and effectiveness of community 
anti-drug coalitions, which by itself has garnered more than $121 
million in donated media for its ads.
                          evaluation component
    Pursuant to Congressional direction (both authorizing and 
appropriation language), the Campaign is subject to a rigorous 
evaluation (for which ONDCP has allocated $35 million over 5 years). 
The National Institute on Drug Abuse manages the Phase III evaluation 
for ONDCP and awarded the prime evaluation contract to Westat, Inc. 
Results are derived from a nationally representative household survey 
of youth/teens and parents, in which the parents and youth/teens are 
linked (i.e., from the same household). In an unprecedented attempt to 
ascertain the latest data concerning the Campaign's effectiveness, this 
survey is conducted throughout the year and results are reported every 
6 months to track ongoing progress. Information learned from the survey 
enables ONDCP to make alterations to the Campaign and to provide 
progress reports to our Congressional committees of jurisdiction.
    The evaluation of Phase III is designed to determine the extent to 
which changes in drug abuse-related knowledge, attitudes, beliefs, and 
behaviors can be attributed to exposure to the Campaign. Thus far, the 
Westat evaluation has revealed increases in awareness, particularly of 
the youth and parent ``branding'' efforts and some positive changes in 
parent behavior. The Wave 4 report, released in May 2002, presents 
interim results reflecting the first 2 years of implementation of Phase 
III of the Campaign; three additional surveys are planned over the next 
18 months. The Wave 4 report provides analyses of data collected though 
a national household-based survey of parents and youth across the first 
four data collection periods, or ``waves''. Through Wave 4, more than 
10,500 youth and 7,300 parents have been interviewed with parents and 
youth being interviewed from the same household. This report includes 
findings from the first set of follow-up interviews conducted with 
those sampled in Wave 1. This longitudinal component provides 
information on the impact of exposure to Campaign messages in Wave 1 on 
outcomes in Wave 4.
    There is evidence consistent with a favorable Campaign effect on 
parents. Overall, there were statistically significant increases in 
four out of five parent belief and behavior outcome measures including 
talking about drugs with, and monitoring of, children. Parents who 
reported a higher level of exposure to Campaign messages scored higher 
on those outcomes; however, there is no evidence yet that youth 
behavior was affected as a result of parent exposure to the Campaign.
    Most parents and youth recalled exposure to Campaign messages, with 
about 70 percent of both parents and youth recalling exposure to one or 
more messages through all media channels each week. In 2001, about 68 
percent of youth aged 12 to 18 recalled the Campaign brand phrase 
targeted to youth and 55 percent of parents recalled the brand phrase 
targeted at parents.
    According to the Westat evaluation, there is little evidence of 
direct favorable effects on youth. For youth aged 12 to 18, there were 
neither overall changes in drug use nor improvements in beliefs and 
attitudes about marijuana use between 2000 and 2001. For some outcomes 
and for some subgroups of respondents, the evaluation report raises the 
possibility that those with more exposure to the specific Campaign ads 
at the beginning of Phase III of the Campaign had less favorable 
outcomes over the following 18 months. In particular, the evaluation 
contains a statistically significant finding that 12- to 13-year-olds 
who report higher exposure to anti-drug ads in the first year of Phase 
III report less strong rejection of marijuana use in the next year
        planned modifications in response to evaluation findings
    ONDCP is committed to working with its key partners and Congress to 
ensure that the Campaign remains a critical component of our efforts to 
reduce drug use among our Nation's youth. On February 26, 2002, the 
Campaign convened a Task Force to examine strategic issues affecting 
Campaign performance, especially issues related to: (1) revisions to 
the ad testing protocol; (2) reassessing the youth age target; (3) the 
appropriateness of our youth message strategies; and (4) the creative 
development process.
    Ruth Wooden, former President of the Ad Council and a member of the 
Campaign's Behavior Change Expert Panel (BCEP), chaired the Task Force. 
Other participants included representatives of the Partnership for a 
Drug Free America (PDFA), an advertising creative director who is a 
member of PDFA's Creative Review Committee, a senior Ad Council 
executive, other members of the BCEP, members of ONDCP's contract 
advertising agency, and ONDCP Campaign staff. The Task Force completed 
its work prior to the recent Wave 4 results reported by Westat and it 
had the benefit of numerous performance indicators from previous Westat 
reports and other authoritative sources of youth drug use data 
(including the National Household Survey on Drug Abuse). ONDCP and our 
partner, PDFA, committed to jointly examine process issues to improve 
the overall effectiveness of the Campaign.
Testing
    The Campaign is among the Nation's largest advertisers. In keeping 
with its scope, the Campaign is designed to incorporate the most 
successful marketing techniques and implement an integrated, multi-
media advertising approach that employs TV, radio, Internet, 
newspapers, magazines, as well as ads appearing on bus shelters, in 
malls, and other heavily trafficked venues. After an average 12-week 
run of these ads, a wear-out point is reached and it becomes necessary 
to rotate in another multi-media set of ads. This is the same approach 
employed by today's top corporate marketers. Rotating ad sets at 
scheduled points and not airing ads past their wear-out point are 
crucial to achieving advertising objectives.
    Currently, all Campaign ads are qualitatively tested in a ``story-
board'' format in the developmental stage with focus groups 
representing age, gender, and ethnic diversity targets. According to 
Campaign policy, TV ads also are to be quantitatively tested (or 
``copytested'') in multiple markets after the ads are produced and are 
in final form in order to determine their effectiveness and to identify 
possible unintended negative consequences before they are aired.\2\ 
Unfortunately, 68 percent of the TV ads produced through the pro-bono 
process were submitted to ONDCP too late to permit testing prior to 
broadcast. This delay in submitting the ads created a situation where 
purchased air dates were at hand, and ONDCP was forced to place ads on 
the air before quantitative testing had occurred.
---------------------------------------------------------------------------
    \2\ For two similar ads, typically one ad is tested. If that ad 
tests favorably, then both ads can be aired. If the ad tests 
unfavorably, then the other/remaining ad is not used or pulled.
---------------------------------------------------------------------------
    Since January 2000, 22 of the 49 ads that were quantitatively 
tested did not test well. Of the 22, 3 were pulled off air immediately 
because poor test results indicated that the ads may weaken anti-drug 
beliefs; 3 others tested had poor test results (i.e., weakened anti-
drug beliefs) that would have resulted in their being pulled off of the 
air, but the test results did not became available until the ads had 
been on the air for months; 3 tested poorly and did not air; and 13 
received mediocre test results (i.e., neither strengthened nor weakened 
anti-drug beliefs or intentions) and could not be used again.
    An example of an ad that had to be pulled immediately during the 
past year is an inhalants ad, which had been aired before testing 
because it was delivered behind schedule. When the problematic ad was 
pulled from air because poor test results indicated that the ad may 
weaken anti-drug beliefs, it had to be replaced with an old ad which 
had lost much of its previous effectiveness, and later with other ads 
which had been found to be less effective than originally desired. This 
mid-rotation disruption damaged the synergistic effects of the multi-
media rotation and resulted in less-than-effective ads airing for long, 
unplanned periods before a successful multi-media rotation of new ads 
finally was delivered. This, combined with protracted production delays 
in delivering the next scheduled rotation of ads, produced a chain 
reaction of sub-par advertising substitutions that seriously damaged 
the effectiveness of nearly a year's worth of youth advertising.
    Change.--All TV ads will be thoroughly tested (qualitatively and 
quantitatively) before they are aired, based on a higher standard that 
would be developed after consulting with experts and our pro bono 
partners.
Age Focus
    The Campaign is a groundbreaking national prevention effort against 
youth drug use. Unlike social marketing efforts against other issues 
where societal attitudes are well formed, attitudes about drug use in 
our culture often are ambivalent and/or equivocal. In 1999, with the 
help of strategic communications expertise from Porter Novelli, an 
organization that is a leader in behavior change communications, and 
after a series of expert panels on how to design the Campaign that 
collected advice of top national experts in public health, social 
marketing, advertising and youth development, ONDCP organized Phase III 
of the Campaign.
    Based on this research, ONDCP originally targeted the Campaign's 
prevention efforts toward youth ages 9-18. ONDCP focused the Campaign's 
core communication efforts on an 11-13 year-old age target. This group, 
called ``tweens,'' represented the age at which data (including the 
National Household Survey on Drug Abuse and Monitoring the Future) 
showed drug initiation commenced, but before use had typically reached 
significant levels. The experts' theory was that instilling solid anti-
drug attitudes in tweens would inoculate them against drug use through 
their later teenage years.
    Westat evaluation findings and the above-mentioned national drug 
use surveys published since the ``tween'' strategy was launched in 1999 
have not provided strong support for continuing this age target focus. 
The most recent results from the Westat study and annual youth drug use 
reports tend to indicate that broad anti-drug attitudes by tweens are 
not surviving the transition from middle school years into high school. 
New behavioral assessments delivered by Michael Slater, a leading 
academic authority on youth behavior and a recent addition to the BCEP, 
further suggest that tween anti-drug attitudes are not likely to be 
broadly sustainable no matter how effective the Campaign is in a tween-
focused advertising approach. These expert assessments find that teen 
developmental factors are determinant, and that there is a universal 
stage of adolescent development where teens begin questioning and 
pushing back against parental authority: when youth reach their teen 
years, they re-examine their anti-drug attitudes regardless of their 
views as tweens.
    National drug use data consistently show sharp usage increases by 
youth age 14-16. Moreover, the Youth Transition Working Group of the 
Task Force recommended shifting the focus from younger children 
(tweens) to older youth, ages 14-15. The Campaign should confront this 
phenomenon head-on with the 14-16 year old group. Focusing our 
communications efforts at youth during this developmental period will 
enable the Campaign's messages to compete directly within the overall 
popular culture communications environment teens experience daily.
    Change.--Retain the general focus on youth aged 9-18, but amend the 
targeted core communication efforts to focus on 14-16 year olds.
Focus on Marijuana
    Marijuana use is the single most prevalent drug used by America's 
youth. According to the most recent findings from the 2000 National 
Household Survey on Drug Abuse, 7.2 percent of youth (ages 12-17) 
reported that they are ``current'' users of marijuana. Of those same 
youth, only 0.6 percent report current use of cocaine, and only 0.1 
percent report current use for heroin. In the same survey 18.3 percent 
of youth (ages 12-17) reported using marijuana in their lifetime, with 
2.4 percent using cocaine and 0.4 percent using heroin.
    Other troubling statistics relating to youth and marijuana are:
  --Perceived harmfulness of smoking marijuana regularly decreased 
        among 8th graders from 74.8 percent in 2000 to 72.2 percent in 
        2001 (Monitoring The Future).
  --Early adolescent marijuana use is related to later adolescent 
        problems, such as lower educational achievement, according to a 
        study published in the American Journal of Public Health in 
        1999.
  --More than 3,800 youth aged 12 to 17 tried marijuana for the first 
        time every day in 1999 (the latest year for which data are 
        available) (National Household Survey on Drug Abuse).
    As we look to achieve better results, it is clear that we cannot 
expect to make progress toward our goal of reducing youth drug use 
until we significantly reduce the use of marijuana, the preponderant 
drug of choice among youth.
    A Campaign with a renewed focus on marijuana will give youth the 
facts in contexts they can understand, therefore enabling them to be 
confident and unwavering in their decision not to use marijuana. 
Positively affecting youth attitudes and behaviors relating to 
marijuana poses a unique set of challenges. Among all illicit drugs, 
youth attitudes are the softest and parent attitudes are the most 
ambivalent when it comes to marijuana. Well-funded and fully entrenched 
pro-marijuana interests have been at work for many years sowing their 
messages throughout our popular culture.
    Change.--The Campaign will increase its efforts against marijuana--
the primary illegal drug used by youth.
The Advertising Development Process
    The Task Force also convened a specific Working Group which 
examined the current creative process and recommended revisions that 
would achieve maximum efficiency of time and cost effectiveness. Task 
Force members agreed on new measures that allow ONDCP earlier 
visibility and involvement in the creative development process. This 
will give ONDCP the opportunity to advise PDFA of its views on new ads 
being developed in the earliest concept stages.
    Before Congress created a paid anti-drug media campaign, PDFA 
successfully created and implemented a process that relied solely on a 
pro-bono support campaign, in which volunteer ad agencies donate their 
services to deliver anti-drug messages to youth. However, since the 
advent of a paid Campaign, the reliance on a pro bono process to 
deliver the Campaign's advertising products has proven less than fully 
effective in meeting the Campaign's needs. While the pro bono system 
can supply many of the Campaign's needs, it cannot meet all of the 
broad requirements and high operational tempo of a paid, sophisticated 
ad campaign.
    Under the pro bono system, we are continually presented with new 
volunteer creative teams who know how to sell consumer products, but 
know little or nothing about the Campaign, anti-drug advertising, or 
behavior change social marketing. Based on a written brief--and no 
other contact with ONDCP, these creative teams attempt to produce 
effective ads. Sometimes they succeed, but other times, as recorded by 
the Westat report, the results have been less than effective, despite 
the high awareness of Campaign ads that our media buying program has 
achieved.
    Moreover, the Campaign's production demands are heavy for an ad 
agency that is volunteering its services. Producing the integrated, 
multi-media advertising products the Campaign requires, strains the 
generosity of volunteer agencies, which must continually balance their 
good will against the demands of paying customers. This has inevitably 
led to production delays, which, as explained earlier, domino into a 
variety of problems that have combined to undercut the effectiveness of 
the advertising effort.
    A positive illustration of flexibility and early involvement of 
ONDCP in the ad development process was recently illustrated when 
Campaign staff worked directly with our contract ad agency to develop 
ads specifically designed and tested for Native American audiences, and 
ads that for the first time link drug money with the support of terror. 
In both cases, ONDCP was involved early in the creative development 
process, and the creative team became thoroughly educated about the 
Campaign. The result in the American Indian case was immediate praise 
from Native American leaders and citizens who noted the ads' 
authenticity in accurately matching the traditional values and modern 
realities of American Indian life.
    As for the recent drugs and terror ads, we subjected the ad 
concepts to an unprecedented level of testing to assure their 
effectiveness with target audiences. The ads were exposed to more than 
1,300 individuals in 20 cities across the country. Youth who 
participated in the testing found that the ads significantly reduced 
their intent to use drugs in the future. Parents said the information 
gave them timely new information to use in talking to their children 
about drugs. Such ads were possible through the donated created 
services of our contract agency.
    ONDCP will take the recommendations of the Task Force and work with 
our pro bono partners in making modifications to the Campaign 
advertising development process to ensure greater efficiency and 
effectiveness. ONDCP has begun to implement some of these changes with 
regard to ONDCP's more direct involvement in briefing pro bono ad 
agencies that are working on new marijuana ads. ONDCP will continue, as 
it has in the past, to use the flexibility we have to use other means 
to fill unmet and important Campaign needs.\3\
---------------------------------------------------------------------------
    \3\ When our pro bono partners have been unable to deliver ads that 
meet the Campaign's needs, ONDCP has worked within its statutory 
authority to produce directly ads from commercial sources for 
approximately 50 percent of all multicultural ads (for African 
American, Hispanic, and Native American audiences), 100 percent of 
Interactive (banner anti-drug ads on the Internet), and 100 percent of 
the niche ads (publications that reach special audiences such as school 
nurses, teachers, and employers).
---------------------------------------------------------------------------
    Change.--Work with our pro bono partners to streamline the 
advertising development process and build in more ONDCP involvement, as 
recommended by the Task Force. Continue to use alternate means to fill 
critical unmet and important Campaign needs.
                               conclusion
    In announcing the release of the National Drug Control Strategy 
this February, President Bush stated the Administration's view that we 
need to have clear goals that can be measured, that we take 
responsibility for achieving them, and that we explain how we will meet 
them. This Strategy places a heavy emphasis on obtaining measurable 
results and providing accountability to the American people, to 
Congress, and to our international partners. As the National Youth 
Anti-Drug Media Campaign is a critical component in our effort to stop 
drug use before it starts, it must be managed in a fashion that 
optimizes effectiveness.
    I am confident that the modifications we are suggesting will better 
enable the Campaign to get the results the American taxpayer expects--a 
reduction of drug use among our youth. Recognizing that all of us want 
immediate success, we must be patient and give these modifications an 
opportunity to succeed. Recognizing that the cost of failure is 
prohibitive, your continued support of the Campaign will prove a wise 
investment in our youth.

    Senator Dorgan. I think we will do some questions here so 
that we do not get in a situation where we have heard others 
and then Director Walters is not available for questions, but I 
would like to ask some questions and see if you could stay for 
a while.
    Let me ask the obvious first question. The testimony by Dr. 
Hornik today, who evaluated this program, said with respect to 
parents, ``The media campaign has made parents more aware of 
this issue.'' That is positive. ``But we did not find 
evidence,'' quoting him, ``that parents' exposure to the 
campaign at the start of 2000 predicted subsequent change 
through 2001 in parent outcomes.'' In other words, parents were 
more aware of it, but it really did not mean anything in terms 
of outcome. And then number two, and more importantly, ``In 
contrast to parents' results, to date, there is little or no 
favorable evidence to report with respect to the campaign's 
effects on youth.''
    Now, if we were a private enterprise that has spent $1 
billion on advertising and we got this report from the person 
that we asked to evaluate the campaign, my guess is that we 
would say, well, this is not working. Tell me your response to 
that.
    Mr. Walters. No, I had a similar reaction. I have not 
reviewed his testimony per se, but the report that I got in the 
introduction says, in a sense, unequivocally, there is no 
evidence yet consistent with the desirable effect of the 
Campaign on youth. I have read a lot of evaluation studies and 
I know a lot of evaluators became a little bit sensitive about 
being direct, because they are always sensitive to confidence 
level intervals. That is a pretty strong statement.
    When they presented this to me I asked the evaluators 
several questions if this were, because we were talking about 
public health measures; I asked if this were a drug trial and 
we were getting results like this, especially with some of the 
other aspects of the results, would you continue the trial as 
it exists today? Most of the public health people I tried that 
question on, to try to get some clarity on how these things 
compare, said that they would have to make changes under those 
kinds of circumstances.
    As I said, I thought there was reason to make changes when, 
before the evaluation, I started and the drugs and terror ads. 
I certainly think that under this circumstance, I do not think 
it is defensible not to say that we need to test the content 
more rigorously. We have to have more and as much power as 
possible. I do not think it is not enough to say that we have 
``kind of'' tested a concept earlier on and that we have a 
review. In some cases, that review was not done prior to the 
airing of the ads. I know there have been disputes about this 
and I think some of it is----
    Senator Dorgan. But Director, I am sorry to interrupt you, 
but I assume with 31 contractors and hundreds of millions of 
dollars spent, they have tested everything. I mean, having done 
a few television commercials in 10 state-wide campaigns, as has 
my colleague, we understand about focus groups and testing and 
all kinds of things like that. My test is there is nobody in 
the country who has done more sophisticated, aggressive testing 
than this office and all of its consultants. Is that not the 
case?
    Mr. Walters. I can understand why somebody would think 
that, but that is not the case.
    Senator Dorgan. Why?
    Mr. Walters. Let me give you what I understand to be the 
case. Since January 2000, 22 of the 49 ads that were 
quantitatively tested did not test well. Of the 22, 3 were 
pulled off the air immediately because poor test results 
indicated that the ads may weaken anti-drug beliefs.
    Senator Dorgan. Wait a minute. Did they test before they 
put them on the air or while they were on the air?
    Mr. Walters. My information is 65 percent of the ads that 
were aired were not tested before they were put on the air 
except in the early concept stage, but not in the final 
product. They were then tested subsequently to being put on the 
air.
    Again, because of a problem in the arrival of the material, 
many times to get the cheapest possible air time, one buys in 
blocks and buys ahead of time in a consolidated way. The 
government does that with a campaign this size, which means you 
are committed then to certain blocks at a certain point in 
time. The content is then delivered in time to be on the air. 
If the content is late and you do not have enough time to test 
it, my understanding is the Campaign has aired it, did not fail 
to use the time, and tested the ads subsequently. Some of them 
did not test as effective or, even in some cases, tested as 
counterproductive. The counterproductive ones were immediately 
pulled.
    With other ads, I also think the bar or the level of 
effectiveness that need to be improved, obviously, because, the 
circumstance is that people are aware of seeing the ads. They 
register the brand and they even register an awareness of 
seeing them frequently. The question is, if the message is 
right and the use of advertising is going to work here, why is 
there not more power in the influencing of attitudes and 
behavior?
    I was not here for all this so I am not calling anybody 
that has a different story a liar, though I tried to get to the 
bottom of this. I think the answer to that question, from what 
I have been able to review, is that there is not enough 
testing, that there has been a problem sometimes with the 
complications of the Campaign, and providing material of 
various types. It needs to be simplified, but there also needs 
to be a quantity of material that is proven effective and you 
can put on the air.
    While the concept of using all of this on the basis of 
contributed time and labor is certainly saving the government 
money and allows people to donate their considerable gifts to 
this, the small part of the cost here is the content. The large 
part of the cost is the media time. So if we need to put some 
more resources in to the focus group costs, in the developing 
of more content, as we have with the multi-ethnic targeted 
Campaign materials, then we ought to do that.
    Senator Dorgan. But I am wondering if developing these 
subgroups is not part of your problem, or when I say your 
problem let me point out this has gone on for a large period of 
time before you came to this job. I notice what they have done 
is they have created fractional subgroups around the country to 
do targeting and that, I assume, is what results in, how many 
ads do you say, 60 ads?
    Mr. Walters. I believe there are 49 ads.
    Senator Dorgan. Forty-nine ads, I mean, 49 different ads. I 
guess I wish there were 5 or 10 that were dynamite ads that 
everybody said, these ads are clearly home runs. These ads 
work. But what has happened is this campaign appears to me to 
go into the corners looking for subgroups, you know, Lutheran 
Norwegians who drive compact cars and have at least one pet. 
All of a sudden, you have fractioned this so much that you are 
creating ads in every possible direction and I am just 
wondering whether this campaign has not gotten off the track 
someplace. There was a track of what was intended and Congress 
has spent $1 billion and it seems to me that someone created a 
bunch of branch lines here and the result of the evaluation is 
it has not had much impact.
    I will let you respond to that in just a minute, but I also 
want to ask about the contractors just a bit, because one of 
the larger contractors, Ogilvy and Mather, has, as you know, 
been required to pay back the Federal Government $1.8 million 
for over-billings and so on and so forth. I want to ask you 
about that because it relates to the question I asked about 
contractors and subcontractors.
    You have got 30-some companies out there that have 
contracts with this office, and I do not know what they all do. 
I have looked at some of the numbers and some of them are 
pretty generous contracts and subcontracts. If someone over-
billed me and I had a business, I would not do business with 
them anymore. It is just a fact of life. I mean, if somebody is 
going to over-bill me, they are only going to do it once, and 
then they will have a chance to over-bill others, but they will 
never, ever again have a chance to do it to me again, and I 
hope you feel the same way.
    Mr. Walters. Yes, but I do not want to be misunderstood 
on----
    Senator Dorgan. You do not want to be what?
    Mr. Walters. I do not want to be misunderstood on that 
point, because this has been an issue with the Campaign.
    Senator Dorgan. I do not know anything about this company. 
All I know is what I read about over-billing and about the 
number of contractors out there. My hope is that you feel that 
way.
    Mr. Walters. No, I think I have had a history here of being 
concerned about the proper stewardship of public money and some 
of the concern about this Campaign by people in the private 
sector that have not worked with the government effectively is 
partly that, yes, the government is more complicated and those 
are areas where we should simplify. I agree with you, and the 
government can be needlessly cumbersome and bureaucratic.
    There are also exceptional demands and proper demands for 
the proper stewardship of public money, and I believe some of 
the concerns here are linked to what appropriate controls 
detect over-billing that also require, for government 
contracts, a kind of accounting that is not required in the 
private sector. You may have an engagement with an individual 
agency. They are charging you so much and you are not asking 
what is behind all those charges to the degree to which the 
government is.
    In the Ogilvy matter per se, there has been discussion that 
some people feel--I am not saying you, but I have talked to 
people on the House side, for example--who believe that as a 
result of this, Ogilvy should have been debarred from competing 
for government contracts. All this happened before I was here. 
I take responsibility for what happens now. The findings, the 
particular findings for debarring them from participating or 
even from competing for future contracts were not found to 
exist. The Navy was the contractor for ONDCP. It made an 
initial recommendation that such grounds were not there and my 
understanding is the office did not disagree with that finding.
    So there was an audit. Monies were paid back. Restitution 
was made.
    Senator Dorgan. There is a criminal investigation, is there 
not?
    Mr. Walters. I believe there is still an unclosed criminal 
investigation, but there is a settlement in all the other 
parts. I do not know what the status of the criminal 
investigation is now. I have not been told.
    Senator Dorgan. Let me just ask, I want to get back to 
substance because that is what is most important for me today, 
that----
    Mr. Walters. Can I first answer the other question you made 
about the parts?
    Senator Dorgan. Yes.
    Mr. Walters. You have your own responsibility to make 
decisions on this, but I want you to know, as the agency 
manager, what my thinking is on this. I think parts of the 
Campaign were too complicated. I think some of the strategies 
and platforms you may have seen in some of the material were 
excessive. But some of them, I also believe, are necessary.
    Some of these ``multiple directions'' are Spanish and other 
foreign languages of parts of the population that are 
important, such as Asian languages. Some of them are the result 
of advice that one-size-fits-all ads will not reach important 
communities, and here, I would say that I believe that Native 
American and Alaska Native population are particularly damaged 
by substance abuse and I believe that a government campaign 
designed to go after substance abuse has to try to be effective 
in those communities, even though they are small and even 
though it may complicate things. So I support that even though 
it will make it somewhat more difficult.
    Now, I think I would point to the drugs and terror ads, 
which I am responsible for, to show a powerful message, a 
direct ad that went out to and was shown extensively on the 
media and is still being shown. We will have results of that 
effort in the fall, so I cannot tell you, other than awareness, 
that it has had a more powerful message for young people. But 
awareness is not the same as behavior change, and we are about 
behavior change here. I understand that.
    Senator Dorgan. Let me go back just for a moment to the 
issue of the over-billing. Are you saying that if the Navy, 
which is the contracting officer, says that you cannot debar 
someone, that you as an agency director cannot simply say, 
these people over-billed us. They will not be doing business 
with us again.
    Mr. Walters. My understanding----
    Senator Dorgan. Do you not have the capability to debar 
someone administratively?
    Mr. Walters. My understanding is that there are particular 
rules involved in debarring and that I have to comply by those 
rules and I cannot unilaterally apply those rules.
    Senator Dorgan. I see. So if tomorrow, 1 of your 31 
subcontractors cheats your agency over bills, and incidentally, 
I think there is a difference between having controls to 
prevent it and hiring people that will not do it, hiring 
contractors that will not do it. The first time a contractor 
over-bills my agency or my business is the last time the 
contractor does business, I think, with us.
    But if you do not have the authority, we need to look into 
that, because there is not any reason for a company that over-
bills you to be in a circumstance where we are required to 
consider them for the next contract. This is not about that 
specific company, it is just about the circumstances. I mean, 
it just seems Byzantine that a Federal agency, having been 
over-billed, cannot simply say, well, sorry, partners. Do not 
do business with us anymore. Do not even come and talk to us.
    We have alternative uses for this money. Let me give you an 
example. We could, for example, use substantial money for drug 
treatment and rehabilitation, and a lot of people feel very 
strongly that a significant part of this drug war must be to 
help people shed their addiction, and there are people today 
walking on the streets out here that are addicted to drugs in a 
devastating way and cannot find places to get treatment for 
that drug addiction. Some people feel very strongly that 
treatment, too, is a priority.
    Others say, and Senator Campbell and I have on the floor of 
the Senate had to respond to this, they say, well, go to the 
Indian reservations, for example, and other places in the 
country and the most devastating drug for young teenagers is 
alcohol and you need to make alcohol a part of this campaign. 
We have resisted that in the past because we wanted to have 5 
years of this campaign to see with what capability we could 
affect the behavior of children.
    But there are alternatives in dealing with substance abuse, 
with addiction by those who are addicted to drugs, and 
especially children.
    I have a range of questions, but I think----
    Mr. Walters. Can I just respond to that?
    Senator Dorgan. Yes, of course.
    Mr. Walters. I want you to know that I believe it is 
important to do something that I know it is difficult for 
bureaucracies to do, and that is to make programs accountable 
to a degree for which they are not. In most cases, as you know, 
in these other areas, we do not have the kind of evaluation 
data we have here, and I think this in some ways this is a 
model and I want to spread it to more places. We could probably 
have future hearings and discussions about the ways we are 
going to propose to do some of that.
    In this case, I do think it is important to make programs 
accountable--and it is not just a buzzword. I think we have to 
have a balanced approach to make the kind of progress we want. 
We are recommending funding for law enforcement. We will 
improve things with regard to homeland security that will give 
us better and already have given us better security on our 
borders. We are deploying things with the High-Intensity Drug 
Trafficking Area program that Senator Campbell and I talked 
about in my office, and there are other Federal programs that 
help us on the law enforcement side. We have to change 
attitudes and behavior, but that also means changing attitudes 
and availability and the degree to which this problem has 
permeated our society, especially to children.
    Prevention is but a small part of it. Of the $19 billion in 
the estimated drug control budget as a whole, this is a small 
part, although it is real money to me. We are going to spend 
money, as well, on treatment.
    But we know, that if we do a good job with teenagers, the 
research shows that if they do not initiate experimentation 
with drugs, alcohol, and cigarettes in their teenage years, 
they are unlikely to start later on. We can change the 
dimension of this problem in this country for generations if we 
do a better job on prevention, though not at the expense of 
treatment. We are going to spend this year, if we get the full 
administration request, $3.8 billion in Federal treatment 
money. We cannot either just prevent or just enforce or just 
treat our way out of it, but we can take the crucial elements 
of this and push back against them effectively together--it has 
to be effectively--and I think we can continue to make some 
progress here.
    Senator Dorgan. Mr. Director, I do not disagree with any of 
that and I do not personally at this point believe we should 
scrap this program. I think there is an open question of how 
much we should spend on it at this point, but I think when you 
talk about accountability, I think the ultimate in 
accountability is to spend $1 billion, do an evaluation, and 
then have someone say to you there is little or no favorable 
evidence to report with respects to its effects on youth, that 
is accountability.
    Regrettably, it is not the answer we would have liked to 
have heard. I would have liked to have seen an evaluation that 
said this program was dynamite. We spent money and we 
dramatically altered the attitudes, and so on, among American 
youth with respect to drugs. But that is not what the evidence 
suggests and that is why I think we have to take a hard look at 
alternatives here.
    But let me quickly say, I do not believe we should scrap 
the program at this point, but I think it is an open question 
of exactly how we ought to restructure it or reconfigure it.
    I have other questions, but I want to call on my colleague, 
Senator Campbell.
    Senator Campbell. Director Walters, you made some 
interesting comments on targeting, and Senator Dorgan did, too. 
I was thinking while the dialogue was going on about targeting, 
because Indian reservations were mentioned a number of times. I 
do not know if you have ever been out there where Senator 
Dorgan is and I am, but if you did an ad where 80 percent of 
the population are Indian kids and you talked to them about the 
dangers of using Ecstasy and cocaine, do not worry, they are 
not, because they cannot afford it. What they are using are 
canned heat, paint, glue and stuff that does not come under the 
general description of drugs, but that is what they are using, 
I mean, stuff that just burns out their mind, cold medicine, 
cough syrup, they use it for different things.
    So I am not sure that all targeting is bad. In fact, I 
think some is good. I guess the question I would have along 
that line is, what would your reaction be to the suggestion 
that has been made to me a couple of times that instead of 
doing this as a national campaign, what we ought to be doing is 
sending the money directly to the problem, through block grants 
to States or communities or tribes or wherever, so they could 
tailor the message for the majority of kids that live in that 
area. If you go into East Los Angeles, I would imagine probably 
70 or 80 percent of the youngsters are Hispanic, Latino, or 
maybe black, but certainly one of the two.
    Mr. Walters. We do, of course, provide block grants in a 
number of areas, including treatment. The Safe and Drug-Free 
Schools Program is essentially a block grant program based on 
population. You can add population indicators.
    We have to make this work, and the question is, first of 
all, if we have not done that yet, how do localized 
applications necessarily provide more success than national 
applications? They might, but it is not clear to me exactly how 
that would be and how much of the resources would have to go 
both to development of that material and more and more fine-
grain applications. Then you would have to develop how would 
you evaluate it, because more and more of the money would go to 
individual kinds of evaluations.
    The only other problem that I have with the block granting 
of some of these funds is that we need a partnership with the 
people who have to do the work. In some cases, the Federal 
Government is providing appropriate resources, but it has to be 
a partnership. The block grant, I think, in my experience in 
government and education as well as in the, drug control 
program area, in many cases does not produce enough of a 
partnership. There is not enough accountability, and it 
detaches local accountability from the local provision of 
resources.
     If we provide evaluation that shows the application and 
the partnership of Federal, State, and local law enforcement 
that is making a difference in the area--we get maximum 
benefit. I do not think we are quite where I would like to see 
us at, but I am going to try to move us in that direction. 
There is not just money without accountability and there is not 
just accountability without resources. There is authority and 
accountability and it is tied to real resources.
    So I am reluctant to embrace a greater block granting for 
both the effectiveness reason and for the management and 
accountability reason.
    Senator Campbell. I wish we would have received a positive 
reaction from this ad campaign as we received from the HIDTA 
program. All of the information we get from local communities 
says is that the HIDTA program is terrifically successful.
    You outlined four specific things you plan to do to put the 
Anti-Drug Media Campaign back on track. One of them is to 
become more involved in the development of ads. How do you plan 
to do that?
    Mr. Walters. I asked my office, and we have a recent task 
force report from a group that includes both staff from my 
office, staff from some of the principal contractors, partners, 
the Partnership for a Drug-Free America, and others that 
reviewed the Campaign and suggested some of the things that I 
also think need to be done here, so it is a nice coincidence. 
The report suggested targeting older age group, and more 
testing of the material.
    What I would also like to see is our ability to talk more 
directly in some cases with someone in the creative process. I 
do not want to tell them how to do their job, but my impression 
after reviewing the program is that in some cases, and I know 
there are also disputes about this, because the people who have 
had to produce the material have been too far insulated from 
some of the advice. I am not saying people did not in good 
faith try to brief people and explain how we think this should 
work in order to produce something that has impact, but I think 
that what I would like to be sure, especially with this kind of 
critical period in the Campaign and the program, is that we are 
conveying information directly.
    It may not be all information we convey. I want somebody 
sitting there because I believe, in this circumstance, my 
office and my particular responsibilities require me to be able 
to assure you this is working as effectively as we can make it 
work, especially if the failure to improve it means it may be 
lost. I do not want to lose it. I think it can be fixed, but I 
want to make sure I am doing everything I can in my office with 
my senior staff to make sure that it is working well.
    I have spent time trying to review this, and I will tell 
you frankly, from where I sit, there is too much finger 
pointing that it is hard to get to the bottom of. That needs to 
be cleaned out. Again, I am an administration away in some 
respects and bad news makes everybody want to say somebody else 
did the thing that is wrong. We need to have people working 
together more effectively if the Campaign is going to continue, 
and what I would like to do is make sure that I have the 
presence in this process of appropriate staff members to make 
sure it is running smoothly.
    I do not intend to dictate this. I am not a creative person 
for advertising. I am not an advertising executive. But I am 
the Executive Office of the President official that is 
responsible for this program. I need to assure you, I need to 
assure the Director of OMB, and I need to assure the President 
that we are doing everything we can to make this work because 
we think it is such an important tool.
    Senator Campbell. Well, it is interesting you mentioned 
finger pointing. Of course, we never do that around here, as 
you know.
    Another one of the points you made, the specific things you 
addressed, were testing. How do you plan to do anything 
differently that is going to have some validity to it from your 
testing?
    Mr. Walters. I believe there has to be greater use of focus 
group testing in both concept as it has been done, in the early 
development of the material that is going to be shown, and in 
the final development. I saw the advantage of that myself with 
the drugs and terror ads, by watching some of the videotapes of 
focus groups and seeing the reaction and how people were 
responding to that in the construction of the final product. I 
also think that, given the particular problem of the power of 
the ads not being what we want, we would be remiss in not 
exploiting that tool.
    Now, I am aware, though not experienced, but aware from 
people I have talked to that there are parts of the advertising 
practice and business that simply relies on the creative 
talents of somebody and there is not much testing. In other 
areas of advertising, there is a lot of testing, and the 
testing will increase the cost. But the relatively small 
increase that that cost may have--and we need the flexibility 
to pay for that cost--is a relatively small increase for the 
benefit of trying to ensure the most powerful product possible. 
We are spending the large share of money on our time so, I 
think this only makes sense in this environment.
    Senator Dorgan. Would you just yield on that point? It 
drives me crazy, though, at the end of $1 billion to have any 
agency say, by the way, we should do more testing. You know, it 
seems to me that someone preceding you in this office should 
have said at the end of $500 million or $100 million, but we 
have spent $1 billion and now we are told by those who have 
been running this well before you came, and I assume they are 
still in your agency, well, maybe we need more testing.
    Mr. Walters. Some of that, but let me just say two things.
    Senator Campbell. Mr. Chairman, the people that were in 
that seat before Director Walters did say that.
    Senator Dorgan. Well, it still drives me crazy. It drove me 
crazy then. Do you understand what I am saying? We spent $1 
billion. One would expect at some point along the way somebody 
would say, you know, if we get a bad result here, at least a 
result that says we have not had any impact with this in any 
significant degree, maybe something along the way needs to be 
changed. It seems to me like bureaucracy here has stifled 
creativity.
    Now, maybe this is not a construct that works, I do not 
know, but in any event, it seems to me like we have just put a 
lot of money in the hands of people who are now saying later, 
well, I know it did not work, but we needed more testing.
    Mr. Walters. I believe that is a central point, but I do 
not take the point to mean that I should identify who, what 
partners, in office or out of the office, or former people in 
the office did this.
    Senator Dorgan. Somebody did. This is not a virtual 
government. Somebody did it.
    Mr. Walters. This is what I think happened, and I recognize 
these are principles that are subject to dispute because of 
various people's different perception of what happened, more 
than anything else.
    The program was started quickly because of the urgency of 
the issue. It was a big ramp-up, so people did what they could 
do to get as much done as they possibly could early on. It was 
an effort of urgency. We did not do everything as we would have 
if we had more time and we could have set things up.
    Secondly, there was a problem in getting enough of the 
initial material. I think it would be better, frankly, for the 
Campaign to have multiple opportunities for alternatives and 
then choose the most powerful to put on the air. Frequently, it 
has had the problem of getting the ads in time to get anything 
on the air, and that is a problem and we need to fix that. I 
know that people have worked effectively to try to improve that 
and they will continue to do so. We need the flexibility to 
make sure we are putting enough powerful material on the air to 
make the purchase worthwhile.
    Lastly, I do think that you also are going to hear, if I 
read the testimony of subsequent witnesses, the same thing that 
may have mitigated some of this. You were told and will be told 
again that there is a lag time, that this kind of ``behavior 
change'' advertising requires people to think through their 
attitudes, make a change, and that the change has to take place 
before you actually see the behavior. Some people will tell you 
you have got to wait longer.
    My view is, you have waited long enough. We need to make 
some changes and you need to see some results more 
specifically, and in a more timely fashion. I think they have 
got to be able to make an argument, given the magnitude of the 
expenditure, that whether you are waiting and you are going to 
get the result or you are waiting and you are not going to get 
the result, that the money has been well spent.
    I also think that the question here has to be, is it 
reasonable to say that you cannot get more immediate results 
here? There are correlations between some of these things. As I 
said at the onset, there are correlations between things here, 
but those correlations are not the same as causality. The 
evaluation of these ads, asking about specific attitudes and 
specific behaviors, while not perfect, is the most powerful and 
the only existing instrument I am aware of that can measure 
this kind of advertisement with reasonable certainty. There are 
limits, but nonetheless, everything else is about correlations, 
in my judgment, and it has to be seen with a grain of salt.
    So I believe that what we are facing are some changes that 
will make the program effective and a crucial tool. I am not 
just saying it is nice to have. I am saying I believe this can 
be a crucial tool in what we are doing. I believe I can 
potentially show you in the middle of this fall that the 
changes we have made will produce the kinds of progress we 
want, and if it is not, then we can, I am sure we will, come 
back in the fall or in the beginning of next year and the 
action can be more drastic, I suppose.
    I do not think we are going to go down that road. I think 
this is going to work, and that we have learned something here. 
I believe maybe instead of the finger pointing, what I am 
trying to get people to do is say, we accept what we have 
learned and we will talk about how we are going to work 
together. I know people's feelings are hurt. They did this with 
the best of intentions and they feel they are being criticized.
    As I learned from Bill Bennett, the fundamental principle 
of government service sometimes is ``No good deed goes 
unpunished.'' But you have got to get over that and you have 
got to move on and you have got to understand that the 
fundamental issue here is the good of our children in driving 
down drug use, and whether people feel good or badly has to be 
secondary to that.
    I want to drive the program in a direction that will make a 
difference. You will decide whether what I am proposing to you 
is enough to make you have confidence.
    Senator Campbell. Director Walters, we want the same thing, 
but we have heard a number of times, we are going to test the 
program and the tests always come back that we are not making 
improvements for the reduction of drug use for the kids.
    So let us fast forward another year. You say that you want 
to do further testing. Does that mean if we come back next year 
about this time and we get the results, say, that we are not 
making improvements, we still have not driven down the drug use 
at all for youngsters, that we should make some legislative 
changes or drop the program? I mean, at what point do we say, 
this is not working and we ought to go on to something else or 
put the money somewhere else?
    Mr. Walters. I am willing to live by the results of the 
next--there will be an evaluation in the fall, there will be an 
evaluation next spring. If we came back this time next year, we 
would have two more evaluations.
    Senator Campbell. You will have two more evaluations before 
we meet next year.
    Mr. Walters. Yes.
    Senator Campbell. If there is not some measurable reduction 
in drug use----
    Mr. Walters. I am willing to live by the conclusion.
    Senator Campbell [continuing]. You would be willing to live 
by that and say, the heck with it, the thing is not working and 
we ought to be on something else?
    Mr. Walters. Again, there may be people who do not agree 
with that, but I believe I understand what you are saying.
    Senator Campbell. Well, certainly the people who are 
beneficiaries of the millions we are spending every year, they 
are not going to agree with it. I understand that. But I am 
trying to think in terms of where we put the most efficient use 
of taxpayers' money, not keeping consulting companies alive 
that are getting the money.
    Thank you, Mr. Chairman.

                               CONCLUSION

    Senator Dorgan. Senator Campbell, thank you very much.
    Director Walters, I think in light of the time, I am going 
to need to call the other three witnesses. I was passed a note 
that you have to leave at 3:30. I would like the opportunity, 
perhaps, for us to have another hearing or a meeting with you 
at some point to follow up. I have a number of questions that I 
have not yet asked and I suspect the other witnesses will 
provoke additional questions, as well.
    We appreciate your being here and your being forthcoming. 
This is obviously an important issue, an issue that deals with 
a lot of money, and we thank you for your appearance today.
    Mr. Walters. Thank you.
    Senator Dorgan. Next, we will call Mr. James E. Burke, 
Chairman of the Partnership for a Drug-Free America; Dr. Lloyd 
D. Johnston, Distinguished Research Scientist, Institute for 
Social Research, University of Michigan; and Dr. Robert C. 
Hornik, Wilbur Schramm Professor of Communication, the 
Annenberg School for Communication, the University of 
Pennsylvania. Accompanying him will be Dr. David Maklan, Vice 
President and Study Area Director for Westat.
    Would you please come forward and take your seats. The 
statements that all of you will make will be made a part of the 
permanent record in its entirety and we would ask for purposes 
of brevity that you summarize your statements for us.
    We will begin, Mr. Burke, with you. You are the Chairman of 
the Partnership for a Drug-Free America. Why do you not proceed 
with your statement, following which we will ask Dr. Johnston, 
then Dr. Hornik to present.
STATEMENT OF JAMES E. BURKE, CHAIRMAN, PARTNERSHIP FOR 
            A DRUG-FREE AMERICA
    Mr. Burke. Thank you, Mr. Chairman and Senator Campbell. I 
am going to try to keep my comments brief.
    Senator Dorgan. We have a five-minute rule and there is a 
trap door beneath the chair.
    Mr. Burke. I will move the chair.
    Senator Dorgan. It is a big trap door.
    Mr. Burke. I am Chairman of the Partnership for a Drug-Free 
America, which has been running its National Anti-Drug Media 
Campaign since 1987. Before joining the Partnership, as many of 
you know, I was Chairman and CEO of Johnson and Johnson. In all 
my years of working on the drug issue, which is a long time, I 
am more convinced than ever this is one of the most powerful 
weapons we have in the fight against drugs. The media is 
certainly the most efficient way and maybe the most powerful.
    We are here to talk about the National Youth Anti-Drug 
Campaign. Most importantly, we are here to talk about, as has 
been mentioned, the 24 million teenagers that this campaign is 
designed to serve. This issue is all about children. The bottom 
line, that is it, and if we fail there, we have failed in the 
most important part of our country's needs.
    By the way, you as politicians all know a good deal about 
advertising. You have conducted successful campaigns and you 
already know perhaps more than many of us do about how to use 
advertising and also how to measure it, the success of that 
advertising. The tenets of good advertising are quite simple. 
The last thing you would do in the midst of an election 
campaign is challenge them. Radically changing your message or 
your target audience or spending less on your media buys would 
not make much sense as you approached election day.
    Over the last 2 years, this is what happened with the 
National Youth Anti-Drug Media Campaign. That is why I bring it 
up. Although it began both focused and effective, as data from 
that period indicate, and we will present that for you if you 
wish us to, the campaign steadily lost its way. Congress had it 
right 5 years ago when it signed up for this campaign. The 
original vision of the effort called for the advertising 
industry via the Partnership to provide strategic counsel and 
hard-hitting ads pro bono and the government, as you know, 
promised to provide funding to secure consistent heavy levels 
of media exposure for our campaigns.
    When the campaign embraced a simple, focused, research-
based vision, Mr. Chairman, it worked, and the evidence is very 
clear. During the first 2 years of the campaign, we reached our 
target audiences, teenagers and their parents, with hard-
hitting ads that focused on one theme, the risk of drugs. The 
result--and it is time that we got some of these positive 
results out because I understand why you all feel so negative 
about it--41 percent increase in the awareness of the messages, 
as indicated by this chart, which you can see over here, an 
indication that marijuana use was beginning to turn downward 
after a 5-year climb. You have got to look at the first 2 years 
of this differently than the last 2 years.
    Getting an accurate picture of the campaign's impact 
requires that we make a complete assessment of the entire 
effort by considering all data, not just some. The baseline for 
the Westat evaluation was taken 18 months--the baseline taken 
18 months after the launch of the campaign. It is just not the 
total story. It does not capture any of the impact of the 
campaign's first 2 years. For an accurate assessment, we must 
consider all available data.
    In years 3 and 4, which Westat does measure, the campaign 
moved away from its focused, proven approach and instead 
embraced a terribly complex, unfocused, theoretical plan. 
Clearly, Mr. Chairman, the campaign challenged some of the 
common sense tenets of effective marketing communication.
    The campaign adopted more than a dozen different message 
platforms, replacing the tight focus on messages about risks 
and social disapproval of drugs. The campaign established a 26-
step, 10-month-long process for approving the ads, replacing an 
eight-step process that took considerably less time. The 
campaign mandated our message content be targeted exclusively 
to 11- and 13-year-olds, who predominately do not use drugs, 
while ignoring older teens who are at greater risk, and that is 
pretty obvious.
    And finally, Mr. Chairman, the campaign committed to us, at 
least, a cardinal sin when it began spending less and less on 
media. Nearly one-third of the $180 million appropriation, or 
about $50 million last year, was pulled away from the very 
thing that Congress agreed to pay for in the first place, media 
buys for anti-drug advertising.
    In October of 2000, I sent a letter to the ONDCP--it is 
when General McCaffrey was still there--summarizing our 
perspective on these strategic issues, and with your 
permission, Mr. Chairman, we would like to submit this letter 
for the record because we went into complete detail about why 
things were not working and why they had to be changed.
    [The letter follows:]

                        Letter From James Burke

                       Partnership for a Drug-Free America,
                                     New York, NY, October 2, 2000.
General Barry R. McCaffrey,
Director, White House Office of National Drug Control Policy, 750 17th 
        Street, NW,
Washington, DC.
    Dear Barry: Thank you for your invitation to comment on the 
National Youth Anti-Drug Media Campaign as it enters its 3 year of 
national activity.
    The campaign has brought Partnership advertising to an 
unprecedented number of our target tweens, teens and parents, and we 
are heartened by research data indicating that the increase in 
marijuana use by young people that began in the early 90's has leveled 
off.
    Moreover, it's fair to say that PADFA has benefited from several of 
the campaign's innovations, including the more systematic application 
of behavioral science to strategy development, and the qualitative 
evaluation of our messages in concept form, prior to, full production. 
Branding (``the anti-drug'') may, over time, prove to be a benefit as 
well.
    Nevertheless as we examine our own Partnership Attitude Tracking 
Study (PATS) data, and as we consider the campaign as a whole, we are 
seriously concerned by a number of developments:
The apparent slowing of the decline in teen use of marijuana in the 
        second full year of national activity (1999-2000 versus 1998-
        1999)
    After encouraging results in 1998 and 1999, the 2000 PATS study 
indicates that teen marijuana use has hit a plateau. Looking beneath 
usage at attitudinal data, PATS reveals a flattening in perceptions of 
risk (which had risen sharply in 1999) and a similar flattening in 
teens' perceptions that marijuana use is ``everywhere'' and that their 
friends are using (perceptions which has been declining steeply). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It could be that the drop in overall media support for the campaign 
is to blame here. It may be that the creative, is weaker than it was in 
1998/1999, the flighting/message platform approach ineffective or the 
reduction in local support decisive. Factors unrelated to the campaign 
(e.g., pop culture, news events) may have influenced the trend.
    It may also be, however, that the campaign's heavier creative 
emphasis on marijuana, targeted to tweens, softened the message to a 
critical degree. Our hypothesis: by pitching our marijuana message to 
11-13 year olds, while (necessarily) buying our media against 12-17 
year olds, we may have been ``preaching to the choir'' and failing to 
influence -or even alienating--the older, more experienced and 
skeptical teenagers who were watching and listening.
    Tending to support this hypothesis is the following chart, showing 
how, within the teen segment, younger teens (our creative target) held 
the line or even decreased their past month marijuana use, while older 
teens (our media target) actually increased their usage. It seems 
likely to us that our tween targeted creative works while you're a 
tween, but loses its relevance--its sticking power--as the target ages 
beyond our narrow 2-year window. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

1999-2000 increases is teen usage of drugs other than marijuana
    An even more troubling by-product of the heavy emphasis on 
marijuana may be the increases we've seen over the past year in the use 
of other drugs by teenagers. The 2000 PAT'S reports increases in teen 
use of methamphetamine, inhalants and ecstasy.
    Interestingly, while the perceived risks of meth, inhalants and 
ecstasy were flat this year versus last, there were significant jumps 
in teens' perception that their friends were using these drugs, as well 
as cocaine and heroin. The campaign emphasis on marijuana, and the 
absence of (or low-level support for) messages addressing-``harder 
drugs'' (nothing comparable in impact to ``Frying Pan'' is running this 
year), may have helped to allow an atmosphere of permissiveness and 
social acceptance to build up around drugs like meth (past year use up 
from 7 percent to 8 percent) and ecstasy (lifetime use up from 7 
percent to 10 percent).
    In short, while the media campaign appears to have been successful 
in putting a lid on tween marijuana use, it has been less effective 
with older teens, either in reducing marijuana use or in driving down 
use of other dangerous drugs.
    PDFA and its campaign partners are now seriously considering 
whether, with relatively minor shifts in targeting and message 
strategy, we might build on the campaign's success and extend its 
relevance to include teenagers and ``harder'' drugs.
The steady reductions in media support for advertising, down from a 
        national advertising rate of $175MM in Phase I, to $155MM in 
        Phase II to $145MM in Year One of Phase III, to $130MM in Year 
        2--and exacerbated this year by nearly 20 percent inflation in 
        broadcast media costs
    Any refinements made to the campaign, however, will be ineffective 
if inadequately supported, and we continue to be deeply concerned about 
the steady erosion of campaign funds devoted to the media buy.
    ONDCP has been effective to date in securing consistent overall 
funding for the campaign, but the media budget has now fallen well 
below the $175 million (in 1996) originally targeted by ONDCP and PDFA. 
With media inflation this past year well into double digits, and with 
increasing support for other prevention (especially tobacco) campaigns, 
our effective voice has been significantly reduced.
The steady retreat from campaign presence and relevance at the local 
        level
    This is, of course, especially true at the local level, since 
reduced media budgets have forced us increasingly to rely on the 
efficiencies of national media, and the local match system, which might 
have extended our diminished local effort, has never really 
materialized. This clearly has implications not just in terms of local 
GRPs but in terms of local relevance. It limits our ability to respond 
to local conditions, such as a rash of heroin-related deaths or the 
sudden appearance of a new club drug. Moreover, if the campaign doesn't 
find its way onto the local independent stations or into the local 
newspaper, if the advertising ceases to carry the tag and phone number 
of the local coalition or PDFA State alliance program, it loses a 
degree of immediacy and urgency for the local consumer and we begin to 
lose, too, the enthusiasm and support of so many of our local 
stakeholders.
The ever-growing complexity and cost of the campaign's strategic 
        architecture and performance measurement systems
    As the campaign has economized on its local media presence, it has 
expanded ,its cadre of contractors and subcontractors: Porter/Novelli, 
followed by Ogilvy & Mather, Fleishman Hillard, the BCEP (now with 
eight members), four target audience specialists and three ethnic media 
buyers, NIDA/Westat/Annenberg, Millward Brown, and a corps of copy 
testers and focus group moderators. Each of these parties, vastly 
experienced and certain of its point of view, has left its stamp on 
the' campaign.
    The resulting campaign is far too complex, calling as it does for 
the lockstep shuttling in and out, at 6 to 8 week intervals, of TV, 
radio, print, outdoor and interactive messages in multiple languages 
against 36 different strategies aimed at eleven different targets. We 
are skeptical, frankly, that even with each media flight devoted 
entirely to a single message platform, these highly nuanced messages 
(e.g., ``monitor your at-risk sensation seeking tween) will register 
sufficiently after just 8 weeks' exposure to move the needle in 
Westat's survey. (And after those 8 weeks that message platform isn't 
heard from again for half a year.)
    It may be, as I said earlier, that the slowed progress we're 
witnessing in 1999/2000 versus 1998/1999 is due simply to a drop in 
overall media weight, or in local media presence, but my guess is that 
we are expecting too much from consumers in the way of rapid 
attitudinal and behavioral responses to intricately flighted 
messaging--and flighted messaging is the biggest single change in the 
campaign's architecture, this year versus last.
The gradual erosion of enthusiasm and creative support among 
        advertising agencies and CRC members contributing their time 
        and talent to PDFA
    Whatever effect this organizational and strategic complexity may 
have had on the campaign's effectiveness, I can say without question 
that it has eroded the Partnership's support from ad agencies, who 
donate their creative resources, and from our Creative Review Committee 
members, who contribute their valuable time.
    The Partnership has been able over the years to bring forth the 
very best public service advertising because the only constraints we 
placed on their creativity were the creative strategy itself and the 
judgment of the industry's most respected minds. We--PDFA, our agencies 
and the CRC--now work in a state of continual compromise. We have 
compromised on the formation and proliferation of strategies, on the 
qualitative and quantitative evaluation of our work, and on fundamental 
issues such as brand identity.
    All this is in direct contravention of ONDCP's intent, stated at 
the outset of the campaign, not to damage or destroy existing private 
sector programs that had demonstrated success in reducing youth drug 
use. The Partnership has been damaged, in the sense that agencies are 
less and less willing (or even able) to work with us on the ONDCP 
campaign, and we have had to recruit new CRC members to replace those 
who have left in discouragement with the increasingly academic 
character of the campaign and with the very prominent role played by 
ONDCP's advertising contractor.
    As we look ahead, I am optimistic that the progress we've made can 
be sustained and enlarged, but only if the best features of this 
unprecedented campaign are preserved and if we can address the concerns 
I've just expressed.
    Let me propose just a few broad principles for the ``second half'' 
of the campaign, and for the years beyond:
            Full Funding
    I urge you to do all you can, and of course I pledge my help, to 
restore to the campaign an advertising budget that can be effective in 
the face of competitive prevention efforts and media inflation, to say 
nothing of the many pro-drug voices directed at our children. If media 
support continues to erode, we should immediately reserve a significant 
portion of the media match (perhaps half) in which to run the same PDFA 
anti-drug messages running in the paid portion of the campaign.
            Extended Support
    As we look to a time beyond the currently funded 5 years, it seems 
clear that campaign success is a prerequisite for extension of 
Congressional funding. We hope to be in a position to join with ONDCP 
in making the case for effectiveness at the end of the 5 years; if the 
campaign falls short of its objectives, PDFA will of course make every 
effort to incorporate into its pro bono campaign whatever lessons may 
be drawn from our experience in the paid campaign (some of which have 
already been learned, and are referenced in this letter).
            Restoration to PDFA of Strategic Planning
    While acknowledging the benefits of input from contractors and 
subcontractors, we believe that vesting PDFA now with the full 
authority to strategically plan the campaign is both practically 
possible and (perhaps) financially necessary. Simultaneously, I would 
significantly curtail the ongoing systemic role played by the Behavior 
Change Expert Panel, and arrange for their input on an ``as needed'' 
basis (e.g., if general market or ethnic strategies require substantial 
change, or if testing/evaluation methodology needs revisiting). PDFA 
has in many respects ``been to school'' over the past few years, has 
taken on board the most important lessons that BEBP and the campaign 
contractors have imparted, and we are now at a point where their 
continued routine involvement in strategic planning, agency briefing 
and creative evaluation may be more burdensome than helpful.
            The Role of Contractors/Subcontractors
    Moving beyond the one issue of strategic planning, I believe this 
is an ideal time to look seriously at the costs and benefits of 
services provided by the campaign's many contractors and 
subcontractors. I urge serious discussion of a scenario in which the 
advertising portion of the campaign is made entirely (though perhaps 
gradually) the responsibility of PDFA, working with a media and 
planning organization. In such a scenario, I hasten to add, PDFA would 
continue to make use of necessary academic and scientific advisers, 
maintaining rigorous standards of strategy development and copy 
evaluation, but on an as-needed basis and, where possible, pro bono.
    Again, Barry, PDFA is committed to the National Youth Anti-Media 
Campaign. The available evidence suggests we have reason for optimism. 
We eagerly await evidence showing that innovations such as message 
flighting and branding have proven effective. But we also have serious 
concerns, and very real hopes for change. I look forward to discussing 
all this with you at your earliest opportunity. We want to help in any 
way we can.
            Sincerely,
                                                    James E. Burke.

    Mr. Burke. Now, the fact is that General McCaffrey, while 
he received that letter, he retired just about 5 weeks after he 
received it and we went for a year with no leadership at ONDCP, 
and that should be thought through carefully, its impact. We 
did not have a head of the ONDCP for almost a year and we paid 
a price for that.
    While the campaign has not worked as effectively as it 
could or should have over the last 2 years, the data do not 
support the assertion that the campaign has failed, not at all. 
Net drug use since the launch of the campaign is down, and you 
have got to go back to the launch of the campaign, not the last 
8 months, and stable. The same is true for marijuana use.
    I am here today to urge the committee to fully fund the 
campaign in fiscal year 2003 if and only if significant changes 
are made to return to the effort, the original campaign concept 
presented to Congress 5 years ago. That includes, Mr. Chairman, 
ensuring that the Partnership sets and guides the advertising 
strategy for the campaign and that the vast majority of the 
appropriations be used for media buys. If the media campaign is 
to succeed, it will require strict legislative language that 
carefully defines roles and mandates by law what the campaign 
can and cannot do.
    Submitted in my written testimony are specific 
recommendations for getting the campaign back on track, some of 
the same things that we wrote to General McCaffrey before he 
left, that is, tapping the experience and expertise of the 
advertising industry to drive strategic matters on behalf of 
the campaign and rededicating the majority of appropriated 
funds to testing and delivering effective advertising through 
the mass media. Along with these recommendations are concrete 
offers from the advertising industry leadership to assist us in 
this regard.
    This is an area where the country has made great strides. 
Overall use of illicit drugs has dropped by close to 40 percent 
since 1985. I know that is over a long period of time, but that 
does not signify that the campaign has failed. Regular use of 
cocaine, which is the most dangerous, most difficult drug to 
deal with, is down close to 80 percent and the media does not 
talk about it. It is not in the news, but it is a reality and 
it is a very important reality that could not have happened 
without the Partnership for a Drug-Free America.
    Today in America, there are 9.4 million fewer people using 
drugs on a regular basis and four million fewer using cocaine. 
When attitudes change about drugs, Mr. Chairman, drug use has 
changed. I have no doubt that the media played a very, very 
significant role in these remarkable trends.
    The President has set ambitious goals of reducing drug use 
in America by 10 percent in 2 years and 25 percent in 5 years. 
Clearly, we must use every tool at our disposal and emphasize 
our most powerful ones, like the media. And by the way, I think 
those objectives can be met, should be met.
    Advertising alone will not solve the drug problem, but we 
know, as verified by independent research and in-market 
experience, that we can, indeed, reach millions of kids, which, 
again, is the name of this game, with credible, persuasive 
information about drugs via the media.
    Mr. Chairman, to date, the advertising industry through the 
Partnership has contributed about $100 million in campaign 
messages--that is just in the creation of the messages--to the 
National Youth Anti-Drug Campaign. As you may know, we accept 
no Federal funding for our role in this effort.
    The $180 million requested for this campaign represents 
about 1 percent of the Federal drug budget. I know we can make 
this 1 percent work exceptionally hard. I know it can be used 
to produce the results we want if the media campaign is changed 
back to its original vision. Again, that will require us to 
return to a focused, proven, effective approach that we know 
can work. I firmly believe that the media is the most effective 
and efficient method we have to reduce the demand of drugs in 
America.
    I would like to close, if I may, with a commercial, and 
this commercial is for a relatively new drug that has been 
mentioned earlier, Ecstasy. We do not have all the proof that 
we would like to have on this commercial, but I think it is a 
classic example of showing all of us the important ability to 
speak emotionally to parents and their children about how 
horrible this issue really is.
    Senator Dorgan. Why do we not proceed with the commercial, 
please.
    Mr. Burke, thank you very much.
    Mr. Burke. Thank you. I am sorry to take you on that 
emotional trip, but I have spent my entire business life in the 
advertising marketing field and there are two reasons why 
Johnson and Johnson has been successful, among others. One is a 
commitment to getting the best product that you can make 
through technology, and using advertising to its fullest 
extent.

                           PREPARED STATEMENT

    I am biased, and I admit it. I have absolutely no doubt 
that we can win this problem, and I would have not spent the 
last 13 years of my life trying it if I did not, and I feel 
stronger now than I ever have, if we do the right thing with 
the right focus over the right length of time. Again, thank 
you.
    Senator Dorgan. Mr. Burke, thank you very much.
    [The statement follows:]

                  Prepared Statement of James E. Burke

                              introduction
    Thank you, Mr. Chairman, Senator Nighthorse-Campbell and members of 
the committee for inviting me to testify on the future of the National 
Youth Anti-Drug Media Campaign (NYADMC).
    My name is Jim Burke and I have been the full-time chairman of the 
Partnership for a Drug-Free America (PDFA) since 1989. I've been 
actively involved in the drug issue for years, and served as chairman 
of the President's Drug Advisory Council during the first Bush 
administration. Prior to joining the Partnership, I was chairman and 
chief executive officer of Johnson & Johnson, where I began my career 
in 1953 as a product director. I was fortunate enough to spend the 
majority of my working life with Johnson & Johnson.
    As I've said many times before, there were two areas of investment 
that were absolutely essential to Johnson & Johnson's growth and 
noteworthy success over the years: One, our consistent investments in 
research, which led to the development of breakthrough products and 
opportunities in the marketplace; and two, our investments in 
advertising. Simply stated, Mr. Chairman, Johnson & Johnson would not 
be where it is today had it not decided to invest heavily in each area.
    Nor would the organization be where it is today were it not for its 
strict adherence to the Johnson & Johnson credo. I put great stock in 
this document, which is a statement of our professional values. In our 
credo--which is displayed in every Johnson & Johnson office and factory 
throughout the world--we recognize our top responsibility as our 
customers--not profit, not our shareholders, not the corporation 
itself. This recognition has served J&J extremely well, Mr. Chairman, 
in good times and bad--including the Tylenol crisis of the 1980. During 
that crisis, which would have destroyed the corporation, we knew that 
if we did what our customers wanted us to do, we would survive. 
Clearly, Johnson & Johnson did just that, and has not only survived, 
but thrived as a result.
    My belief in advertising and long-standing interest in health and 
wellness issues led me to the Partnership for a Drug-Free America upon 
my retirement from Johnson & Johnson. The Partnership is a unique 
organization, one that I believe represents the best of what is truly 
good about this country. As you know, the Partnership is a coalition of 
volunteers from the communications industry, who work together--pro 
bono--to help reduce demand for illicit drugs in America. Initially 
funded by the American Association of Advertising Agencies and with 
deep roots in the advertising industry, the Partnership began some 10 
years before the inception of the National Youth Anti-Drug Media 
Campaign (NYADMC). Early in its history, this tiny organization defined 
the application of commercial marketing techniques to addressing a 
major social problem. Today, Mr. Chairman, PDFA has 54 state affiliates 
throughout the country. Hundreds of volunteers--professionals in 
advertising, media, consumer research, talent unions, etc.--make this 
organization what it is. All work tirelessly for our mission because 
they believe that their talents--in advertising and media 
communication--can be used to influence societal attitudes about drugs, 
thereby contributing to actual reductions in drug use. They are correct 
in this belief, Mr. Chairman, as documented in independent research and 
our 16 years of in-market experience.
    Since the launch of the NYADMC, the Partnership, through the 
generosity of countless advertising agencies, has donated some $100 
million in advertising campaigns and material to the NYADMC. We receive 
no Federal funding for our role in this campaign.
    The Partnership's expertise is in consumer marketing, which 
involves understanding and serving the needs of parents and children--
or, in advertising parlance, our consumers--as they relate to this 
issue. Through its years and years of research examining and tracking 
the consumers' mindset toward drugs--research that is the very 
foundation of all Partnership advertising--this single-minded 
organization has come to understand what parents and children think and 
feel about drugs unlike any organization in the country. The marketing 
disciplines to which the Partnership adheres have always embraced the 
highest industry standards.
    Communicating effectively with parents and kids about drugs via 
mass media is no easy task. Effective communication is built on solid 
consumer research, research that professionals than translate into 
communication. The challenge of creating effective communication is 
part art, part science; part instinct, part research. It's knowing what 
to say, and how to say it. It's the very essence of what's most 
important about effective advertising--that is, creativity.
    What makes advertising effective? Many things, but the defining 
characteristic is nothing more and nothing less than creativity. In 
advertising, without creativity, there is no communication. You don't 
need creativity to communicate facts and figures. The weather, the 
NASDAQ, the sports scores, the news. You don't need creativity to 
satisfy the left-brain's need for information. But we do need 
creativity to engage and energize our right brains. We do need 
creativity to give information relevance and meaning. We do need 
creativity to generate the differentiating capabilities of 
conceptualization and emotion that are the hallmarks of human 
mentality. We do need creativity to ultimately connect.
    All of us--in marketing, in promotion, in design, in advertising--
live on our ability to turn words, sounds, pictures, images into ideas 
that resonate in people's minds and motivate people's actions. Without 
creativity, there is no impact, there is no response, there is no 
communication.
    It is my belief that the Partnership--that is, the advertising 
professionals and agencies that constitute this unique organization--
has produced some of the most creative, most effective advertising ever 
done in this country, not just in the field of public service, but in 
advertising, period. That's not because of me, Mr. Chairman, or the 
senior executives who work at the Partnership. It's because the 
Partnership's work is actually the industry's work. It represents the 
best the industry has to offer. We are, after all, a coalition of 
professionals from the communications industry. The organization itself 
doesn't create the adverting; rather, it facilitates the creation of 
advertising which is, in a word, exceptional--not perfect, but 
exceptional.
    And that's what we're really here to talk with you about today: the 
importance of the quality of communication, the importance of 
creativity and the creative process and why these are not working 
optimally in the NYADMC.
                         overview of testimony
    Since the NYADMC launched, we've seen a net increase in recall of 
anti-drug advertising, positive movement in drug-related attitudes and 
a continuation of a modest downward trend in adolescent marijuana use 
(the campaign's focus).
    The most dramatic changes in the data came in the first and second 
year of the NYADMC. It is important to note and appreciate these data, 
which are the only data available to assess the impact of the media 
campaign's first 18 to 24 months. The baseline for the Westat/Annenberg 
evaluation of the media campaign, taken 18 months after the launch of 
the campaign, also provides us with data we must note and appreciate. 
This evaluation tells us that during its 3 and 4 year, the NYADMC's 
parent-targeted campaign produced positive results, while the teen-
targeted effort has not. Indeed, teen drug use has remained unchanged 
during this period.
    Independent research, along with PDFA's in-market experience, tells 
us that anti-drug advertising can work--it can change attitudes, it can 
change behavior. To be clear, advertising is not the silver bullet; it 
will not solve the drug problem, or eliminate drug use among teens. But 
it is, without doubt, a highly efficient tool that can be used to 
reduce demand for drugs. There's also plenty of evidence to document 
the effectiveness of similar campaigns that have addressed a variety of 
public health and/or safety issues--i.e., drunk driving, teen smoking, 
etc.
    So why hasn't the NYADMC--with all the time, effort and money 
that's been expended to back this effort thus far--produced better 
results?
    Clearly, the campaign has not worked as effectively as it could 
have, and that's what we need to focus on today for the sole reason 
that there are powerful, constructive lessons to be learned that can 
inform the future direction of the campaign. One could say the 
advertising was ineffective. But that would be wrongly simplistic. In 
our business, Mr. Chairman, these types of assessments require the 
careful consideration of other factors as well.
    Based on my observations and involvement with the campaign, and 
based on my professional judgment, a few factors must be taken into 
consideration to understand the campaign's performance to date:
  --One, the campaign embraced an overarching ``communications 
        strategy''--an overarching theoretical construct, if you will--
        that has proven impractical to execute in the marketplace. The 
        plan--which mandated the themes that would be included in the 
        advertising--was then handed off to the campaign's advertising 
        partners to execute.
  --Two, the systems and procedures and processes put into place to 
        bring this theoretical construct to life have absorbed precious 
        resources and, it is my first-hand observation, has had a net 
        detrimental impact on the quality of advertising produced for 
        the campaign.
  -- And finally, in years 3 and 4, the campaign made a series of 
        strategic missteps that have been costly--both in terms of time 
        and money. These missteps illustrate what happens when 
        intellectually-seductive theory gets in the way of good 
        marketing discipline, which must be responsive to the actual 
        realities how consumers think, feel and act.
    With that, Mr. Chairman, let me say this: This campaign is needed. 
This campaign is necessary. With the right changes, this campaign can 
work. Each day in America, thousands of kids face choices about using 
drugs. Their choices are influenced by a variety of factors--parents, 
friends, siblings, peer group, pop culture and the media. That's where 
we come in: Media-based education campaigns--when managed and executed 
properly--can influence these decisions.
    The campaign was working when it was simple, focused and true to 
its original vision. When it was changed, it stopped working. The core 
idea behind this campaign--tapping into the power of mass media to 
educate teenagers and parents about the dangers of drugs--remains 
sound. In my view, it simply needs to get back to basics. Some say the 
solution is more control of the campaign, more oversight and more 
involvement in the creative development process. I say, Mr. Chairman, 
that is a major part of the problem.
    Should the committee decide to again support the NYADMC, I would 
urge you to carefully consider one critical issue: the depth and breath 
of marketing and advertising experience of the person or persons you 
charge with making key strategic decisions for the campaign. Clearly, 
this was of the utmost importance to us as we managed our businesses at 
Johnson & Johnson. The Partnership is willing to lend its expertise in 
this area, Mr. Chairman, and so is the advertising industry, which 
wants to see the NYADMC realize its full potential. We offer it without 
charge to the NYADMC as a measure of our belief and commitment.
    As we discuss the future of the NYADMC, some are proposing that 
part of the solution for the campaign's problems rests in greater 
control over the advertising development process. Mr. Chairman, in my 
opinion, this is the very last thing we need. I have great respect for 
the power of advertising, Mr. Chairman, and from my years at Johnson & 
Johnson, I came away with an even great respect for the creative 
process. It is a delicate process that must not be interfered with. If 
it is, it will ultimately effect the quality of communication that 
comes through in the advertising itself.
                       the original campaign idea
    As proposed to Congress some 5 years ago, the original ``vision'' 
for the National Youth Anti-Drug Media Campaign included two key 
elements--private sector support, and public sector funding. The 
advertising industry, through the Partnership for a Drug-Free America, 
would provide strategic guidance and message content to the campaign 
pro bono, while the Federal Government would provide funds for the 
purchase of media time and space to deliver these messages with enough 
frequency to influence American teens and their parents.
    It was a vision that grew out of declining media support for PDFA 
messages over the course of the mid-90's as the broadcast industry 
underwent fragmentation and profit pressure. The unfortunate by-product 
of this was net declines in contributions of free media exposure for 
all public service campaigns, including the Partnership's. By 1997, we 
reached a point where Federal purchase of media time was required to 
restore anti-drug messages to their former levels of visibility and 
effectiveness, and the National Youth Anti-Drug Media Campaign was 
born.
    The campaign's concept was simple--the best ideas usually are--and 
in the campaign's first 2 years, 1998 to 1999, it was allowed to 
operate more or less as envisioned by you, the Congress, as the 
authorizing body. In those 2 years, the campaign focused on just two 
types of message (ads focusing on either the risk or social disapproval 
of drugs), targeting a cohort of at-risk teens (13 to 15 year olds, who 
were contemplating or engaged in drug experimentation) and delivered 
those messages through a combination of paid advertising ($154 million 
in that year) and an equivalent amount of free media exposure through 
the campaign's ``match.''
    PDFA national tracking data indicate dramatic increases of recall 
of the advertising, corresponding shifts in drug-related attitudes and 
a modest, but encouraging decline in drug use among teens. During its 
first 2 years, tracking data recorded a 41 percent increase in the 
percentage of teenagers seeing or hearing an anti-drug message every 
day or more. And, as recorded by Monitoring the Future, the National 
Household Survey on Drug Abuse and PDFA's Partnership Attitudinal 
Tracking Study, drug use among adolescents continued trending downward.
    We're here today, Mr. Chairman, because that positive momentum has 
stopped--but it can be regained. In short, Mr. Chairman, the campaign 
in its first 2 years featured all those things it must have again: 
testing of research-based messages; a well-chosen target audience; a 
single-minded strategic focus on the risk and social disapproval of 
drugs; strong financial support from the government for the purchase of 
advertising time and space supported by an effectively targeted 
``match'' program; and, above all, professional guidance on key 
strategic issues. When all these elements were in place, the data 
clearly show the campaign was making inroads.
Campaign Analysis
    While the campaign originated with an elegantly simple vision, 
today it attempts to adhere to an unwieldy theoretical construct of a 
``fully-integrated social marketing campaign.'' The plan has called for 
achieving as many as 19 different strategic communications objectives 
via an integrated communications plan encompassing advertising, 
celebrity involvement, entertainment content, on-line events, corporate 
involvement and sponsorship and so on, with everything's impact 
evaluated by its impact on behavioral outcomes.
    It all sounds impressive, and I believe if you were to share the 
plan with any major corporation in America, the response would be 
clear: nice theory, but it doesn't match real world marketing practice. 
Significant amounts of money were written off by companies promulgating 
the theories of ``fully integrated marketing'' in the 1980s, only to 
conclude what we suggest to you today. The advent of new communications 
technologies since then has only increased the appetite for theories 
that have proved ineffective and wasteful.
    The same can be said for the processes and procedures for the 
campaign. At one time, the process for getting an anti-drug ad created, 
approved and delivered to the American people via this campaign 
involved more than 30 distinct steps. This was an unacceptable burden 
and hindrance on the creative process according to those with 
experience and know-how in creating effective advertising, and indeed, 
the process has been streamlined somewhat. Now it includes 18 steps, 
not counting the steps contained within each step, all of which are 
estimated to take 194 days to complete.
    That's more than 6 months, Mr. Chairman, which means if you were to 
say on the 4th of July that the campaign needed to start addressing a 
new drug threat immediately, the various campaign procedures now in 
place means you would not see a single new ad addressing that threat 
until after Christmas. How many kids do you suppose might benefit from 
a more streamlined process than that?
    And I can tell you that no client in our business, including those 
who spend even more on advertising than the NYADMC program, would 
operate on such an inefficient and ineffective timetable. Can any 
member of this Committee imagine subjecting an election campaign to 
this type of structure?
    Yet, as devastating as all this is to truly effective advertising, 
volunteers have done their best to give the campaign what it has asked 
for. Unfortunately, over the past 2 years, the campaign has taken a 
number of steps away from its ideal focus. Here are a few of those 
steps:
    First the campaign changed the age group it targeted its youth 
advertising to, restricting our target to 11- to 13-year-olds while 
omitting the critically important 13- to 15-year-olds. This may sound 
subtle and somewhat insignificant to most of you, but please understand 
that most children in the younger age range do not, by and large, use 
drugs. Therefore, it's understandable that, despite advertising heavily 
to this group over the last 2 years, drug use rates did not decline. 
Drug trend rates would not decline, obviously, if you talking with kids 
who aren't using drugs.
    The rationale behind this ``inoculation'' strategy was that by 
communicating to a younger, non-drug using cohort, the campaign would 
instill anti-drug (marijuana) attitudes that would carry these children 
through adolescence and effectively prevent experimentation with any 
drug. That's fine theory. We may or may not see return on investment in 
this area but it will take years.
    Beyond that, broadcast media was purchased against the only 
available demographic: 12- to 17-year-olds. The result: older teens 
were being consistently exposed to messages that had limited relevance 
to them, while tweens were receiving messages about a drug that most of 
them have never been offered, and which, at this young age, nearly all 
of them are still determined to resist. (Source some of these sentences 
to buttress the points raised here.)
    Second, the youth-targeted campaign violated one of the cardinal 
rules of advertising: pick your message, and repeat, repeat, repeat. 
The campaign mandated new themes in the advertising, moving away from 
the focus on ads that communicated pointedly about the risks of drugs 
and/or helped develop the idea of their social unacceptability. Per the 
overarching ``communications strategy'' for the campaign, ads were 
created based on such well-meaning but obtuse themes as: ``positive 
consequences of non-use,'' ``demonstrations of refusal skills'' and 
``role modeling.'' (The Westat/Annenberg evaluation notes that messages 
about the risks of drugs most strongly correlated with impact among the 
target.)
    Third, with an expanded message base of advertisements, the 
campaign adopted a strategy of delivering messages through limited 
media ``flights''--media bursts of from 6 to 12 weeks. Between July 
2000 and June 2001, the campaign aimed three different ``message 
platforms'' at teens, and six at parents. Several of these strategies 
ran for just 6 weeks; none ran for more than 12. Such brief flights do 
not offer enough media exposure for any one of these multiple messages 
to resonate in the marketplace.
    Fourth, the campaign adopted its ``The Anti-Drug'' so-called 
branding theme to help build recall of the advertising. This theme 
originally was developed for parent messages, but was modified and 
exported to messages targeting youth with only a cursory check of its 
relevance to actual kids. The problem, Mr. Chairman, is the theme 
presumes that kids are in the market for an ``anti-drug'' in the first 
place. This is almost certainly not the case for older, truly at-risk 
teenagers--and if we want to reduce drug use, which is the campaign's 
goal, it is these older teens the campaign should be talking to. Worse 
yet, mandating this theme requires that all creative work be dedicated 
to ads that make the theme relevant, thus constraining the creative 
ability to make the strategic message as impactful and persuasive as 
possible.
    Now, according to Westat, ``There is good evidence that the more 
individuals were exposed to Campaign advertising the more likely they 
were to recall the brand phrase.'' But recall is a measure of 
efficiency, not effectiveness. High-recall of what is arguably an 
irrelevant message for the target audience does not enhance the 
effectiveness of the communication. To wit, it may actually hurt.
    The necessity of a branding message for this campaign may be 
debatable. But it has been the Partnership's opinion that unlike 
everyday consumer goods advertising, it is unnecessary since the 
``product'' (dissuading kids from using drugs) is unarguable and 
uncontested. When you are advertising a potential cure for a notorious 
disease without competition, you don't need a branding theme line.
    And finally, steadily, since the beginning of the campaign, less 
and less has been spent on delivering anti-drug advertising to target 
audiences. And less and less of the campaign match has been dedicated 
to the same. At the same time, there has been a net increase in the 
cost of advertising, meaning that by spending less, the media campaign 
is getting far, far less exposure today than it did early on.
    Mr. Chairman, many of these issues were first brought to the 
attention of the ONDCP about 2 years ago. In a letter submitted to 
ONDCP, each and every one of these issues were addressed in detail, and 
we urged that the campaign take action to refocus on a more focused 
approach--the right approach, executed the right way--which worked in 
the early stages of the campaign. (Mr. Chairman, I would like to submit 
that letter for the record.)
                  putting the campaign back on course
    We remain committed to the parents and the kids that this campaign 
can help, and we remain committed to the elegantly simple business 
model that produced results in the first 2 years of the campaign.
    Here, Mr. Chairman, are my recommendations for improving the 
NYADMC:
  --Create a Strategic Advisory Working Group to function as the key 
        administrative body of the NYADMC.--Ideally, senior advertising 
        executives and marketing executives with no vested interest in 
        the campaign, or contractual relationship to the campaign, 
        would participate in this working group along with ONDCP and 
        PDFA representation. The working group would monitor and direct 
        the campaign strategies for the advertising and media resources 
        to execute and be responsible to the appropriate committee(s) 
        of Congress. If this Committee were interested, Mr. Chairman, I 
        am certain the American Association of Advertising Agencies 
        would volunteer to assist in assembling a list of candidates 
        for this body. (Ideally, it would be a small group.)
  --Streamline the campaign's advertising approval process and related 
        systems so that they are up to acceptable standards of the 
        advertising industry.--The American Association of Advertising 
        Agencies has offered to assemble an expert panel to make 
        recommendations on the campaign's advertising development and 
        approval systems, by no later than Labor Day.
  --Augment the existing campaign evaluation with research that meets 
        the standards of commercial advertising and marketing.--The 
        American Association of Advertising Agencies has offered to 
        assemble a panel of research experts to make recommendations by 
        no later than Labor Day on what measures beyond Westat the 
        campaign might take into account when evaluating impact in the 
        marketplace.
  --Ensure that appropriated funds are specifically channeled into 
        media buys for the campaign's advertising.--Mr. Chairman, last 
        year, the media campaign spent $130 million of its $180 million 
        on advertising buys. The $130 million working media budget was 
        then split in two--roughly $59 million to reach parents, and 
        $49 million to reach teenagers (with the remainder dedicated to 
        multi-cultural ads and Internet.) In addition, we must 
        encourage and monitor the use of ``matching'' media on the 
        actual NYADMC messages as originally intended rather than often 
        at best vaguely related advertising. (We know the ``match'' is 
        being utilized but we don't know how much of it is truly 
        focused anti-drug messaging.)
    In the commercial marketplace, we compete for share of voice. The 
challenge is to breakthrough to your target audience consistently. That 
requires a fighting chance in the marketplace, Mr. Chairman. Last year, 
Anheuser-Busch spent $396.2 million on media buys. Nike spent $233 
million. The Gap, $229 million. The working media budget of the 
American Legacy Foundation's ``truth'' campaign was $108 million. Mr. 
Chairman, our message exposure level for both the teen-targeted 
campaign and the teen-targeted effort was less than the $65 million one 
company paid to market its highly regarded brand of ketchup.
   what the nyadmc brings to the partnership for a drug-free america
    Opportunity. That's what the campaign brings to the Partnership, 
Mr. Chairman. The campaign puts no dollars in our pockets, or into our 
organization's operating fund. We haven't accepted a dime of the 
campaign appropriation to date. Every trip we've made on behalf of the 
NYADMC, every expense we've incurred--staff time, resources--have been 
absorbed by the Partnership. As an approach to business--commercial, or 
non-profit--this probably isn't the most fiscally sound way to go, but 
Mr. Chairman, remaining contractually non-committed to the campaign 
allows us to speak openly and candidly about what we believe is best 
for parents and the teenagers this campaign is designed to serve.
    What the taxpayers' money does buy for us is two incredibly 
valuable resources: first, research--to test the advertising and to 
track the effectiveness of the campaign; and second, consistent, 
focused delivery of anti-drug messages--via media--to our target 
audience, and the additional leverage that can be provided thereof.
                     what pdfa brings to the nyadmc
    Talent. Creativity--and access to some of the finest creative 
talent in our Nation. World-class advertising. Passion, commitment and 
real-world, in-market, exceptionally-accountable experience. This is 
what the Partnership brings to the media campaign--all for free.
    You can put a price tag on some of it, and we estimate that the 
value of PDFA advertising produced for this campaign to be in the $100 
million range. Hopefully, Mr. Chairman, the work of the dozens of 
advertising agencies that have worked for the NYADMC to date pro bono 
will as examples of the passion, commitment and experience that this 
organization represents. When we hear President Bush talk about the 
importance of volunteering time and effort to the country, we can 
relate. The Partnership is a story of exceptional volunteerism--one 
that has kept me engaged with the organization, despite the demands of 
running a business, for 17 years.
    Your advertising is developed not by one advertising agency, but 
dozens. Thus, your advertising benefits from the pool of talent and 
creative instincts of dozens of professionals in our industry. The 
campaign's advertising enjoys something that every major commercial 
client would give their marketing eye-teeth to have--that is, the 
creative development of multiple creative directors, some of the best, 
most creative minds in the $250 billion advertising industry, whose 
work is then reviewed by their peers. Our Creative Review Committee is 
comprised of men and women responsible for some of the most highly 
successful marketing campaigns in the country. GM, P&G, Microsoft, you 
name it. And each of these commercial advertisers would love to have a 
committee like this review their copy before it was put out into the 
marketplace.
    (The problem is, Mr. Chairman, that the input of these creative 
minds is being second-guessed, changed or simply ignored as the 
advertising we produce for the campaign travels through the NYADMC 
approval process. It is demotivating the volunteer effort and 
commitment. The campaign system is hurting the core creative product. 
It is hurting the effectiveness of the communication produced for the 
effort.)
impact of the nyadmc systems on the partnership for a drug-free america
    As we plan our organization's future, we've done what good 
commercial marketers do--conduct research. This research is designed to 
access the equity we have in the Partnership brand. In other words, 
what do our consumers and constituents think about the Partnership, its 
work and their participation in our mission.
    We are, as I've said, a coalition of volunteers--volunteers who've 
been attracted to contributing their professional talent to the 
organization. Most do so, Mr. Chairman, because they're motivated about 
using their talents in communication to make a difference in the lives 
of people all around the country. (Our new annual report features story 
after story about these volunteers, Mr. Chairman. I would invite you 
and the committee to consider their perspectives. They are inspiring.)
    What we are discovering through our research is that the NYADMC is 
having a negative impact on the experience our volunteers have with the 
Partnership. Research interviews report agencies frustrated with the 
campaign-imposed systems and procedures. Worse, after seeing the 
communication they develop changed for the worse, they're left angry 
and demoralized. Nothing can be worse for us, Mr. Chairman, or the 
future of the Partnership. The implications are clear, and we will be 
monitoring them closely.
    And, as a matter of practical reality, if advertising is to be 
developed by paid agencies in parallel (or in competition) with PDFA 
volunteer agencies, it will only be a matter of a very short time 
before no agency volunteers further. What business would give away what 
their competitors are being paid for?
                               conclusion
    When it comes to the National Youth Anti-Drug Media Campaign, there 
are two clients--the members of Congress who have put the money behind 
this effort, and the American people, who stand to benefit if the 
effort succeeds. For the past 2 years, neither client has gotten the 
results they deserve.
    If that is to change, Mr. Chairman, we must remember that great 
advertising depends on two things: research that informs the strategic 
direction of the advertising, and great creative work. Campaigns of 
this magnitude need focus, experienced strategic guidance. That's what 
the Partnership and its volunteers always have believed in, and it's 
what we continue to be ready to offer.
    Experience counts, Mr. Chairman, and our experience tells us with 
this campaign that if we return to first principles, if we focus the 
effort on what we know works, if we trust talented communications 
professionals with the strategic stewardship of this campaign, we can 
get this campaign back on track.
    As a businessman and as a volunteer for the Partnership for a Drug-
Free America, I ask the committee's careful consideration of the next 
phase of this effort. Perhaps you will decide that this campaign is 
beyond repair. Perhaps you will conclude that it cannot work from 
within the government. If the committee grants this campaign once final 
chance, Mr. Chairman, we need legislative language insuring that it is 
done right, or it shouldn't be done at all. By done right, I mean 
clearly defining the roles of the key players in the campaign--PDFA and 
ONDCP--that push the campaign toward the vision of the effort presented 
to Congress 5 years ago. Simply stated, there is too much at stake for 
the overall prevention field and for public health communication. This 
campaign cannot afford to fall short of its goals again because if it 
does, it will cast a pall over the entire prevention field, it will 
raise doubts about the efficacy of media-based education programs--
which we know, when done well, can work. And it is, at the end of the 
day, our consumers--parents and teenagers--who will suffer the losses.
    The Partnership and the advertising industry stand ready to assist 
you, Mr. Chairman, Senator Nighthore-Campbell and members of the 
committee. Thank you.
    For the record, Mr. Chairman, I have attached a few examples of the 
documented effectiveness of anti-drug advertising developed for the 
Partnership. That material follows, herewith:

Documented Effectiveness of Partnership for a Drug-Free America Efforts

    The original vision of the campaign as a public-private partnership 
was--and continues to be--supported by research that shows research-
based, high-impact anti-drug advertising, running at high levels of 
media exposure, correlates with positive movements in key drug-related 
attitudes and declines in drug use nationally.\1\ Partnership campaigns 
feature outstanding, hard-hitting creative advertising built on strong 
consumer research, meticulously planned strategies and appropriate 
testing of advertising strategies and concepts. When delivered at 
optimal levels of media exposure, these campaigns have had a tremendous 
impact in the marketplace.
---------------------------------------------------------------------------
    \1\ Partnership anti-drug ads began airing in 1987; after declining 
14 percent from 1982 to 1987, past year illegal drug use among 12th 
graders declined 36 percent from 1987 to 1992 [Monitoring the Future].
---------------------------------------------------------------------------
    If I may, Mr. Chairman, allow me to share two examples with you and 
members of the committee.
    National Campaign on Inhalant Abuse.--In the early 1990s, our 
national tracking study indicated a troubling trend developing with the 
abuse of inhalants by children. According to the prestigious Monitoring 
the Future survey, the number of 8th graders trying this unusual form 
of substance abuse increased from 17.6 percent in 1991 to 21.6 in 1995. 
That meant more than one in five 8th graders had reported ``huffing'' 
or inhaling gases or fumes from ordinary household products to get 
high. The Partnership fielded consumer research among children and 
parents to understand consumer attitudes about inhalants. We discovered 
most children knew about the practice, but while most viewed regular 
use of inhalants as dangerous, only 35 percent regarded experimentation 
with inhalants the same way. Our research indicated while parents 
defined the practice of inhalation abuse to glue sniffing, the majority 
of parents were largely unaware of the hundreds of household products 
kids were misusing.
  --Results.--The Partnership launched the first, national, media-based 
        education campaign on inhalant abuse in 1995, featuring parent-
        targeted messages designed to inform parents about the scope of 
        the inhalant problem, and teen-targeted messages designed to 
        convey the extreme dangers of experimenting with inhalants. 
        (Teen-targeted advertisements were cautious not to inform or 
        educate about the actual practice of inhalation abuse.) The 
        results have been dramatic and long-lasting: The number of 8th 
        graders who reported seeing great risk in the use of inhalants 
        increased from 36.4 percent in 1995 to 45.6 percent in 2001; 
        further, the number of 8th graders who reported using inhalants 
        fell by 21 percent. In 2001, Monitoring the Future researchers 
        wrote: ``We think that the active efforts of the Partnership 
        for a Drug-Free America and other organizations to get the word 
        out about the dangers of inhalants have paid off. We observed 
        an upward shift in this belief in all three grades in 1996, 
        which corresponded to when the Partnership launched an ad 
        campaign on the dangers of inhalants.''
    National Campaign Targeting Heroin.--In the mid 1990s, pop culture 
and fashion in America gravitated toward an unusual style that the news 
media described as ``heroin chic.'' To assess consumer attitudes about 
heroin, PDFA examined its national tracking data and detected a 
potential problem in the making. While generations from the 1960s and 
early 1970s experienced first-hand the toll of heroin abuse and 
addiction, the generation of teenagers living in the 1990s had no such 
perspective. Their introduction to heroin was not laced in the heroin-
related deaths of the 60s, but in the fashion lines of the 1990s, which 
were quickly adapted into television, film and other entertainment 
media. Further, the data were clear: According to the 1994 National 
Household Survey on Drug Abuse, just 50 percent of those 12-17 saw 
great risk in trying heroin, compared to 67 percent of those 18-25 and 
86 percent of those over 35. Our researchers also noted that snortable 
heroin made the drug more approachable for a new cohort of consumers.
  --Results.--Several PDFA advertising agencies developed a new 
        campaign designed to deglamorize heroin use--to effectively 
        unsell heroin before its appeal advanced. The campaign included 
        images of young abusers of heroin. Post campaign data indicated 
        positive changes in attitudes about heroin: The percentage of 
        teens who agree strongly that heroin is a dangerously addictive 
        drug significantly increased from 84 percent in 1996 to 89 
        percent in 1997.
    Anti-drug advertising is also playing an important local role 
around the country, via members of the Partnership's State/City 
Alliance Program--which replicate our national model in state- or city-
wide media-based education campaigns--as well as community anti-drug 
coalitions, which adapt our advertising into their overall initiatives. 
Mr. Chairman, allow me to offer the following examples to underscore my 
point:
    According to the 2002 Coalition for a Drug-Free Greater Cincinnati 
survey, adolescent marijuana use decreased 13 percent from 2000 to 2002 
while national rates have remain unchanged.--The survey, which 
indicated adolescent substance abuse had declined in Greater Cincinnati 
for the first time in 12 years, also showed that among youth who report 
seeing anti-drug messages regularly, there was a 20 percent reduction 
in marijuana use. (Source: Student Personal Drug Use Survey; Coalition 
for a Drug-Free Greater Cincinnati, 2002)
    Local media concerns in the greater Miami area and the Miami 
Coalition for a Safe and Drug-Free Community have utilized Partnership 
anti-drug advertising to achieve community-wide goals and objectives 
pertaining to substance abuse.--Research conducted in Miami in 1999 
documents an increase in social disapproval and perceived risk in 
marijuana use corresponding to a decrease in use of the drug among 7th- 
to 12th-graders. The only source of information about the risks of 
drugs that showed a significant increase was television anti-drug 
commercials. (Source: The Miami Coalition/University of Miami Youth 
Scholl Survey; Miami Coalition/University of Miami, 1999)
    From 1998 to 2000, awareness of the risks of drugs increased 
significantly among middle-school students in New Jersey--the primary 
target audience of the Partnership for a Drug-Free New Jersey, which 
adapts PDFA advertising for local distribution in the state. Since 
1995, marijuana use among this teen cohort has decreased proportionally 
by 31 percent, putting the rate of use by New Jersey middle school 
students at half the national average according to then-New Jersey 
Senate President Donald DiFrancesco. DiFrancesco went on to say the 
results ``bode well for the continued success of New Jersey's drug 
abuse prevention efforts.'' (Source: Partnership for a Drug-Free New 
Jersey Middle School Substance Abuse Study, 2000)
    Throughout the years, the impact and influence of Partnership 
advertising has been documented through independent research as well, 
Mr. Chairman. Here are but two recent examples for your consideration, 
both published in the American Journal of Public Health:
  --A case study funded by the National Institute on Drug Abuse and 
        conducted by researchers at the University of Kentucky targeted 
        at-risk--or ``sensation-seeking''--adolescents in select 
        counties in Kentucky with highly-tailored advertising about the 
        risks of marijuana. Over the course of 2 years, select counties 
        in Kentucky were heavily exposed to campaign advertising, 
        developed by PDFA and university researchers. Data were 
        collected and compared to counties in Kentucky with no such 
        exposure to the campaign. Pre- and post-study data collection 
        documented a 27 percent decline in marijuana use among at-risk 
        teens exposed heavily to the campaign, which ran over the 
        course of 2 years. (Preliminary reports from a follow up study 
        indicate the finding is being replicated.)
  --In an analysis of PDFA advertising originally used in the National 
        Youth Anti-Drug Media Campaign, researchers at the Annenberg 
        School of Communication at the University of Pennsylvania 
        reported overall positive impact of PDFA advertising among 
        target audiences. Of 30 anti-drug public service announcements 
        tested, 16 (53 percent) were rated as significantly more 
        effective than the control (a 30-minute program on media 
        literacy with 24 seconds of drug references), 8 (27 percent) 
        were rated at parity with the control, and only 6 (20 percent) 
        were rated as significantly less effective than the control 
        program. In summary, 24 of the 30 PDFA messages, or 80 percent 
        of those tested, rated as good as the control or better.\2\
---------------------------------------------------------------------------
    \2\ ``Avoiding the Boomerang,'' op. cit.
---------------------------------------------------------------------------
    Earlier, independent research also speaks to the value and impact 
of Partnership-created anti-drug advertising:
  --In 1991, a study published in the Journal of Pediatric Medicine by 
        researchers at the Johns Hopkins University School of Medicine 
        showed the impact and credibility of PDFA advertising on urban 
        and suburban Baltimore-area school children. The study found 
        that among middle and high school students exposed to anti-drug 
        advertising, the majority identified a positive impact of the 
        ads on their knowledge, beliefs and attitudes pertaining to 
        drug use. Further, 75 percent of these students perceived that 
        the ads had a deterrent impact on their own actual or intended 
        drug use--and even many drug users claimed a deterrent impact 
        of anti-drug advertising. In conclusion, the authors said, 
        ``our findings suggest that anti-drug advertising serves as a 
        deterrent to youth substance abuse.'' \3\
---------------------------------------------------------------------------
    \3\ ``The Impact of Anti-Drug Advertising,'' Reis, Duggan, et al.; 
December 1994.
---------------------------------------------------------------------------
  --Scheduled for publication in the August 2002 American Journal of 
        Public Health is an analysis of the influence of Partnership 
        advertising on marijuana and cocaine trends, conducted by the 
        Stern School of Business at New York University. Researchers 
        found the cumulative impact of anti-drug advertising was to 
        lower the probability of marijuana trial by 9.25 percent and 
        cocaine trial by 3.6 percent. The researchers also found that 
        the availability of drugs had no association with most usage 
        decisions, suggesting ``more emphasis should be placed on 
        demand versus supply side strategies for decreasing drug 
        consumption.'' \4\
---------------------------------------------------------------------------
    \4\ ``Does Anti-Drug Advertising Work?'' Block, Morwitz, et al., 
scheduled August 2002.
---------------------------------------------------------------------------
  -- And in a unique collaborative case study, published in 1993 
        jointly by Harvard University's School of Public Health and the 
        Harvard Business School, researchers examined the genesis of 
        PDFA's unusual business-oriented approach to addressing a major 
        public health problem. The researchers noted that in the first 
        few years of the Partnership's efforts, the number of teens 
        reporting they had tried marijuana fell nearly 23 percent, 
        while attitudes toward drugs and drug users became increasingly 
        negative.\5\
---------------------------------------------------------------------------
    \5\ ``The Partnership for a Drug-Free America,'' Walsh, Moeykens, 
et al., September 1993.
---------------------------------------------------------------------------
    The effectiveness of advertising created for the Partnership for a 
Drug-Free America, and the business model of PDFA, served as the 
foundation for the concept and original vision of the National Youth 
Anti-Drug Media Campaign. It is that vision that guides our 
recommendations for how to ensure that this campaign will give the 
American people the results they deserve.

    Senator Dorgan. Next, we will hear from Dr. Lloyd Johnston, 
a Distinguished Research Scientist, Institute for Social 
Research, University of Michigan. Dr. Johnston, your entire 
statement will be part of the record. You may summarize. Why do 
you not proceed.
STATEMENT OF LLOYD D. JOHNSTON, Ph.D., DISTINGUISHED 
            RESEARCH SCIENTIST, INSTITUTE FOR SOCIAL 
            RESEARCH, UNIVERSITY OF MICHIGAN
    Mr. Johnston. Thank you, Mr. Chairman, Senator Campbell. I 
am going to suggest in my testimony that we may be in danger 
here of over-interpreting a single study when looking at a 
large issue over a long period of time.
    I appreciate the opportunity to comment. My name is Lloyd 
Johnston. I am the Program Director and Distinguished Research 
Scientist at the University of Michigan's Institute for Social 
Research, where for the past 28 years, I have directed the 
ongoing study of drug use among American young people entitled 
``Monitoring the Future.'' Much of my testimony today draws 
upon that work, so let me just mention briefly a little bit 
about what you will be looking at.
    This is funded by the National Institute on Drug Abuse 
under a series of research grants. It contains large nationally 
representative samples of students in eighth, tenth, and 12th 
grades, ranging in age from 13 to 18, roughly, so teenagers. 
Then at present, some 45,000 students are surveyed each year. 
They are asked their use of a wide variety of drugs and also 
some of their experiences and attitudes and beliefs related to 
those drugs, and more specifically, they are asked about how 
frequently they see anti-drug commercials or spots on 
television or hear them on the radio and about the extent to 
which they feel that such commercials have made them less 
likely themselves to use drugs. So we are asking the audience 
here.
    My comments are organized around a set of charts, to which 
I would like to draw your attention. For the audience that 
cannot see them, they are also in the back of my written 
testimony.
    The first contains the long-term trends in marijuana use, 
actually, over a 26-year period, less than that for the 8 and 
10 grade students. I want to comment on a couple of things on 
this chart, and one is the great variability over time. These 
behaviors that we are looking at are not immutable behaviors. 
They are subject to a range of social influences and they have 
changed in response to those over the decades.
    Note also that use leveled off in 1996 or 1997 in all 
grades after a period of fairly sharp rebound in the epidemic 
in the early 1990s. And in fact, in the eighth grade, there has 
continued to be some fairly steady decline in marijuana use 
since that turnaround. The year 2001 was the first exception, 
where it was flat.
    Chart two shows very similar trends for an index of using 
any of the illicit drugs other than marijuana, which is quite a 
range of drugs, of course. It has fairly similar trends to 
those for marijuana. There has been some progress since 1998, 
when the Federal campaign began, for eighth graders in 
particular, again, the youngest teens showing some downturn 
through the period when the Federal campaign has been in place.
    And a number of important specific drugs have declined 
appreciably during this period and I want to call attention to 
that because all the focus here has been on marijuana. 
Inhalants, as I will show you later, have gone down a lot, LSD 
use, heroin use, cocaine use, crack use. These are important 
drugs. They were the center of our drug concerns in the 1980s.
    I do not have the time to show you the charts for these 
individual drugs, but if I did, what you would see is each one 
has a different profile of change over time and that suggests 
strongly that there are drug-specific influences that are 
driving their use. It is not just a general attitude against 
drugs or for drugs. It is more specific beliefs about Ecstasy 
or LSD or marijuana. Two powerful influences that we think 
account for this have been the perceived risk associated with a 
drug--is it dangerous to use--and disapproval.
    Chart three shows the trends in reported weekly exposure by 
students to anti-drug commercials on TV and radio. This 
actually goes back to the beginning of the PDFA effort in 1987. 
What you see is that in the early 1990s, there was a gradual 
decline in recall exposure, something that we knew from the 
data on media placement, as the pro bono placement waned. The 
kids were simply seeing less ads, as we would expect.
    Then in 1999, there was a sharp increase as the Federal 
funds kicked in to buy time and space, and then a leveling. But 
notice also that the rates of recall exposure have not yet 
reached the earlier levels during the pro bono period, so there 
may be a question here of sufficient media weight that some of 
the earlier comments have addressed.
    Chart four shows trends and students' reactions to the 
campaign. They are asked to what extent the ads have made them 
less likely to use drugs themselves. I have always been rather 
amazed at how positive these results have turned out. The 
majority of students at all three grade levels credit the anti-
drug ads with having at least some deterrent influence on them 
and that has been true throughout, and substantial proportions 
credit the ad campaign with having a lot of influence. Forty 
percent of the eighth graders, for example, in 2001 say that.
    The proportion of eighth graders reporting effects has 
risen steadily since 1997 as exposure has increased, but note 
also that the reported effects by the upper grade levels have 
not changed, so it looks like we are getting less bang for the 
buck with the middle and later teens, because they are getting 
more exposure, but they are not reporting more impact.
    Finally, I want to turn to the inhalants. Senator Campbell, 
you mentioned them, and this is one of the cases. 
Unfortunately, Figure 5 is missing thanks to Kinko's, but if 
you had it, and it is in my testimony, it would show that in 
1995 and 1996, right after the anti-inhalant campaign was 
launched by the Partnership for a Drug-Free America, there was 
a sharp increase in the perceived dangers of inhalant use.
    In chart six, which you can see, actual use of inhalant, 
which had been rising steadily for nearly two decades, began to 
turn around and has been declining since, has declined 
substantially, on the order of 30 to 45 percent, depending on 
which grade level you look at.
    So in conclusion, I would say there is evidence that media 
campaigns can and do have deterrent effects, and there is also 
evidence, by the way, in other domains, in cigarettes and 
alcohol, where there have been changes that I think can be 
linked to media campaigns. So I hope here that we are careful 
not to throw out the baby with the bathwater.

                           PREPARED STATEMENT

    Just because one preliminary report, dealing with a single 
drug out of many, covering a very short period of historical 
time--18 months, and focused on a particular implementation of 
a media strategy, which is what the ONDCP was doing at that 
particular point in history--and that changed, by the way, in 
that 18 months--just because that fails to find evidence of 
effects, I think, is not sufficient reason to give up on the 
entire enterprise. I have tried to show evidence that would 
lead to a quite different conclusion about both the need and 
desirability for having a vigorous and sustained Anti-Drug 
Media Campaign. Thank you, Mr. Chairman.
    Senator Dorgan. Dr. Johnston, thank you very much.
    [The statement follows:]

             Prepared Statement of LLoyd D. Johnston, Ph.D.

    I appreciate the opportunity to present testimony before the 
Subcommittee. My name is Lloyd Johnston. I hold the titles of 
Distinguished Research Scientist and Program Director at the University 
of Michigan's Institute for Social Research, and my training is as a 
social psychologist. I have spent the majority of my career studying 
the substanceusing behaviors of American adolescents and young adults. 
Much of that time has been spent serving as the principal investigator 
of the ongoing Monitoring the Future study, which was launched in 1975 
and has been funded under a series of competing research grants from 
the National Institute on Drug Abuse. Findings from the study are 
disseminated widely through national press conferences and press 
releases, three annual monographs, occasional books, journal articles, 
chapters, etc. I have also served on the National Commission for Drug-
Free Schools, the National Advisory Council on Drug Abuse, and various 
other national and international advisory bodies in the drug field.
                    the monitoring the future study
    Monitoring the Future, from which I will be drawing most of the 
findings for this testimony, is based on large, nationally 
representative samples of students in eighth, tenth, and twelfth 
grades. At present some 45,000 students in roughly 425 secondary 
schools are surveyed each year and asked about their use of a wide 
array of licit and illicit substances, as well as related attitudes, 
beliefs, and experiences. Among the experiences about which they are 
asked is their exposure to anti-drug commercials on radio and 
television, which provides information relevant to the present 
hearings. Considerably more information about this study and its many 
publications may be found on its Web site, www.monitoringthefuture.com.
                    questions on the media campaign
    The National Anti-Drug Media Campaign constitutes an expansion, and 
to some degree a redefinition, of the national media campaign initiated 
by the Partnership for a Drug-Free America (PDFA) in the latter half of 
the 1980s. When the original PDFA campaign was launched, my colleagues 
and I on the Monitoring the Future study decided to add a set of 
related questions to the ongoing surveys. Our interest was to determine 
the extent to which the campaign was reaching American young people, 
how they were reacting to it, and to what extent they saw the ads as 
credible. We were also interested in how these factors would change 
over time. To the best of my knowledge, these are the only such long-
term data in existence and the only such data that predate the 
launching of the effort by ONDCP.
    Questions were first placed in the questionnaires in 1987. At that 
time only twelfth grade students were being surveyed annually, but in 
1991 younger students--eighth and tenth graders--were added to the 
annual surveys. The questions have been retained in the surveys in the 
years since, and much of what I will share here derives from them. They 
ask about the respondent's frequency of exposure to all anti-drug media 
spots, not just those contained in the national campaign; but, because 
the preponderance of such advertising has been contributed by the 
campaign, we take them as responses that apply directly to the 
campaign.
                     trends in adolescent drug use
    Let me first note the fundamental trends in the phenomena that the 
campaign is intended to influence--the use of illicit drugs by American 
young people. Figure 1 shows the trends in the use of marijuana by all 
three grade-levels (8, 10, and 12) for the years in which we have data 
on each, and Figure 2 does the same for the use of any illicit drug 
other than marijuana. (The ``other illicit drugs'' category encompasses 
quite a range of substances, from amphetamines and cocaine to LSD and 
heroin.)
    Two things should be noted in these figures. The first and most 
important is that the levels of use of these substances have fluctuated 
widely over time. These are not immutable behaviors: they are subject 
to a range of social influences. The second is that, while drug use 
rose substantially during much of the 1990s, there has been a leveling 
in recent years and, among the eighth graders in particular, some 
relatively steady, gradual decline in use. In other words, there has 
been some recent progress among the younger teens, who have been the 
primary targets of the media campaign.
    An additional point that derives from our data, but is not 
illustrated in the figures, is that no two drugs follow the same cross-
time trajectory. Each has its own pattern of change, strongly 
suggesting that factors specific to each drug are responsible for 
changes in its use. Central among the controlling factors that we have 
been able to identify have been the level of risk that young people 
perceive to be attached to the use of each particular drug (perceived 
risk), and the degree to which they disapprove of its use 
(disapproval). Perceived risk has actually been a leading indicator of 
change in a number of cases, including for marijuana and cocaine. These 
two facts in combination suggest that young people respond to what they 
perceive to be the dangers of using particular substances as well as to 
peer norms about their use. I will return to illustrate this point 
toward the end of this testimony.
                 adolescents' views of the ad campaign
    Across the years that we have had questions on anti-drug ads, we 
have been surprised at the high levels of recalled exposure young 
people report and also at the high degree of efficacy they attribute to 
the ads in influencing their own likelihood of using drugs. Adolescents 
are not known for their willingness to admit that anyone is influencing 
them, which I thought put the bias in the direction of their 
underestimating the effects of the campaign.
    Figure 3 illustrates that students' recalled exposure to anti-drug 
ads has been quite high for some years, though there have been 
important changes over time. The younger teens--the ones most heavily 
targeted in the campaigns--consistently report higher exposure than the 
older ones. All three grade-levels showed a steady decline in exposure 
during much of the 1990s, as pro bono media placement of the PDFA-
produced ads declined. Between 1998 and 1999, however, there was a 
sharp jump in exposure, no 3 doubt reflecting the effect of the Federal 
infusion of resources into the campaign in order to buy media time and 
space.
    Note, however, that the reported exposure levels still have not 
reached what they were in the best years of the pro bono campaign. 
Whether that means that actual exposure levels are lower or that the 
ads are somehow less memorable, is not clear.
    Figure 4 shows trends in the proportions of students who say that 
they think the ads have made them less likely to use drugs at least ``a 
little'' or have done so ``a lot.'' The majority of students at all 
three grade levels credit the anti-drug ads with having at least some 
deterrent influence on them, and substantial proportions credit the ad 
campaign with having a lot. That would seem to me to be every 
marketer's dream.
    The younger the students, the higher the judged influence rating 
has been. At present, fully 40 percent of eighth graders say the ads to 
which they have been exposed have had a lot of influence in making them 
less likely to use drugs. How would I reconcile this with the negative 
findings from the recent evaluation of the campaign? Certainly one 
possibility is that the students are responding in relation to their 
possible use of all illicit drugs (which is what the question asks 
about) and not just about marijuana use, which was the subject of the 
evaluation. Another is that they are talking about the cumulative 
impact on them over a longer period of time than that encompassed in 
the evaluation.
    One puzzling finding is that, although judged impact declined along 
with recalled exposure in the earlier part of the 1990s, judged impact 
has not risen much with the increase in exposure in the late 1990s, as 
would be expected. The primary exception has been among the eighth 
graders. They have shown a steady increase in judged impact and, 
perhaps not coincidentally, are the ones showing a decline in drug use 
in recent years. In fact, their increase in judged impact of the ads 
actually began prior to the sharp increase in recalled exposure in 
1999, when the Federally funded campaign really got underway. It may be 
that qualitative changes in the ads, and/or emphasis on different drugs 
(including inhalants), started to get through to the younger teens even 
before there was an increase in exposure.
    In sum, there is considerable evidence consistent with the notion 
that the ad campaign(s) have had influence on the drug-using behaviors 
of American adolescents over the years. Every year's respondents have 
had considerable proportions judging the ads to be effective with them. 
And in recent years drug use has declined most among the eighth 
graders, who are also the ones reporting the highest levels of ad 
exposure and who judge the impact on their own behavior to have been 
greatest. But there is also some indication that the more recent ads 
have somehow had less salience than those used in the earlier 
campaigns, because among the tenth and twelfth graders, at least, 
judged impact has not risen very much even though their rate of 
recalled exposure has.
    What might account for such a shift is difficult to identify, and 
there may be as many hypotheses as there are commentators. My own 
hypothesis for some time has been that placing the name Office of Drug 
Control Policy as a tag line at the end of each ad causes 4 many young 
people to dismiss the message content immediately upon viewing. After 
all, the credibility of the message is judged in large part by the 
identity of the message giver, and an ``office'' involved in 
``control'' and ``policy'' is not likely to be a source from whom 
adolescents would welcome a communication. I also have not been 
convinced that the strategy of branding the campaign with ``the anti-
drug'' has been a good idea. I suspect that it may be seen by young 
people as too slick, but surely some focus groups could be used to 
examine that hypothesis.
                         the case for inhalants
    I would like to close my comments by referring to what may be the 
most persuasive evidence of the capacity of an anti-drug ad campaign to 
influence youth behavior. It relates to the notion that each of the 
many drugs has specific influences that affect its level of use. In the 
mid-1990s Monitoring the Future drew the attention of the PDFA to the 
fact that inhalant use, which is used mostly among younger teens, had 
been rising gradually but steadily for nearly 20 years, as of 1994 or 
1995. (Inhalants are solvents, aerosols, and gases that can be inhaled 
for the purpose of getting high.) PDFA undertook an anti-inhalant 
campaign in 1995 aimed at teens, and in 1996 we saw a sharp increase in 
the perceptions of risk associated with using these drugs--an increase 
that has continued in the years since (see Figure 5).
    Since 1995, there has been a fairly steady and quite substantial 
decline in inhalant use that is continuing today. Proof positive of an 
impact of the media campaign? No, but we almost never have proof 
positive. The fact that the decrease in the use of the other drugs 
generally did not occur for another one to 2 years strongly suggests 
that something was going on specifically related to inhalants. And the 
one thing that we know occurred that year was the introduction of the 
ad campaign, which emphasized the dangers of inhalant use, of which, by 
the way, I think many young people were relatively unaware. Their 
perception of risk went up and use started down.
    Inhalants may have been an ideal case for public service 
advertising to be effective, since the dangers of the drug were not yet 
well known up to that point. A parallel case might be made at the 
present time for ecstasy (MDMA), the use of which has grown sharply in 
recent years, as our study has documented. And, unfortunately, there 
will always be new drugs coming onto the scene, like ecstasy, with 
false promise and little yet known about their risks. Ad campaigns have 
particular potential for dealing with them; and, unfortunately, we do 
not have all that many alternatives in our armamentarium for dealing 
quickly and effectively with such threats.
                              conclusions
    So, I hope that we are careful not to throw the baby out with the 
bath water here. Just because one preliminary report, dealing with a 
single drug out of many, over just a very short period in history, and 
focused on a particular implementation of the media strategy, fails to 
find evidence of effects is not sufficient reason to give up on the 
entire enterprise. I have tried to show evidence that would lead to a 
quite different conclusion. Each new generation of American young 
people needs to be taught anew just why it is that they should stay 
away from the many illegal drugs available to them. That is because 
with generational replacement comes what I call ``generational 
forgetting.'' If young people were born too late to learn the lessons 
learned by their predecessors when the ravages of particular drugs 
became widely known, then they are poised to repeat their mistakes as a 
result of their own naivete. The country needs to institutionalize 
mechanisms for passing on such knowledge persuasively, and there are 
not a lot of options available to us for doing that. So we discard any 
of them at our peril. An antidrug advertising campaign is one of those 
few such mechanisms. Good prevention curricula in the schools 
constitute another, and engendering motivated and informed parents is 
the third. (The third is largely accomplished through media campaigns, 
incidentally.)
    There is too much at stake. While American young people now have 
considerably lower rates of illicit drug use than they did in earlier 
periods of this 35-year epidemic, they still become involved with 
illicit drugs at a rate higher than just about any other country in the 
world. That means that the problem remains to be contained, as well as 
to be prevented in future generations.
                          selected references
    Johnston, L. D., O'Malley, P. M., & Bachman, J. G. (2002). 
Monitoring the Future national results on adolescent drug use: Overview 
of key findings, 2001. (NIH Publication No. 02-5015). Bethesda, MD: 
National Institute on Drug Abuse, 57 pp.
    Johnston, L.D., O'Malley, P.M., & Bachman, J.G. (2001). Monitoring 
the Future national survey results on drug use, 1975-2000. Volume I: 
Secondary school students. (NIH Publication No. 01-4924). Bethesda, MD: 
National Institute on Drug Abuse, 492 pp. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dorgan. Next, we will hear, finally, from Dr. 
Hornik. He is the Wilbur Schramm Professor of Communication at 
the Annenberg School for Communication at the University of 
Pennsylvania. Dr. Hornik, why do you not proceed.
STATEMENT OF ROBERT C. HORNIK, Ph.D., WILBUR SCHRAMM 
            PROFESSOR OF COMMUNICATION, ANNENBERG 
            SCHOOL FOR COMMUNICATION, UNIVERSITY OF 
            PENNSYLVANIA
ACCOMPANIED BY DAVID MAKLAN, VICE PRESIDENT AND STUDY AREA DIRECTOR, 
            WESTAT

    Mr. Hornik. Thank you, Chairman Dorgan and Senator 
Campbell. My name is Robert Hornik. Dr. David Maklan, who is to 
my left and from Westat, and I serve as co-principal 
investigators on the evaluation study. Dr. Maklan, along with 
Project Director Diane Cadell, has overall responsibility for 
contractor performance while I have lead responsibility for 
study design and analysis.
    In our current report, we address three major questions. 
Has the campaign reached its audience? Has the campaign 
addressing the parents been effective? And has the campaign 
addressing youth been effective? I will highlight results in 
our fourth semi-annual report, which was submitted to Congress 
in May. The results we discuss today are based on four national 
surveys of parents and youth, a total of about 10,000 
interviews with youth and about 8,000 with parents.
    First, has the campaign reached its audience? You all have 
summarized this. The answer is, briefly, yes. The campaign has 
used the money provided to it by Congress to buy substantial 
amounts of advertising time and the population of youth and 
parents report seeing those ads once a week or more. Most of 
them recall the campaign's brand phrase identifying that. So on 
those grounds, and Dr. Johnston's results are similar, there is 
good recognition, good recall of the ads.
    So the next question, what were the campaign's effects on 
parents? The parent campaign seeks to reduce youth drug use by 
encouraging parents to engage with their children. Earlier, 
this included encouraging parents to talk with their children 
about drugs and do fun activities with them. More recently, the 
campaign has focused on parent monitoring of children, making 
sure that parents know where their children are, knowing what 
their children's plans are for the coming day, and making sure 
their children are around adults.
    Here are the basic results. There is evidence for positive 
change between 2000 and 2001 in most of the parent talking and 
monitoring outcomes. Second, those most exposed to the ads have 
better scores in the outcomes and we found that those outcomes, 
those effects, were particularly consistent for fathers rather 
than for all parents.
    However, we did not find evidence that parents who were 
most exposed had children less likely to use marijuana yet. It 
does not mean it will not happen later, but thus far, we have 
not seen that. And also, we did not find evidence that parents' 
early exposure to the campaign predicted subsequent improvement 
in these parent outcomes. We would have liked to find that.
    But in summary, we have some evidence consistent with an 
effect of the campaign on the parent outcomes. While it is not 
as definitive as it could be, as an interim result, 2 years 
into the campaign, and while we continue to collect data, this 
is favorable evidence about the parent effects.
    So, then, what were the campaign's effects on youth? In 
contrast to the parent results to date, as you have all said, 
there was little or no evidence that the campaign has convinced 
youth to avoid marijuana use or to change their ideas about 
marijuana, and again, we are focusing on the campaign funded by 
Congress. We have seen no reduction in youth marijuana use 
since the first wave of data collection in the first half of 
2000. Also, of course, Lloyd Johnston was showing these data, 
the monitoring in the future study with its longer time trend 
has not reported any major change in youth marijuana use since 
1998 and the start of the campaign, although we can discuss 
that later.
    In addition to youth use of marijuana, we also measured 
youth ideas about drugs, the ideas that might predict 
subsequent initiation of use, or that are known to predict 
subsequent initiation of use. These included intention to begin 
marijuana use, marijuana beliefs and attitudes, social norm 
perceptions about parents and peers, and their confidence in 
saying no to marijuana. There was no overall favorable trend in 
any of these ideas about marijuana for youth. In addition, 
youth with more and less exposure to the campaign had pretty 
much the same ideas about marijuana.
    Finally, we also studied closely the 1,800 youth who had 
never used marijuana when we first interviewed them in the 
first half of 2000. We interviewed them again 18 months later. 
The findings from these youth were unanticipated. On some of 
the measures and for some subgroups, there was evidence that 
early exposure to the campaign predicted more pro-marijuana 
beliefs at the second interview. It also predicted more 
likelihood of initiation of marijuana use, but again, just for 
some subgroups.
    Girls with the highest campaign exposure at the start were 
more likely to initiate marijuana use than less-exposed girls, 
but this unfavorable effect was not seen for boys. The 
unfavorable association over time was also found for the 
youngest respondents and for the respondents who were at lowest 
risk for initiation.
    So what are our conclusions thus far? First, the campaign 
was successful in getting exposure to its ads. It may have 
influenced parents to engage more with their children, but it 
has not affected youth positively thus far. There is some 
evidence of unfavorable delayed effects on youth.
    What I have just presented in summary form is what we know 
so far. However, these results are best understood in the 
context of some background information. First, we view the 
evidence of unfavorable effects on youth to be interim results. 
Thus far, we are reporting on the 40 percent of the national 
sample of youth. The next semi-annual report will include the 
rest of the youth. The results then may be different.
    Second, these interim negative results are surprising given 
the history of research on public communication campaigns. 
There is no other published evidence that shows a negative 
effect like this on a large-scale campaign, although there is 
evidence on campaigns that were ineffective. Also, other 
published evidence about one anti-marijuana campaign and 
particularly about campaigns addressing other substance use, 
particularly tobacco, notably those in California, Florida, and 
Massachusetts, have reported favorable results for national 
campaigns, or for media campaigns.
    Third, these results cannot be seen as representative of 
all possible campaigns to justify a conclusion that 
communication campaigns do not work. No advertiser, having seen 
that a particular series of commercials failed to affect sales 
of a product, would swear off advertising. They would go back 
and try to develop a revised set of advertisements or a broader 
marketing program that would improve sales.

                          PREPARED STATEMENTS

    We appreciate the opportunity to present these results. 
They capture some of the highlights of our several-hundred-page 
report reflecting the contributions of our colleagues at Westat 
and at the Annenberg School for Communication at the University 
of Pennsylvania, under contract with the National Institute on 
Drug Abuse. Dr. Maklan and I will be pleased to answer any 
questions you might have about the evaluation.
    [The statements follow:]

               Prepared Statement of Robert Hornik, Ph.D.

    Chairman Dorgan, Senator Campbell, and distinguished members of the 
Committee.
    My name is Robert Hornik, I am Professor of Communication and 
Health Policy at the Annenberg School for Communication at the 
University of Pennsylvania. Dr. David Maklan and I serve as Co-
Principal Investigators for the evaluation study. Dr. Maklan, Westat 
Vice President and Study Area Director, has overall responsibility for 
contractor performance with particular focus on study operation, along 
with Project Director Diane Cadell, while I have lead responsibility 
for study design and analysis.
    In our current report we address three major questions:
  --Has this National Youth Anti--drug Media Campaign reached its 
        audience?
  --Has the youth Campaign been effective?
  --Has the parent Campaign been effective?
    In my presentation I will highlight the answers we have to each of 
these questions at this point after 2 years of the evaluation of this 
phase of the Campaign. These are results presented in substantial 
detail in our Fourth Semi-Annual Report of Findings submitted to 
Congress in May. http://www.nida.nih.gov/despr/westat/index.html
    The results we discuss today are based on four national surveys of 
parents and youth. We have completed four waves of data collection, 
each approximately 6 months long, starting at the end of 1999; the 
first three were enrolling new sample, a total of about 8,000 youth and 
6,000 of their parents. The 4th wave, from June 2001 through December 
2001 was the first follow-up wave, where we re-interviewed the same 
youth and parents originally interviewed in the first half of 2000. It 
included around 2000 youth 12-18 and 1500 of their parents who had been 
originally interviewed in the first half of 2000. The 5th wave, will be 
completed this month and will include follow-up interviews with all the 
remaining youth and parents, those originally interviewed between July 
2000 and June 2001. In addition we make use of advertising time 
purchase data provided by the Campaign.
                 has the campaign reached its audience
    The Campaign has reported that it has purchased enough advertising 
time to reach the average youth 2.5 times per week and the average 
adult 2.2 times per week with its targeted advertising on television, 
radio, print, billboards and other channels from September 1999 through 
December 2001. Additional exposure to Campaign-linked advertising may 
come from free matching time provided by media companies, or from the 
fact that youth may see parent-targeted ads and vice-versa.
    Television and radio make up about 80 percent of the advertising 
exposure purchased for youth and 60 percent of the advertising exposure 
purchased for adults.
    There has been a good deal of shifting across the waves in what the 
ads have emphasized. For youth, the ``normative education/positive 
consequences'' platform received attention across all four waves 
(between 40-70 percent of all advertising). The ``resistance skills '' 
platform received some play only in the first half of 2000 (33 percent) 
and the first half of 2001 (47 percent), while the ``negative 
consequences '' platform received smaller amount of play in the first 
1.5 years of Phase III of ONDCP's campaign, but 60 percent of the 
purchases in the last half of 2001. For parents, messages about 
parenting skills and personal efficacy received a large share of ad 
purchases across all waves, while ``Your child at risk'' platform got 
substantial play only in the first half of 2001, and the ``perceptions 
of harm'' platform only in the first half of 2000.
    What do these purchases translate into? Does the audience see and 
remember the ads? Yes, we think that they are noticed by the Campaign 
audiences.
    About 70 percent of both youth and parents report that they recall 
seeing or hearing at least one ad per week
    Television advertising is the best recalled of the channels on 
which the Campaign has sent out its anti-drug messages: just less than 
half of all youths recall seeing one TV ad each week. A little more 
than one-fourth of all parents recall seeing an ONDCP Campaign TV ad 
each week. TV advertising has been purchased less for parents than for 
youth.
    For both youth and parents the recall of TV advertising had 
increased notably in the last half of 2001, even though the events of 
9/11 forced a reduction in advertising purchases during part of that 
period
    These estimates are all averages of course. There are some periods 
when advertising purchases are higher and times when it is lower and 
recall of advertising varies as well. Also, some youth or parents 
recall lots of exposure to advertising and others recall very little.
    Clear evidence that these messages are being heard come from parent 
and youth recall of what the Campaign calls their ``brand phrases''. 
The Campaign has chosen related brands phrases for both the youth and 
the parent campaigns. For the youth they focused on ``my anti-drug'', 
e.g. ``soccer: my anti-drug'' For parents they focused on ``the anti-
drug'', e.g. ``communication: the anti-drug.''
    The branding effort has clearly taken hold. About three-quarters of 
all youth and three-fifths of parents recognized their respective brand 
phrases.
    Youth are more likely to recognize the ``My anti-drug'' brand than 
they are to recognize ringer phrases, and for both youth and parents 
rates of Campaign exposure are closely related to recognition of the 
brand phrase. The branding results were stronger in the last half of 
2001 than they were in the first half of the year.
    There continues to be a high level of reported exposure to drug 
related information from other sources for both parents and youth. For 
youth, such other sources include exposure in school (but rarely in 
out-of-school programs) and through media stories. For parents, other 
sources of drug related information includes a moderate level of 
attendance at parenting and anti-drug meetings, and heavy exposure to 
mass media stories. However there is no evidence for increases in 
exposure through any of these sources if information in the context of 
the continuation of the Campaign.
    However, this substantial level of contact with drug-related 
information aside from the efforts of the Campaign does create a 
context in which to understand the Campaign's efforts. Both youth and 
parents are exposed to drug-related information from many sources. The 
incremental exposure produced by Campaign efforts may not loom so large 
as it would in an area where there was less background noise about an 
issue.
    To summarize the answer to the first question, the Campaign has 
used the money provided to it by Congress to buy a substantial amount 
of advertising time, and the population of youth and parents report 
seeing those ads with some frequency. They recall the brand. That is a 
good first basis for evaluating the Campaign. Next, we address evidence 
for effects of the Campaign on parents and on youth? We begin with 
parents' results.
              what were the campaign's effects on parents
    The parent campaign seeks to reduce youth drug use by encouraging 
parents to engage with their children. Earlier in the Campaign this 
included encouraging parents to talk with their children about drugs 
and do fun activities with them; more recently the Campaign has focused 
on parent monitoring of children: making sure that parents know where 
their children are, knowing what their children's plans for the coming 
day are, and making sure their children are around adults.
    The evaluation of the parent campaign focuses on its success in 
affecting these outcomes: whether parents monitor their children, talk 
with them about drugs, and do fun activities with them. In addition to 
these behaviors, we also measure what parents think about monitoring 
their children and talking with them. Do they think such behavior is a 
good idea or not?
    In addition, recognizing that youth behavior is the ultimate 
outcome, we have also begun to examine whether parent exposure to the 
Campaign might affect youth behavior.
    We have three criteria we use to make a claim of Campaign effects 
on a particular outcome.
  --We want to see whether the outcome is changing over time in the 
        desirable direction. for example, are parents doing more 
        monitoring in 2001 than they did in 2000?
  --Second, we want to know whether people who are more exposed to 
        Campaign advertising were more likely to follow the Campaign 
        advice, for example, whether parents who reported exposure to 
        many ads were more likely to monitor their children than were 
        parents exposed to only a few ads.
  --Third, we want to know about delayed effects. That is, for example, 
        did parents who reported exposure to many ads at the start of 
        2000 have better improvement in monitoring behavior by the last 
        half of 2001 than did parents with little exposure?
    The results on the first two of these three criteria are consistent 
with a positive Campaign effect as shown in Table 1.
  --There is evidence for a positive trend in four of five outcomes;
  --There is evidence for a same time association with exposure for all 
        outcomes on at least one of our measures of exposure and at 
        least for some important subgroups of the population.
  --These two forms of evidence consistent with effects are 
        particularly strong for fathers.
  --However, we did not find evidence that parents' exposure to the 
        Campaign was associated with less youth marijuana use.
  --Also, we did not find evidence that parents' exposure to the 
        Campaign at the start of 2000 predicted subsequent change 
        through 2001 in parent outcomes.

                 TABLE 1.--SUMMARY OF CROSS-SECTIONAL TREND AND ASSOCIATION RESULTS FOR PARENTS
----------------------------------------------------------------------------------------------------------------
                                                                 Parents of 12- to 18-year-olds
                                               -----------------------------------------------------------------
                     Index                                   Trend
                                               --------------------------------     Same time association of
                                                     2000            2001             exposure with outcome
----------------------------------------------------------------------------------------------------------------
Talking behavior (0-3)........................            2.26        \1\ 2.36  ( \4\ )
Pro-Talking beliefs \2\.......................           96.80      \1\ 102.90  ( \4\ )
Monitoring behavior (0-3).....................            1.41        \1\ 1.46  Yes for Fathers, parents of male
                                                                                 youth
Pro-Monitoring beliefs \2\....................           87.10       \1\ 92.70  Yes for Fathers, parents with
                                                                                 college education
Doing fun activities..........................        \4\ 63.5        \4\ 62.7  ( \4\ )
Youth marijuana use in the previous year......        \4\ 15.8        \4\ 15.5  Parents of higher risk and White
                                                                                 youth (unfavorable)
----------------------------------------------------------------------------------------------------------------
\1\ Significant difference between 2000 and 2001 at p<.05.
\2\ scale has an overall mean of 100 and standard deviation of 100.
\3\ Yes: Significant monotonic association at P<0.05.
\4\ Percent.

    In summary, we have some evidence consistent with an effect of the 
Campaign on parent outcomes. We would have been able to make a stronger 
claim about these effects if we were also able to show that exposure 
predicted change in outcomes and if we were able to show a favorable 
effect on youth behavior. Still, as an interim result, 2 years into the 
Campaign, and while we continue to collect data, this is favorable 
evidence.
               what were the campaign's effects on youth
    In contrast to the parent results, to date there is little or no 
favorable evidence to report. We reported that youth were exposed to 
the Campaign and recognized its brand. That is as far as the positive 
evidence goes. Thus far we have little or no evidence that the Campaign 
has convinced youth to avoid marijuana use or to change their ideas 
about marijuana.
    Table 2 shows that we have seen no reduction in youth marijuana use 
since the first wave of NSPY data collection in the first half of 2000. 
Also, the Monitoring the Future Study (MTF), with its long time trend, 
has reported no change in youth marijuana use since 1998. Data for 1999 
and 2000 from the National Household Survey on Drug Abuse (NHSDA) also 
indicates that there has been no change in youth marijuana use. Thus, 
if there might have been a concern that the trend data from our NSPY 
survey missed changes that occurred in the first year of the Campaign 
both the MTF and NHSDA data makes it clear that this is unlikely.

                             TABLE 2.--ANNUAL USE OF MARIJUANA BY AGE: NSPY REPORTS
----------------------------------------------------------------------------------------------------------------
                                                   Wave 1 11/99   Wave 2 7/00 to
                    Age group                         to 6/00          12/00      Wave 3 1/01 to  Wave 4 6/01-12/
                                                     (percent)       (percent)    6/01 (percent)   01 (percent)
----------------------------------------------------------------------------------------------------------------
12 to 13........................................             3.3             3.2             2.0             3.2
14 to 15........................................            11.2            11.5            14.4            13.1
16 to 18........................................            28.9            29.3            27.6            26.1
12 to 18........................................            15.9            15.8            15.6            15.3
----------------------------------------------------------------------------------------------------------------
Note: No statistically significant changes across waves.

    NSPY also examined rates of change in three other measures of 
marijuana use--ever use, regular use (almost every month), and use in 
the previous 30 days. For all ages and for all of those measures, use 
was unchanging between 2000 and 2001, with two exceptions. Reports of 
regular use and last 30 days use, while still rare, were significantly 
increasing among youth who were 14- to 15-years-old. Reports of past 
month use increased from 3.6 percent to 7.2 percent, and regular use 
(defined as use every month or almost every month) increased from 2.2 
percent to 5.4 percent.
    In addition to youth use of marijuana we also measured ideas about 
drugs that youth hold that predict subsequent initiation of use. These 
included:
  --intention to begin marijuana use in the next year;
  --beliefs and attitudes about marijuana use;
  --social norm beliefs--the perception that parents or friends expect 
        one not to use marijuana; and
  --self-efficacy--the confidence one feels in saying no to marijuana 
        if offered.

                  TABLE 3.--SUMMARY OF TRENDS AND SAME TIME ASSOCIATIONS AMONG NON-USING YOUTH
----------------------------------------------------------------------------------------------------------------
                                               12-13 year olds                        14-18 year olds
                                   -----------------------------------------------------------------------------
                                              Trend            Same time             Trend            Same time
          Outcome measure          -------------------------- association -------------------------- association
                                                              of exposure                            of exposure
                                        2000         2001     and outcome      2000         2001     and outcome
----------------------------------------------------------------------------------------------------------------
Percent definitely not intending             92           91      ( \1\ )           85           84      ( \1\ )
 to try marijuana.................
Belief/Attitude Index \3\.........          129      \2\ 122      ( \1\ )           97           93      ( \1\ )
Social Norms Index \3\............          137      \2\ 130      ( \1\ )           91           85      ( \1\ )
Self-Efficacy Index \3\...........          101          101      ( \1\ )          103          110      ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ No.
\2\ Difference between years significant at p<.05.
\3\ Scale has an overall mean of 100 and standard deviation of 100.

    As with the marijuana use trends, there was no overall favorable 
trend in any of these ideas about drugs for youth. As shown in Table 3, 
current non-users of marijuana were mostly not planning to use 
marijuana in the next year, and they held ideas that were opposed to 
marijuana use. But the proportion who held pro drug beliefs and 
intentions was not changing for the better. Indeed there was some 
evidence that trends on two of these outcomes were moving in the wrong 
direction. There were significant trends toward expressing more pro-
drug attitudes/beliefs and social norms for 12-13 year olds, and for 
social norms for 12-18 year olds.
    Thus, in general, observed trends over time are not consistent with 
a positive campaign effect.
    In addition, when we compared youth who reported lots of exposure 
to the campaign with youth who reported little exposure to the 
campaign, there was no difference between them on their levels on any 
of these four outcomes presented in Table 3, when both exposure and 
outcome were measured at the same time. The cross-sectional association 
data was consistent with no effect of the Campaign--neither favorable 
nor unfavorable.
    We then turned to the third type of evidence. We took the sample of 
youth whom we had interviewed in the first half of 2000, and looked 
only at those who said they had never used marijuana at baseline, and 
were between 12-18 when we interviewed them again during the last half 
of 2001, 18 months later. We again compared those who reported more 
exposure and less exposure to the Campaign when we first interviewed 
them. We tested to see whether their exposure to the Campaign predicted 
what their beliefs would be 18 months later, and particularly whether 
their exposure to the Campaign would predict whether or not they would 
initiate drug use in the subsequent 18 months.
    The findings were unanticipated; on some of the measures, and for 
some subgroups, there was evidence that early exposure to the Campaign 
predicted more pro-drug beliefs at the second interview, and more 
likelihood of initiation of marijuana use.
    Table 4 presents some of the findings for subgroups of youth in the 
NSPY survey. Unfavorable results were found for intentions to use 
marijuana for youth who were 12-13 at the time of second interview, and 
for the social norms measure for all youth who were 12-18 at the time 
of second interview.

   TABLE 4.--SPECIFIC EXPOSURE PER WEEK AT WAVE 1 AND INITIATION OF MARIJUANA USE BY WAVE 4 AMONG NONUSERS OF
                                               MARIJUANA AT WAVE 1
----------------------------------------------------------------------------------------------------------------
                                                    1 to 3                       Spearman rho
       Outcome (average)          <1 exposure      exposures     4+ exposures         \1\       Significance \2\
----------------------------------------------------------------------------------------------------------------
All 12-18 year olds...........            10.4            14.4            16.3             .07          ( \3\ )
12- to 18-year-old males......            15.9            16.0            11.4            -.05          ( \3\ )
12- to 18-year-old females....             3.7            12.9            21.6             .22            P<.01
12- to 18-year-old Whites.....            11.0            16.4            18.8             .09          ( \3\ )
12 to 13 year olds............             1.2             5.8             5.2             .09            P=.04
14 to 18 year olds............            15.7            18.2            21.9             .07          ( \3\ )
Higher risk youth.............            35.8            39.4            37.0            -.00          ( \3\ )
Lower risk youth..............             5.4             9.6            11.8             .09            P=.02
----------------------------------------------------------------------------------------------------------------
\1\ Spearman rho is an estimate of the association of two ordered variables and varies between -1 and +1.
\2\ The significance is based on the Jonkheere-Terpstra test for monotonic association. NS denotes not
  significant at the 5 percent significance level.
\3\ NS.

    Girls with the highest Campaign exposure at the start were more 
likely to initiate marijuana use than less exposed girls. This 
unfavorable effect was not seen for boys. The unfavorable association 
was also found for the youngest respondents and for the respondents who 
were at lowest risk for initiation.
                              conclusions
    The Campaign was successful in getting exposure to its 
advertisements, it may have influenced parents to engage more with 
their children, but has not affected youth positively, thus far. There 
is some evidence of unfavorable delayed effects on youth.
    What I have just presented in summary form is what we know so far. 
However it is probably worthwhile to put some additional contextual 
information around these results.
    First, we view the evidence of unfavorable effects on some youth to 
be interim results. Thus far we are reporting on the 40 percent of the 
total sample of youth interviewed in Round 1 of NSPY and, therefore, 
only include the delayed effects results for youth exposure to the 
Campaign during the first 6 months of 2000. The next report will 
include youth whose exposure to the Campaign was first measured between 
July 2000 and June 2001. The results may be different then. They may be 
different because the Campaign may have been more successful during 
that later period. The results may also be different because we will 
have a sample of youth more than twice as large to examine, and that 
will increase our ability to describe effects precisely. The results 
presented in considerable detail in the Evaluation's Fourth Semi-Annual 
Report of Findings, and very briefly summarized here, are interim. We 
will know much more by the time we are ready to present the 
Evaluation's next report approximately 6 months from now. This is the 
fourth of what is a planned seven semi-annual reports, only a little 
more than halfway through the scheduled evaluation period.
    Second, these interim negative results are surprising given the 
history of research on such public communication campaigns. There had 
been one field experiment undertaken previously and that showed 
evidence that ad exposure reduced marijuana use (Palmgreen et al 2002.) 
There also have been attempts to influence other substance use by 
youth. The best evidence comes from anti-tobacco campaigns, and the 
evidence from those campaigns is generally positive, including state 
campaigns in California, Florida and Massachusetts. There is no other 
published evidence that we know about that shows a negative effect like 
this of a large-scale campaign, although there is evidence of campaigns 
that were ineffective.
    In thinking about these results, one ought not see them as 
representative of all possible campaigns, and then conclude that 
communication campaigns don't work. No advertiser, having seen that a 
particular series of commercials failed to affect sales of a product, 
would swear off advertising. They would go back and try to develop a 
revised set of advertisements, or a broader marketing program, that 
would improve sales. Only after a series of such efforts, none of which 
paid off, would they be ready to conclude that the communication 
approach, rather than the particular campaign that was mounted, was 
ineffective.
    We appreciate the opportunity to present these results. They 
capture some of the highlights of our several hundred page report 
reflecting the contributions of my colleagues at Westat and at the 
Annenberg School for Communication at the University of Pennsylvania . 
Dr. Maklan and I would be pleased to answer any questions you might 
have about the Eavaluation.
                                 ______
                                 

              Prepared Statement of David M. Maklan, Ph.D.

    Chairman Dorgan, Senator Campbell, and distinguished members of the 
Subcommittee. My name is David Maklan and I am a Vice President at 
Westat, the social science research organization selected by the 
National Institute on Drug Abuse (NIDA) to undertake the evaluation of 
Phase III of ONDCP's National Youth Anti-Drug Media Campaign. Westat is 
supported in this effort by our subcontractor, the University of 
Pennsylvania's Annenberg School for Communication.
    Dr. Robert Hornik and I serve as Co-Principal Investigators for the 
evaluation study. Dr. Hornik has lead responsibility for study design 
and analysis. I have overall responsibility for contractor performance 
with particular focus on study operations. Together with the Study's 
Project Director, Ms. Diane Cadell, we implement the evaluation study.
      goal of the national youth anti-drug media campaign strategy
    The number one goal of The National Drug Control Strategy is to 
``Educate and enable America's youth to reject illegal drugs as well as 
alcohol and tobacco.'' Objectives in support of that goal include 
``Pursue a vigorous advertising and public communications program 
dealing with the dangers of drug, alcohol, and tobacco use by youth.'' 
The President's drug control budget for fiscal year 1998 included 
proposed funding for a media campaign, which received bipartisan 
support in Congress. Under the Treasury-Postal Appropriations Act, 
1998, the House and Senate approved funding (Public Law 105-61) for ``a 
national media campaign to reduce and prevent drug use among young 
Americans.''
    The Media Campaign has three primary goals:
  --Educate and enable America's youth to reject illegal drugs;
  --Prevent youth from initiating use of drugs, especially marijuana 
        and inhalants; and
  --Convince occasional users of these and other drugs to stop using 
        drugs.
    The Campaign translated these goals into a variety of efforts to 
reach the following target audiences with its messages: youth aged 9-18 
and their parents.
    ONDCP initiated the Media Campaign in three phases each with its 
own evaluation component:
    Phase I was a 26-week pilot test that was conducted in the first 
half of 1998 in 12 metropolitan areas across the country. To expedite 
implementation, television, radio, newspaper, and outdoor 
advertisements that had already been produced by the Partnership for a 
Drug-Free America (PDFA) were used. The Phase I Evaluation involved an 
experiment where 12 media market areas received paid anti-drug 
advertising and 12 additional markets did not. School-based surveys of 
youth were conducted near the beginning and the end of the 26-week 
Media Campaign period. There was also a telephone survey of parents as 
well as focus groups and interviews with relevant community members.
    Phase II, which was conducted from July 1998 until July 1999, 
released the Media Campaign to a national audience. New and existing 
advertisements were presented through television, radio, newspapers, 
magazines, schoolbook covers, movie theatres, and the Internet. The 
Phase II Evaluation involved national baseline and follow-up surveys of 
youth through their schools and of parents through a completely 
separate random telephone surveys. It also involved focus groups and 
site visits in 12 metropolitan areas.\1\
---------------------------------------------------------------------------
    \1\ Reports on the Phase I and Phase II Evaluations are available 
from ONDCP's clearinghouse and web site.
---------------------------------------------------------------------------
    Phase III, initiated in September 1999, marks the full 
implementation of the Media Campaign. Phase III disseminates new 
advertising following the communications strategy developed by drug 
abuse, prevention, and communication experts. In addition to the 
advertising, Phase III includes a full range of media, and partnerships 
with the media, entertainment and sports industries, as well as civic, 
professional, and community groups.
goals of the national youth anti-drug media campaign (nyamc) evaluation 
                                 study
    It is the task of the Westat/Annenberg Evaluation Study to 
determine how successful Phase III of the Media Campaign is in 
achieving its goals--to educate and enable America's youth to reject 
illegal drugs; prevent youth from initiating use of drugs, especially 
marijuana; and convince occasional users of these and other drug to 
stop their use.
    While there are hundreds of questions that the Evaluation can and 
will attempt to answer, there is one overarching question--to decide 
whether observed changes in drug use or drug attitudes can be 
attributed specifically to the National Youth Anti-Drug Media Campaign. 
Operationally, this global question can be decomposed into three sub-
questions:
  --Is the Media Campaign getting its messages to the target 
        populations?
  --Are the desired outcomes going in the right direction?
  --Is the Media Campaign influencing changes in the outcomes?
    A second objective of the Evaluation is to provide data to the 
Campaign that can support ongoing decision-making.
 design of the national youth anti-drug media campaign evaluation study
    When designing an evaluation study, it is reasonable to ask whether 
existing data collection systems can be used to provide the information 
needed to evaluate the effectiveness of the program being scrutinized. 
The Westat/Annenberg evaluation team believed from the start that data 
from two existing systems were crucial to measuring prevalence of 
substance use. These systems are the National Household Survey on Drug 
Abuse (NHSDA) sponsored by the Substance Abuse and Mental Health 
Services Administration (SAMHSA), and the Monitoring the Future Study 
(MTF) sponsored by the National Institute on Drug Abuse (NIDA).
    However, the Media Campaign is only one piece in the National Drug 
Control Strategy. Any change in drug prevalence rates among youth is 
likely to be a function of multiple causes besides the campaign. These 
include other Federal Government activities such as interdiction and 
crop eradication efforts; local government activities such as changes 
in local enforcement and judicial practices; changes in the number and 
effectiveness of school-based drug education programs; changes in the 
price of drugs; as well as a myriad of other forces. Some researchers 
have argued that there are epidemics in substance abuse that follow 
their own natural patterns of ebb and flow. Therefore, simply tracking 
usage rates is insufficient to identify the forces behind change. In 
order to be able to make reasonable claims that the ONDCP Media 
Campaign was responsible for change, the Evaluation is designed to go 
well beyond analysis of trends from existing data.
    The possibility of multiple causes for any change in drug abuse 
rates led to the development of a new national survey, named the 
National Survey of Parents and Youth (NSPY). In addition to collecting 
information on drug use data, this survey emphasizes measurement of 
drug attitudes and intentions, exposure to anti-drug messages in 
general and to ONDCP Media Campaign messages in particular, as well as 
many peer and family and other risk factors. The NSPY survey is not 
meant as a replacement for existing survey systems. To the contrary, 
the two existing systems, NHSDA and MTF, provide the primary 
measurements of change in drug use rates. While NSPY will also track 
change from 2000 through 2003, its principal purpose is to monitor the 
success of the Media Campaign in first reaching its target audiences 
and then convincing viewers to adopt desired attitudes, intentions, and 
behaviors.
    The circumstances of Phase III of the Media Campaign present 
serious challenges to the design of its evaluation. First, it was not 
possible to use an experimental approach to evaluate the Campaign. 
Experimentation would require conducting the Campaign in a random 
sample of media markets. This approach was ruled out on at least two 
grounds: (1) excluding coverage of selected media markets was 
antithetical to the Campaign's goal of reaching out to ALL youth across 
America to help them avoid drug problems; and (2) Phase II of the 
Campaign was national in coverage and was already in full swing for a 
year prior to the start of Phase III, which is the focus of the Westat/
Annenberg evaluation. Hence, it was at least theoretically possible 
that no youth remained unexposed to the Campaign when Phase III 
commenced. Therefore, the general case-control evaluation approach 
adopted for Phase I was infeasible.
    Instead of using experimentation to control variation in exposure 
to the ONDCP Media Campaign, the Phase III Evaluation tries to evaluate 
the Campaign by studying natural variation in exposure to the Campaign 
and how this variation appears to correlate with phenomena predicted by 
the theoretical model for the campaign. This means comparing groups 
with high exposure to Campaign messages to other groups with lower 
exposure. To this end, we look at variation across individuals and 
variation within individuals across time. In addition to looking for 
variation, it is also necessary to account for any pre-existing 
differences between the groups that might explain both the variation in 
exposure and any variation in outcomes. Consequently, we have designed 
the new NSPY survey to include many questions on personal and family 
history as well as measures of traits predicted by theory to be related 
to exposure to media messages and to drug use.
    The variables chosen for inclusion in the Westat/Annenberg 
Evaluation are science based. We developed an overall model of Media 
Campaign influence, which is summarized by five figures attached to 
this document:
  --Figure 1 presents the overall model of effects. It includes the 
        model for Media Campaign influence in broad outline and names 
        the categories of external variables likely to influence the 
        process.
  --Figure 2 lays out the processes through which the Media Campaign 
        may influence individual exposure to anti-drug messages.
  --Figure 3 outlines the influence paths of exposure to the Media 
        Campaign on young peoples thinking about drugs, their 
        perception about what others expect them to do, and their 
        skills to resist drugs. In turn, the youth's changed thinking 
        about drugs is meant to reduce his or her intention to try 
        drugs or to graduate from trial to occasional or regular use of 
        drugs.
  --Figures 4 and 5 address the second strategy emphasized by the Media 
        campaign--the parent component. The Campaign seeks to influence 
        a number of distinct parent outcomes (e.g., monitoring beliefs, 
        monitoring behavior), each of which is modeled separately. Two 
        influence paths are presented here: Figure 4--for parental 
        monitoring behavior, and Figure 5--for parent-child talk 
        behavior.
    For a full description of these models and of the many confounding 
influences that are included in the Westat/Annenberg Evaluation, I 
refer the Committee to the second chapter in any of our four already 
submitted semi-annual reports.\2\
---------------------------------------------------------------------------
    \2\ The four semi-annual reports are available on the NIDA wetsite 
(http://www.nida.gov/despr/westat/index.html). The first three reports 
are also available from the ONDCP clearinghouse and its web site.
---------------------------------------------------------------------------
                      the nyamc evaluation survey
    The evaluation methodology adopted by NIDA and the Westat/Annenberg 
Evaluation Team is based on guidance from a panel of experts; Westat's 
30 years of program evaluation, substance abuse research, and survey 
research experience; the Annenberg School for Communication's 
considerable communications research expertise; and lessons learned 
from the earlier Phase I and Phase II Evaluations.
    NIDA and the Evaluation Team implemented an integrated, in-person, 
household-based approach to surveying youth and their parents. The 
methodology adopted by the National Survey of Parents and Youth (NSPY) 
focuses on using computerized interviewing technology to get better 
measurements of exposure to anti-drug advertising and measurement of 
respondent attitudes, intentions, and behaviors towards drug use.
    The NSPY design calls for three survey rounds, as shown in Figure 
6. During the first round, comprised of survey Waves 1 through 3, we 
recruited and administered an initial interview to three national 
samples of eligible youth and their parents--labeled Samples A, B, and 
C in the figure. Across these three waves that comprise Round 1, a 
total of 8,133 youth aged 9 to 18 and 5,606 parents were interviewed. 
Round 1 data collection started in November 1999 and was completed in 
June 2001. In the second round, the participants are administered their 
first followup interview. The first followup wave of data collection, 
Wave 4, re-interviewed study participants first interviewed during Wave 
1. This survey ended in December 2001 and completed interviews with 
approximately 2,435 youth and 1,752 parents. These respondents 
constitute approximately 40 percent of the total Round 1 NSPY sample. 
The Evaluation's most recent report is based largely on the findings 
from the Wave 4 survey. We are currently completing administration of 
the first followup interviews with the remaining 60 percent of the NSPY 
sample. The findings from this fifth wave of data collection will be 
reported on in approximately 6 months. All study participants will be 
interviewed a third time either in Wave 6 or Wave 7. Each of the seven 
waves of data collection lasts approximately 6 months.
    Some of the advantages of the NSPY's longitudinal, in-person, 
integrated household design, as compared to other designs, are the 
following:
  --Higher overall youth response rates (considering refusal by many 
        schools to participate and the difficulties of obtaining 
        parental consent for school-based surveys);
  --Higher overall parent response rates (considering the high 
        telephone screener nonresponse rate for parents in telephone 
        surveys);
  --The ability to conduct longer interviews;
  --The ability to use computers with visual and audio displays (ACASI) 
        to better assure respondent privacy and allow individual media 
        ads to be shown;
  --The ability to have year-round data collection;
  --Coverage of high-school dropouts and absentees;
  --The ability to obtain background data about sampled youth from 
        their own parents (instead of interviewing an unrelated set of 
        parents);
  --The ability to correlate changes in parental attitudes and behavior 
        with changes in youth attitudes and behavior; and
  --Improved ability to track the youth and their parents during the 
        two followup Rounds.
    The NSPY design also enables the Evaluation to prepare the desired 
semi-annual report of findings based on current data.
    The Evaluation was also designed to minimize the chance of falsely 
concluding there is no benefit in the event that the Media Campaign 
does indeed produce some benefit. There are at least nine specific ways 
in which the NSPY Survey reduces the chance of a false conclusion of 
``no effect'' compared to an analysis restricted to existing data 
systems:
  --Better measure of exposure to anti-drug media messages;
  --Richer measures of beliefs and attitudes sensitive to the specific 
        messages of the Media Campaign;
  --Better quality of measures of marijuana and inhalant use;
  --Inclusion of younger children;
  --Opportunity to understand the paths of effects;
  --Recognition that the Media Campaign may work through different 
        paths;
  --Opportunity to apply more powerful analytic techniques to sort out 
        causal influences,
  --Evidence about the social context of effects; and
  --Opportunity to confirm theories of adolescent development.
                 the logic of inferences about effects
    It would be desirable to show that target outcomes, including 
improved attitudes, intentions, and behaviors about marijuana use are 
trending in a direction consistent with ONDCP Campaign objectives. 
However, as noted above, any observed trend may reflect, in whole or in 
part, external forces other than the Campaign (e.g., drug prices, drug 
availability, content of popular media). Therefore, a trend alone won't 
permit unambiguous attribution of cause for an observed change in 
outcomes to the Campaign. Further, failure to observe a positive trend 
might miss real Campaign effects. The Campaign might be successfully 
keeping the level of drug use and its cognitive precursors from getting 
worse as the result of other negative forces, or it might be that this 
study lacked the statistical sensitivity to detect a small change. 
Still, given that the trend between 1992 and 1998 toward increased drug 
use justified the Campaign, finding a reversal of that trend is 
desirable. Therefore, the Evaluation examines data from NHSDA, MTF, and 
NSPY for evidence of change in outcomes, as indicated by Figure 7.
    For a positive trend to be more firmly linked to the Campaign, the 
presence of a second class of evidence is required: that youth and 
parents who were more exposed to the Campaign do ``better'' on the 
desired outcomes (i.e., that youth who reported seeing Campaign ads two 
or three times a week are more likely to believe, for instance, that 
there were negative outcomes of marijuana use than those who reported 
exposure to the Campaign less than once a week.). Figure 8 depicts this 
second test for Campaign influence--cross-sectional association. 
However, even where a cross-sectional association between recalled 
exposure to Campaign messages and an outcome is found, the result is 
still subject to three concerns. First, there is the risk that the 
observed association between exposure and outcome is the result of 
other variables that affect them both. For example, youth who do less 
well in school may be more likely to turn to drugs and may also spend 
more time watching television and thus recall seeing more ads. The 
threat to an inference of Campaign effects from these other pre-
existing variables (grouped together under the term ``confounders'') is 
addressed directly through the implementation of statistical controls 
for potential confounding variables.\3\
---------------------------------------------------------------------------
    \3\ The procedure used to provide the required statistical control, 
propensity scoring, is described in detail in Appendix C of the Fourth 
Semi-Annual Report of Findings.
---------------------------------------------------------------------------
    Second, the absence of an association between exposure and outcome 
does not permit definitive rejection of all Campaign effects. The 
Evaluation recognizes the possibility of effects not detectable through 
comparisons between more and less well-exposed individuals. To the 
extent that effects are shared in social networks, or diffused through 
changes in institutional practices, they are sometimes not detectable 
through individual level comparisons.
    The third concern in making inferences from cross-sectional 
associations is that the association might be the result of the 
influence of outcomes on exposure rather than of exposure on outcomes. 
For example, it is possible that youth with a negative view of drugs 
are more likely to remember anti-drug advertising. This could explain 
the association just as well as the idea that exposure to anti-drug 
advertising affected their view of drugs. This concern, called the 
threat of reverse causation, cannot be eliminated under most 
circumstances with cross-sectional data. Therefore, when cross-
sectional associations between exposure and outcomes are found, it is 
also necessary to have data that provide evidence of causal order.
    With the Wave 4 data collection the Evaluation now has access to 
over-time, cohort data--youth and parents interviewed at Wave 1 were 
re-interviewed at Wave 4. The availability of this longitudinal data 
(i.e., ``over time'' data) makes it possible to apply a third test for 
Campaign effects, labeled ``delayed effects association'' by the 
Evaluation team and depicted in Figure 9. With these data we can 
examine the association between exposure measured at Wave 1 and 
outcomes measured at Wave 4. (Like the cross-sectional association 
analysis shown in Figure 8, causal inference from delayed association 
analyses is also at risk of possible influence from confounders. The 
same statistical procedure mentioned above is also used to address 
concerns here about the influence of confounders.) The finding of a 
delayed effects association enables the Evaluation to establish that 
the observed association between exposure and the later outcome cannot 
be the result of the outcome affecting exposure. Such a time-ordered 
association either reflects the delayed effect of exposure to ads 
measured at Wave 1 directly on the outcome measured at Wave 4, or that 
the effect of exposure at Wave 1 reflects continuing levels of 
subsequent exposure through Wave 4 which in turn affects the outcome at 
Wave 4. Both of these routes are consistent with a claim of influence 
of exposure on outcome.
    The additional explanatory power gained by the availability of 
longitudinal data is critical. This followup data can serve to sort out 
with some confidence the causal order between variables. Thus, the 
delayed effects association analyses newly included in Fourth Semi-
Annual Report of Findings address a major concern raised above about 
making causal claims from cross-sectional associations. Evidence for a 
delayed effect would allow a clearer understanding of the causal order 
between exposure and outcomes.
    As noted above, at this time only data from the Wave 1 to Wave 4 
longitudinal sample are available for examination of the delayed 
effects association, approximately 40 percent of the eventual full 
sample.4 This sample is not large enough for overly detailed subgroup 
analysis, although analyses by gender, age, and risk subgroups are 
presented in our Fourth Semi-Annual Report of Findings, when 
appropriate. For the next semi-annual report, when longitudinal data 
will be available for the entire youth and parent sample, the full 
range of subgroup analyses will be presented.
    The Evaluation's reports contain a large number of analyses 
designed to examine Campaign effects, using several different analytic 
approaches and conducting analyses both for the full sample and for 
many different subgroups. Statistical tests of significance are used 
for each analysis to establish whether any effects observed might be 
simply the result of sampling error. In assessing the findings from 
these significance tests, it needs to be recognized that, even if there 
were no Campaign effects whatsoever, some of the large number of tests 
will produce significant results (negative and positive). Thus, for 
example, in the simplified case of 100 completely independent 
statistical tests with no effect present for any of them, one would 
expected that 5 of the tests would be statistically significant if a 5 
percent significance level is used. Considerable caution must, 
therefore, be exercised in assessing an isolated significant effect, or 
only a few statistically significant effects, when many tests are 
conducted. For this reason, when interpreting the many analyses in the 
Fourth Semi-Annual Report of Findings, we tend to downplay individual 
significant effects, and rather look for consistent patterns of 
effects.
    To date, the Evaluation has prepared four semi-annual reports of 
findings with the most recent report having been submitted in May 2002. 
Three additional semi-annual reports are planned, one following each of 
the three remaining NSPY data collection waves.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dorgan. Dr. Hornick, thank you very much. This is 
the evaluation; is that correct?
    Mr. Hornick. A previous version. We actually have an 
elegant looking version, but it is the same----
    Senator Dorgan. With a fancy cover? You sufficiently 
conditioned your response at the time. Are you an economist?
    Mr. Hornick. No.
    Senator Dorgan. Well, you sufficiently conditioned it to 
say that while we found this had impact--you said young girls 
actually were more inclined to use marijuana having been 
exposed to these advertisements; is that correct?
    Mr. Hornick. That is the empirical result, yes.
    Senator Dorgan. But I guess Senator Campbell and I are 
asking,is there a point at which you say, this is not working?
    Mr. Burke, you say the use of the media and television is a 
remarkably persuasive, powerful tool. I do not disagree with 
that. I mean, I have a George Foreman Grill, so I understand 
about television.
    Senator Dorgan. But is there a point at which you would say 
that this is not working? If we have spent $1 billion and the 
results from the academicians say that it has had no measurable 
impact on kids? Is there a point at which you would say, I give 
up using the taxpayers' money for this program?
    Mr. Burke. Yes. What I tried to say and I guess I did not 
say it very well, what we got ourselves into, if you look at 
the last 4 years that $1 billion is spent, the most recent 2 
years nothing happened. By the way, that is not all bad. If you 
are ahead in a ballgame and then you stall out for a while, 
that is not all bad. It does not mean you----
    Senator Dorgan. It is all bad if you are spending a lot of 
money. If it is not your money it is probably not bad, but----
    Mr. Burke. No, that is not it. If you look at the period--
first of all, this study did not start until--nothing had 
happened for 18 months.
    Senator Dorgan. Except drug use was declining prior to 
this.
    Mr. Burke. Yes.
    Senator Dorgan. That happened.
    Mr. Burke. Right. But you are trying to measure this 
campaign, which never had a chance to get started in the way it 
needs to, to be measured. You are criticizing the results, as 
you should, by the way. I criticize them too, maybe more 
vociferously than you do. But the fact is, if you go back to 
the beginning of this, you still have to face the fact that the 
progress that this country has made has been extraordinary.
    You are talking about one campaign that did not start--the 
background of that campaign was 18 months late, and the Office 
of National Drug Control Policy was not formed like it is now. 
It now has a leadership. But I do not think that--I think we 
could say, none of us are happy with the results of this 
campaign. All of us having something to do with the results.
    What I am saying is, that if ONDCP and the Partnership and 
other interested parties would get together and examine what 
did work while it was working, and get back to that plan, it 
can work all over again. What has been running for the last 
year or so is not anything like what we ran----
    Senator Dorgan. I understand. But the point of all that is, 
Mr. Burke, something failed in the middle. Let's assume that we 
did not have some interruption in the continuity of the 
strategy you say worked, and then you evaluated at the end of 
it a consistent strategy, I think you are suggesting that would 
have worked and worked well. We do not know that, of course.
    But in any event, at some point along the way, in the 
middle of spending $1 billion something happened so that now at 
the end of 5 years you and others say, we really cannot tell. 
It does not look like we have had much effect. I think Senator 
Campbell and I are simply saying, this is a lot of money to 
spend----
    Mr. Burke. It is.
    Senator Dorgan [continuing]. And I think the taxpayers want 
to understand with what effect.
    Mr. Burke. I am sorry that I have not been able to 
articulate that well, but you have got to remember that the 
reason we got this Government money was that the pro bono 
advertising which the Partnership had lived off of, was $1 
million a day, $1 million a day for 3 years. That is when those 
big things happened. We can prove it over and over and over 
again.
    We then found that the media world began to fragment, as 
you probably know. At one point the three networks had 80 
percent of the eyeballs. They now have less than 40. We got 
concerned that there would not be the right media weight--we 
assumed we had the right messages but not the right media 
weight--unless we got help from the Government. So I went down 
and persuaded the then-drug czar and he in turn with the 
President decided to ask Congress to appropriate this money.
    I think we would be worse off than we are if we did not get 
that money, but we never have been able to get back to the kind 
of advertising focus that we had that made this so successful. 
It has been bureaucratic slowdown, 19 message platforms, 
unproven theoretical construct called a fully integrated social 
marketing campaign, which sounds to me like crazy, two dozen 
vendors and subcontractors, siphoning off one-third of the 
money from ad buys, and a 26-step creative process up from 
eight steps.
    Senator Dorgan. Let me ask you about that because ONDCP 
says that is not accurate. I asked the question, how much money 
are we appropriating that actually goes to buy ads, and they 
are saying 87 percent goes for advertising. You are saying that 
$50 million last year of the $180 million was pulled away. Now 
how do we reconcile your allegation and ONDCP?
    Mr. Burke. I think you should reconcile it.
    Senator Dorgan. I want to, but how do we do that? Are your 
numbers accurate?
    Mr. Burke. We believe $180 million was appropriated, and 
based on our audit of what was spent on media we can only find 
$130 million.
    Senator Dorgan. So that is $50 million that is somewhere 
else, contractors and so on.
    Mr. Burke. Yes.
    Senator Dorgan. I am going to ask our staff, majority and 
minority staff to sit down with your agency and ONDCP at the 
same time and try to reconcile this because this is a very big 
issue. If we say we want $180 million out there for advertising 
and $50 million gets moved away someplace else, we want to know 
how, why, and where, and who got it.
    Mr. Burke. And I think you ought to get into the other 
things that we are concerned about too. The process has changed 
completely. We could take you through the current process and 
the process that we had before. You cannot--I do not know how 
anybody can create advertising with the number of steps--I 
cannot even remember how many there are--26 steps in the 
creative process. If that happened at P&G they would have to 
sell the business. It is bureaucracy at its very worst.
    Senator Dorgan. We will get to some of that.
    Senator Campbell, I just stepped outside for a moment 
because we had some students come into the room who were going 
to see me in my office and I could not do that. But they are 
from Kenmare, North Dakota and I noticed they came in the back 
of the room. At a previous hearing, you pointed out that that 
is exactly the target audience. Let me ask some experts about 
the drug campaign.
    Let me ask you kids that are--you are FFA kids from, I 
suppose, a junior and senior class perhaps. Let's see, how many 
of you have seen these campaign ads, the anti-drug ads on 
television? Let's see some hands. All right, most of you.
    Anybody give me any analysis of how you react to those ads? 
Yes. Would you stand up, tell us your name?
    Mr. King. Jacob King. I think the ads would probably be 
more effective if they were directed more towards the parents, 
because the kids just, when commercials come on it is like, 
time to go to the bathroom or time to go get pop or something. 
They do not want to sit around and watch commercials. But if 
the parents got more involved with their kids, I think that 
would be more effective.
    Senator Dorgan. Actually, Jacob, it is interesting, this 
study shows that the campaign has made parents more aware, but 
in fact that has not resulted in less drug use among youth. But 
I understand your point.
    Mr. Burke. Yes, but could I interrupt there? That is 
because----
    Senator Campbell. Could I interject, I come from a small 
town as you do, an agriculture town where the FFA is very 
prominent and active. I am not sure that that is the area that 
we need to target in the first place because most of the kids I 
have known in FFA are hard-working kids. They are close to 
their communities, close to their family, they have chores 
after school, they have things to do. My own view, in our 
little town of the FFA kids that I have known, I have not known 
any that have been involved in drugs at all. Even though they 
see those ads, it seems to me most of the ads ought to be 
directed more towards the kids that are using drugs.
    Senator Dorgan. I agree. But virtually every child in this 
country is a child that needs to receive the message about the 
dangers of drugs. It is interesting, you can perhaps in every 
school find a predictable group of people who are involved in 
drugs, but you will also in every single school find some 
students that no one ever, ever would have thought would have 
had an interest in experimenting. But you are quite right about 
the FFA. It is a wonderful organization.
    Any of the rest of you have any observations about these 
things? I do not want to put you on the spot here. Yes? Then we 
will come back to the experts.
    Mr. Steinberger. I think that this advertising, if you are 
going to do it, you should target towards younger kids, maybe 
age groups that are much younger than us so they get it 
throughout their whole lifetime, not just when you get into 
your teens and it is just, wham, all there at once. I think 
that it is better directed at some of the younger kids.
    Senator Dorgan. All right, one other and then, Mr. Burke, 
you want to speak. Yes, ma'am?
    Ms. Modin. This is towards what he said about the FFA kids. 
I do agree, I know a lot of kids in our chapter, I am president 
of our chapter and I know a lot of kids and they do not do 
drugs. But it should be targeted towards us too because we care 
about a lot of the other people in our school. We care about 
other kids in our school and they need to see them, too.
    Senator Dorgan. Now you have had a chance to testify at a 
Senate hearing.
    Thank you for being willing to do that. You had one more 
thought? Yes, sir.
    Mr. King. Can I make another comment? Another reason why I 
said it should be directed at the parents is because kids think 
they are invincible. They do not pay attention to the ads 
because we do not think it affects us because we have got all 
the power in the world; nothing can harm us. Our laws are less 
crucial for minors and stuff like that. So they are pretty much 
invincible and that is what they think.
    Senator Dorgan. Thank you. Mr. Burke, you wanted to comment 
on that?
    Mr. Burke. Yes, I just wanted to remind everybody that the 
only children in the plan that has failed were 11 to 13, and we 
now have agreement that we are going to change that target 
audience to 12- to 17-year-olds, which it was back in the days 
when they had more success.
    Senator Dorgan. Dr. Hornick?
    Mr. Hornick. I just wanted to elaborate a little bit on the 
parent results. It is quite true that we could not find 
evidence that parents that were more exposed versus less 
exposed to the campaign were more likely to have kids use 
different levels of drugs. That is quite right. But parent 
behavior itself apparently--the evidence is consistent with 
that being affected. That is, the level of which they monitor 
their children, and talk to their children, there is at least 
some evidence consistent with that.
    We also know that the more parents monitor their children, 
the less likely their children are to use drugs or initiate 
drug use. So while we do not have direct evidence from parent 
exposure all the way to kids' drug use, we at least have some 
evidence going part of the way.
    Senator Dorgan. But virtually every parent, any parent that 
is responsible and every parent that cares about their child, 
is going to want to make sure that they are sending their kids 
messages, and trying to do the kind of parenting that will 
prevent their children from wanting to be involved in drug use. 
I do not know that you need to make parents terribly aware of 
that because, I think they are very aware in most cases. I 
think it is beneficial to reinforce the notion of what is good 
parenting. Sit down, have that discussion, have that message.
    All of us have different ideas about what kind of a 
commercial works. In my judgment, and I do not know whether 
this was yours, Mr. Burke, but in my judgment one of the best 
commercials I have ever seen on drugs is the one with the fried 
egg. This is your brain, and this is your brain on drugs. It 
was a commercial that I have never forgotten, and I suspect 
everybody who has seen it probably carries that commercial with 
them.
    Mr. Burke. You are correct.
    Senator Dorgan. There are commercials that perhaps work for 
some and then there are commercials that you put on the air 
that do not have any impact. How many in the audience have seen 
the recent ads with respect to drugs and terrorism?
    All right. How many of you think they are effective?
    How many of you think they are not effective?
    All right, about 50/50. So my point is, I saw one of those 
last evening about 10:50 p.m., close to 11:00 p.m. and I was 
just thinking to myself, this is a strange time to be trying to 
influence young kids, really young kids, pre-teens, for 
example, or early teenagers, at 11:00 at night. But everybody 
has their own view of what kind of ads work, what is the 
creative input.
    Now Mr. Burke, your organization provides the creative 
input, right?
    Mr. Burke. Yes and no. We do not have the responsibility 
that we thought we were being given when the appropriation was 
made by Congress. What we thought we were getting was the 
responsibility for the whole creative process, the creative 
strategy. To be reviewed with everybody else concerned, but it 
would be our prime responsibility. Then after the review 
process we then have to go to experts to go over that review. 
We want to keep this strategy focused when we create the 
advertising. There has been too little cooperation between 
ONDCP and the Partnership, and I accept some of the blame for 
that. But I think we have paid an awful price.
    Senator Dorgan. I would say that really does need to change 
if this campaign continues. What is happening between these two 
organizations is deplorable. It does not contribute to an 
effective program in the future.
    Senator Campbell--let me first of all thank the witnesses. 
I have to leave in about 10 minutes and if I have to leave 
before Senator Campbell finishes, let me thank the witnesses 
for your contribution. I think your contribution to this 
discussion is very, very important. But let me call on Senator 
Campbell.
    Senator Campbell. I will finish up early, Mr. Chairman. I 
really appreciate you asking the youngsters back there their 
views on some of these things. We are in sort of a politically 
correct lifestyle now and I was thinking of myself, when I was 
a boy their age my dad drank some. He did not know much about 
child psychology and I can still remember him telling me, if 
you ever use drugs I'll knock the hell right out of you. And it 
worked, I never used them. I do not know if dads still do that 
any more or not.
    Mr. Burke. They should.
    Senator Campbell. I think sometimes maybe they should.
    Let me ask you a couple of questions, Mr. Burke, because I 
am interested in your comments. Two or three times you talked 
about the process, the 26 steps and the 194 days to create and 
produce an ad. In your former life as the chairman and CEO of 
Johnson & Johnson, how do you compare that with an ad you would 
have wanted to develop in the private sector? Is this 
considered very slow?
    Mr. Burke. Unbelievably slow and unbelievably complicated. 
If you chart it and look at who is doing what to whom in each 
of those steps, you cannot help but make it more complicated 
than it should be. Creative people do not respond very well to 
complications either. You have got to give them as much freedom 
as you possibly can to get the most out of them.
    Senator Campbell. I think that when you dealt with us 
getting back to basics on this ad campaign you generally agree, 
I think, with Mr. Walters with one big exception. He believes 
that the ONDCP should have a greater involvement in the 
advertising development process. You believe that that might be 
worse, that might complicate it and even make it slower.
    Mr. Burke. Not necessarily. We have invited that 
organization to come to our offices on four separate occasions 
and get acquainted with and listen to the creative process as 
it works in our organization. They have never showed up. I hate 
to be that critical but I do not think we can continue to 
function that way.
    Senator Campbell. Your number one recommendation is the 
creation of a strategic advisory working group. Would that not 
also just add another layer of offices, staff, expenses, 
whatever?
    Mr. Burke. Not if we set it up properly, and continue to 
remind ourselves, both at ONDCP and at the Partnership, that 
focus is what we are looking for. If we get focus, we can keep 
things much simpler, and the testing that we can do is going to 
be much more reliable.
    Senator Campbell. Maybe Dr. Johnston and Dr. Hornick--are 
you medical doctors?
    Mr. Johnston. No, social psychologist.
    Senator Campbell. I do not know which one of you mentioned 
the study that indicated young girls, the use of marijuana may 
actually have gone up. What do you attribute that to?
    Mr. Hornick. We view those as quite interim results and I 
am reluctant to be too strong about it. I can speculate about 
how it might have occurred, but we really are anxious--as we 
said before, we have 40 percent of that longitudinal data in 
hand. We will have another 60 percent at the end of this month 
and we will be analyzing it over the next few months.
    It is hard to understand why it would happen. It is very 
surprising. No one expected certainly that we would see that 
result. It is possible that somehow by seeing lots of messages 
the girls are believing it is very common behavior and thus 
somehow responding to that, thinking it is appropriate. But 
that is just speculation. I really do not have any good 
explanation for it.
    Senator Dorgan. Dr. Johnston?
    Mr. Johnston. May I add that this particular study uses 
household methodology, household surveys. They are very 
expensive, which limits the numbers of cases you can have. 
Whenever you get down to subgroups and small numbers of cases 
it is possible to get a number----
    Senator Campbell. The margin of error goes up probably?
    Mr. Johnston [continuing]. Findings that may even be 
statistically significant but not real. So when I see a finding 
like that I am very suspicious about whether in fact it is 
valid.
    Senator Campbell. Last question Dr. Hornick or Dr. Johnston 
I notice that Dr. Maklan did not testify but you are here just 
to answer some questions, maybe the three of you. If we are 
going to make this thing work right, in just the next minute or 
two, what should we do legislatively or from an appropriations 
standpoint to revitalize it, to make sure we are not back here 
every year with these comments on how it is not working and 
pouring more money into something that does not seem to be 
making big improvements.
    I understand that there may be a reduction in some areas in 
the use of marijuana. On the other hand, I know for a fact the 
use of methamphetamines has gone up, and I understand Ecstasy 
use is going up too. So it does not do any good to press it 
down here if it is going up somewhere else. What would you 
suggest, perhaps the two of you or three of you?
    Mr. Johnston. I think the one thing I would do is actually 
increase media weight.
    Senator Campbell. Increase what?
    Mr. Johnston. Media weight, the amount of media that is 
being purchased. One of the ways I would do that probably is 
not to dice up the melon quite so finely. I was involved in one 
of the strategy committees that preceded this campaign and it 
was a point that I made then and I still hold. That is that you 
can have so many objectives, so many drugs, so many subgroups, 
so many message strategies that after a while you have just 
diced the whole thing so finely that you just have mush. 
Nothing works. I think to some degree this may have suffered.
    Another point I wanted to make is that marijuana may have 
been--it is where the focus of this evaluation is, but it may 
not be where the real leverage of these campaigns is. Our 
findings are that when kids come to see a drug as dangerous 
they move away from it. They do not initiate it or they stop 
using it if they are moderate users.
    Senator Campbell. Find out it is dangerous?
    Mr. Johnston. When they see it as dangerous to themselves, 
to the user. That has been a very powerful finding. From that 
we view the system as a cycle. When a new drug comes onto the 
scene it takes a period of time before the horror stories begin 
to accumulate; some of the ones that you saw in these 
videotapes. The longer it takes for that to happen, the more 
kids who use and feel quite comfortable using. But when they 
start to get the message that there are dangers associated with 
it then they stop initiating, and some who have initiated, 
stop.
    So I think that inhalants, as I mentioned in my example on 
the board, was a good example where it was--they come in below 
the radar. There had been very little talk about the dangers of 
inhalants and kids really were very naive about its dangers. 
The Partnership ad campaign really made a breakthrough there 
and changed views, and changed behavior. I think the same thing 
might happen right now with Ecstasy. It is a drug that has been 
rising rapidly and I have been saying in public that this is 
not going to turn around until kids come to see this drug as 
dangerous. Now we are starting to see an ad campaign that will 
help to bring that about.
    With marijuana, it is a drug that has been around for 
decades and decades. A lot of people have made up their mind 
about it. There is a lot of discussion about medical marijuana 
use and so forth. I think it is one of the hardest targets to 
persuade kids of at the present time in history. So I worry 
about overemphasizing the fact that we did not get the hoped-
for effects--assuming that the results are valid, we did not 
get the hoped-for effects there, and concluding that the whole 
campaign does not work, because I think in fact the campaigns 
are powerful.
    But they do need focus. They do need a lot of creative 
control and I have long taken the position that both us, 
academics, and people in Government, should not be doing these 
ad campaigns. We are not experts at it. Leave that to the 
experts. We can come up with the general strategy. We can give 
them some message ideas. But let them do the creative. That is 
their business, and I think we have gotten away from that 
considerably.
    Mr. Burke. It is very interesting you spoke about inhalants 
because we were tracking inhalants at the Partnership and we 
said we have got to do something about it. Most of the people 
we talked to said, what do you mean, do something about it? We 
got enough research together so that people like this gentleman 
said, it is going right through the roof, and it is going 
through the roof because the kids do not know how dangerous it 
is. And that was the biggest turnaround we have ever had. We 
were the only organization advertising against inhalants, and 
you saw the numbers.
    Senator Campbell. I know the danger of them. I have a 
nephew that is 47 years old now and he has been in an 
institution since his early twenties because he did not know 
the danger of LSD. He was in a rock band and some of the other 
kids talked him into experimenting with it, and to my knowledge 
he only fooled around with it a few times. But here he is, a 
middle-aged man in an institution, his whole life, and that is 
where he is going to stay. He has to be on medication. 
Sometimes he seems to get better and they let him go home for a 
while. If he goes home and goes off the medication he 
hallucinates, he has all these problems again and they have to 
put him back in. He is in California in an institution.
    I know a lot of other families have had personal experience 
with drugs too.

            ADDITIONAL STATEMENTS AND QUESTIONS AND ANSWERS

    Let me stop there and tell you I appreciate, as the 
chairman does, your testimony today. This record will remain 
open a couple of weeks if you have any additional comments, if 
you would like to submit them in writing, or if anybody in the 
audience has something they would like to add to this hearing, 
if you would submit those in writing we will make sure they are 
a part of the record and we study them.
    We have received written statements that we will included 
in the record.
    [The information follows:]

  Prepared Statement of The Community Anti-Drug Coalitions of America

    (CADCA) strongly supports continued fiscal year 2003 funding for 
the Office of National Drug Control Policy's (ONDCP) National Youth 
Anti-Drug Media Campaign (henceforth the Media Campaign) at the $180 
million level requested in the President's Budget. The Media Campaign 
has proven to be an invaluable, universal prevention tool that has put 
the issue of youth drug use back on the radar screen of the American 
public.
    CADCA has seen the benefits and effectiveness of the Media Campaign 
reflected in communities throughout the nation. Last year, CADCA 
surveyed a subset of our coalition members who have been involved with 
the Media Campaign since its inception. This survey showed that the 
Media Campaign has:
  --Contributed to significant reductions in youth drug use in selected 
        communities.
  --Increased awareness of the drug issue at the local level and 
        increased the demand for drug prevention information and 
        services being requested in these communities.
  --Increased phone traffic and interest in coalitions who have had 
        local ads tagged with their contact information.
  --Propelled local business leaders to become more involved with 
        community coalitions through donating money, equipment and the 
        time of their employees to local anti-drug efforts.
    The Media Campaign has been effective in contributing to major 
reductions in youth drug use at the local level. For example 
Cincinnati, Ohio is one of the top five media markets for anti-drug ads 
in the nation based on the amount of local airtime they receive. The 
Coalition for a Drug Free Greater Cincinnati received close to $1.5 
million in donated anti-drug advertising airtime. This allowed them to 
increase the frequency of the Media Campaign ads. In 2000, the 
Coalition did a baseline survey of over 67,000 youth in ten counties in 
Ohio, Indiana and Kentucky, who reported regularly seeing and hearing 
anti-drug advertisements. A follow-up survey, done in 2002 of youth in 
the same geographic area, showed a 16 percent reduction in tobacco use, 
a 19 percent reduction in alcohol use and a 20 percent reduction in 
marijuana use from the baseline. Students also reported that the Media 
Campaign commercials they have been exposed to are relevant and 
strengthen their choice not to use drugs.
    There is compelling evidence that the Media Campaign has been very 
successful in raising awareness about the drug issue among the general 
population. This heightened awareness has had a direct impact on the 
demand for prevention information and materials requested from the 
Substance Abuse and Mental Health Services Administration's (SAMHSA) 
National Clearinghouse for Alcohol and Drug Information (NCADI). NCADI 
saw major increases in inquiries, orders, and website access due to the 
Media Campaign. NCADI measured the level of inquires, orders and web 
hits in 1997, 6 months before the Media Campaign began and then again 
in 1998, 6 months after the inception of the Media Campaign. There was 
a 165 percent increase in inquires, a 111 percent increase in filled 
orders and a 126 percent increase in website access over this 1 year 
period.
    The problem of denial among adults, regarding youth drug use, is 
usually a major impediment to getting them involved in prevention 
efforts. Due to the Media Campaign, local coalitions as well as other 
groups and organizations experienced an increased demand for training 
and information about the drug issue because they now understood that 
this was a problem they needed to personally address. This resulted in 
their requesting multiple copies of NCADI's publications and materials 
to distribute to parents, schools and other groups in their local areas 
who had an interest in learning more about drugs due to the Media 
Campaign. The distribution of NCADI publications was measured before 
the Media Campaign was launched, and again a year after its initiation. 
The increase in demand for publications related to the themes of the 
Media Campaign was tremendous: ``Marijuana, Facts for Teens'' increased 
117 percent; ``Marijuana, Facts Parents Need To Know'' increased 84 
percent; ``Keeping Youth Drug Free'' increased 70 percent; ``Tips for 
Teens About Inhalants'' increased 76 percent; ``Marijuana, Facts for 
Teens'' in Spanish, increased 76 percent; and ``Marijuana, Facts 
Parents Need To Know'' in Spanish, increased 93 percent.
    The Media Campaign has also directly contributed to the success of 
many community anti-drug coalitions by providing a high level of 
sustained public awareness that coalitions can leverage and build upon. 
The ``You Can Help Kids'' and the ``You Get More When You Get 
Together,'' segments of the campaign, actually promoted anti-drug 
coalitions. The ``You Can Help Kids'' ads encouraged parents, 
grandparents, teachers, coaches, faith leaders, and others who 
influence and interact with America's youth, to join local coalitions 
and work to keep youth drug free. The ``You Get More When You Get 
Together'' ads demonstrated the power of coalitions by highlighting 
representational coalition success stories and encouraged individuals 
to get their groups involved in the local coalition movement. The Ad 
Council and ONDCP asked for CADCA's help in enlisting local community 
anti-drug coalitions to participate by having local viewers referred to 
the coalitions in their area. Viewers of the ads who called a national 
toll-free hotline or logged onto the campaign website were given the 
opportunity to receive contact information for the coalition in their 
community. 336 of CADCA's coalition members participated in this effort 
and have reported expansions of both their volunteer base and the 
number of local partners due to their involvement in the Media 
Campaign.
    Business leaders were not a group particularly involved or 
interested in drug prevention prior to the Media Campaign. As a direct 
result of the Media Campaign, business leaders in communities around 
the nation have donated money, time and equipment to local coalitions. 
A large corporation in Michigan donated $25,000 to the Troy Community 
Coalition for the Prevention of Drug and Alcohol Abuse located in Troy, 
Michigan. This company had not considered including drug prevention 
activities among its charitable giving priorities before the Media 
Campaign brought the seriousness and importance of this issue to 
attention of the general public.
    CADCA fully supports the President's fiscal year 2003 Budget 
request of $180 million based on the positive feedback and statistics 
from CADCA members nationwide that the Media Campaign has been 
extremely effective. The Media Campaign has consistently: increased 
awareness about the drug issue; resulted in specific reductions in use 
among youth who report regularly seeing or hearing the ads; resulted in 
increased interest in parent trainings; broken through the denial of 
adults about youth drug use; and encouraged previously hard to organize 
sectors of a community, such as the business sector, to become involved 
with the community anti-drug coalition movement. The Media Campaign has 
been an invaluable resource in helping to address youth drug use in 
communities around the nation.
                                 ______
                                 

    Letter From The National Center on Addiction and Substance Abuse

  National Center on Addiction and Substance Abuse,
                                 New York, New York, June 13, 2002.
Hon. Byron L. Dorgan,
Chairman, Subcommittee on Treasury and General Government, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: I am writing in support of funding for the anti-
drug media campaign. It is essential for America's children to receive 
messages that discourage them from using drugs and for America's 
parents to receive messages that encourage them to talk to their 
children.
    Every teenager in America will be required to make a conscious 
choice whether to smoke, drink or use illegal drugs before he or she 
graduates from high school. Parent power is the most underutilized tool 
in helping teens to make the right choice. CASA research has found that 
teens who have not used marijuana commonly credit their parents for 
their decision; while those who have used marijuana commonly credit 
their peers.
    Alcohol is still far and away the top drug of abuse by America's 
teenagers: 80 percent of high school students have tried alcohol; 70 
percent have smoked cigarettes; 47 percent have used marijuana; and 
less than 10 percent have tried cocaine, heroin or ecstasy. 
Experimentation is unacceptable conduct.
    By the 12th grade, of those who have ever been drunk, 83 percent 
are still getting drunk; of those who have ever tried cigarettes, 86 
percent are still smoking; and of those who have ever tried marijuana, 
76 percent are still smoking pot.
    The most important change this committee can make in the anti-drug 
media campaign is to focus much of its attention on alcohol. As CASA 
and others have documented, more than five million high school students 
(31.5 percent) admit binge drinking at least once a month; the 
proportion of children who begin drinking in the eighth grade or 
earlier jumped by 33 percent from 1975 to 1999; and the gender gap in 
alcohol consumption that once separated boys and girls has evaporated 
as male and female ninth graders are just as likely to drink (40.2 vs 
41.0 percent) and binge drink (21.7 vs 20.2 percent).
    Accordingly, we strongly support full funding for the anti-drug 
media campaign and either an increase in funding for that campaign to 
cover alcohol or an allocation of some portion of the campaign to cover 
alcohol.
            Sincerely,
                                            Joseph A. Califano, Jr.
                                 ______
                                 

             Prepared Statement of The Advertising Council

    On behalf of 67 non-profit and government community organizations 
that have been full partners in the National Youth Anti-Drug Media 
Campaign (see attached list), the Advertising Council would like to 
commend Congress for its strong leadership and continued support of the 
Media Campaign--especially as you are considering the program's re-
appropriation through the Office of National Drug Control Policy 
(ONDCP).
    The Ad Council has been a proud partner of the Media Campaign since 
its inception in 1998, when Congress directed ONDCP ``to consult with 
media and drug experts, such as the Ad Council.'' As the Nation's 
leading provider of public service advertising, the non-profit Ad 
Council has 60 years of experience in correcting social problems 
through advertising campaigns. Each year, Ad Council campaigns receive 
over $1.6 billion worth of donated media, ranking it among the top ten 
advertisers in the United States.
    The Ad Council's experience to date with the Media Campaign has 
been exceptionally positive. As full partner, the Ad Council provides 
assistance to ONDCP in three important areas:
  --Facilitating the national PSA Media Match program, in order to 
        ensure that the Media Campaign is not supplanting current pro-
        bono public service advertising.
  --Developing and implementing a PSA campaign for ONDCP that 
        encourages participation in community anti-drug prevention 
        programs and supplements the important work of community 
        coalitions.
  --Reviewing of all production estimates and final costs associated 
        with the pro-bono creative development and production from PDFA 
        and their volunteer ad agencies.
    A major strength of the Media Campaign has always been Congress' 
great vision and foresight that preventing youth drug use will only 
succeed through a comprehensive strategy that includes the full 
partnership of grassroots organizations, like those that currently 
participate in the pro-bono Media Match. PSAs from these 49 leading 
national non-profits and 17 government agencies have helped to connect 
youth with community resources and after-school activities, as well as 
effective programs that foster high self-esteem. In addition, more 
positive role models have been created for youth in new mentors, and in 
parents who are better informed about the critical role they play in 
keeping their kids off drugs. These grassroots organizations are ardent 
supporters of the Media Campaign and, attached to this testimony, you 
will find letters from some of them that request your continued support 
in re-appropriating the Campaign, as well as the media match in its 
current form.
    Thus far, the pro-bono Media Match is an unqualified success. It 
has reinvigorated public service advertising--despite a highly 
competitive media environment--and the media is rising to the 
challenge. It is because of the PSA match that this campaign is the 
most efficient use of leveraged Government funding that I have ever 
seen. To date, the Media Match has yielded over $315 million and 
510,000 units donated by TV and Radio networks and local stations for 
PSAs that are helping to keep kids off drugs. This exposure has helped 
contribute to the following results, which were documented during the 
period the organization's PSAs were included in the Media Match:
  --200,000+ calls from prospective mentors resulting in over 40,000 
        new mentors for at-risk youth (National Mentoring Partnership)
  --600 percent increase in visits to a parent help website (Benton 
        Foundation's Connect for Kids)
  --3-times more calls to the National Fatherhood Initiative's hotline
  --Over 5 million visitors to a help website for troubled teens within 
        a 3-month period which is 250,000 more than in the entire year 
        prior to Match participation (KidsPeace-Teen Central)
  --56,024 more youth involved in volunteerism and community service, a 
        20 percent increase (National 4H Council)
  --Calls to Alanon/Alateen's English and Spanish hotlines, offering 
        help to families and friends of substance abusers, increased 
        over 200 percent.
    Thanks to the PSA Media Match, initial concerns that the 
introduction of the Media Campaign might ``supplant'' the media's 
existing support of public service have proved to be unfounded. Rather, 
an unintended benefit of the Media Match is the improvement of PSA 
audience reach by opening up high-rated television day-parts in which 
public service was traditionally underrepresented. The Ad Council's 
independent monitoring service has reported that in the 5 years prior 
to the match, only 40 percent of all donated media towards Ad Council 
PSAs was in desirable day-parts--leaving the majority of PSAs to be 
aired between the hours of 1:00 a.m. and 6:00 a.m. Since the match, the 
media's donation of desirable day-parts has dramatically increased from 
40 percent to 70 percent of total donated media.
    Again, thank you for your leadership of the Media Campaign and, 
especially its pro-bono Media Match. With great pride, we continue to 
support this critical Media Campaign in any capacity--and we commend 
this Committee for devoting the necessary resources to ensure its 
continuity.
    Sixty-five Organizations that have participated in the Media Match 
since 1995.
Non-Profit Organizations/Foundations/Associations
    100 Black Men
    ACT Against Violence/American Psychological Association
    Alanon/Alateen
    American Symphony Orchestra League
    America's Promise
    Big Brothers Big Sisters of America
    Boys and Girls Club
    Center for Juvenile and Criminal Justice/Justice Policy Institute
    Children Now/Kaiser Family Foundation (Talking with Kids about 
Tough Issues)
    Chris Farley Foundation
    Citizenship Through Sports Alliance
    Community Schools For Excellence--Children's Aid Society
    Connect for Kids (The Benton Foundation)
    Country Music Association
    C.S. MOTT Foundation/Afterschool Alliance
    Education Excellence Partnership (partially funded by Dept. of 
Education)
    Educational Testing Service
    El Valor/Parents as First Teachers
    Girls and Boys Town (formerly Boys Town)
    Girl Scouts of the USA
    Girls on the Move
    Give a Kid a Hand/International Advertising Association
    The Healthy Competition Foundation
    Hepatitis Foundation International
    Horatio Alger Association
    Kids Peace
    Mentoring USA
    Mothers Against Drunk Driving
    Musicians' Assistance Program
    National Action Council of Minority Engineers
    National Council of Teachers of Mathematics
    National Crime Prevention Council (funding from Dept. of Justice)
    National Fatherhood Initiative
    National 4H Council
    National Inhalant Prevention Coalition
    National Mental Health Awareness Campaign
    National Mentoring Partnership/Harvard Mentoring Project, Harvard 
School of Public Health, Center for Health Communication
    National Organization on Fetal Alcohol Syndrome
    Partners for Public Education
    Partnership for a Drug-Free America
    Points of Light Foundation
    Prevent Child Abuse America
    Recording Artists, Actors and Athletes Against Drunk Driving
    Save the Children USA (Do Good. Mentor a Child.)
    The Reiner Foundation/Families and Work Institute (Early Childhood 
Development)
    YouthBuild
    YMCA
    YouthNOISE
Government Agencies
    Administration for Children and Families/Health and Human Services 
(Parental Responsibility)
    Americorps/Corporation for National Service
    Center for Substance Abuse Prevention/Health and Human Services
    Center for Substance Abuse Treatment/Health and Human Services
    Centers for Disease Control, Office on Smoking and Health
    Maternal and Child Health Bureau/Health and Human Services (Healthy 
Start)
    Library of Congress
    National Council on Alcohol and Drug Dependency
    National Institute on Alcohol Abuse and Alcoholism
    National Institute on Drug Abuse
    National Institute of Environmental Health Sciences
    Office Of National Drug Control Policy
    President's Council on Physical Fitness and Sports
    RI Dept. of Mental Health, Retardation and Hospitals/Division of 
Substance Abuse (U.S. Department of Justice, Office of Juvenile Justice 
and Delinquency Prevention)
    Substance Abuse and Mental Health Services Administration/Health 
and Human Services
    U.S. Army--Operation Graduation Campaign
    U.S. Department of Transportation--Drunk Driving Prevention 
Campaign
                                 ______
                                 

                  Questions Submitted to John Walters

             Questions Submitted by Senator Byron L. Dorgan

                             creative costs
    Question. In our meeting last week, you requested a carve out to 
begin funding the creative costs associated with the media campaign.
    What aspect of the campaign would you take from in order to pay for 
creative costs?
    Answer. ONDCP would work with the Subcommittee to identify funding 
from within the Campaign appropriation to fund any creative costs.
    Question. It was the intent of the authorizers that the creative 
side of this campaign be shouldered by the private sector and those who 
had expertise in the field. Why do you want to pay for a service that 
you presently receive pro bono?
    Answer. On February 26, 2002, the Campaign convened a Task Force to 
examine strategic issues affecting Campaign performance, especially 
issues related to: (1) revisions to the ad testing protocol; (2) 
reassessing the youth age target; (3) the appropriateness of our youth 
message strategies; and (4) the creative development process.
    Ruth Wooden, former President of the Ad Council and a member of the 
Campaign's Behavior Change Expert Panel (BCEP), chaired the Task Force. 
Other participants included representatives of the Partnership for a 
Drug Free America (PDFA), an advertising creative director who is a 
member of PDFA's Creative Review Committee, a senior Ad Council 
executive, other members of the BCEP, members of ONDCP's contract 
advertising agency, and ONDCP Campaign staff. The Task Force completed 
its work prior to the recent Wave 4 results reported by Westat and it 
had the benefit of numerous performance indicators from previous Westat 
reports and other authoritative sources of youth drug use data 
(including the National Household Survey on Drug Abuse).
    The Task Force convened a specific Working Group, which examined 
the current creative process and recommended revisions that would 
achieve maximum efficiency of time and cost effectiveness. Task Force 
members agreed on new measures that allow ONDCP earlier visibility and 
involvement in the creative development process. This will give ONDCP 
the opportunity to advise PDFA of its views on new ads being developed 
in the earliest concept stages.
    Before Congress created a paid anti-drug media campaign, PDFA 
successfully created and implemented a process that relied solely on a 
pro-bono support campaign, in which volunteer ad agencies donate their 
services to deliver anti-drug messages to youth. However, since the 
advent of a paid Campaign, the reliance on a pro bono process to 
deliver the Campaign's advertising products has proven less than fully 
effective in meeting the Campaign's needs. While the pro bono system 
can supply many of the Campaign's needs, it cannot meet all of the 
broad requirements and high operational tempo of a paid, sophisticated 
ad campaign.
    For example, for this fall's important launch of ONDCP's marijuana 
initiative, PDFA was able to recruit two major ad agencies willing to 
create ads. However, both agencies said they could only create TV and 
radio ads. For this initiative, ONDCP needs a complementary ad campaign 
comprised of ads for TV, radio, magazines, billboards, bus shelters, 
mall panels and the Web, with all ads linked by common design features. 
We are now looking for a way to fill these creative gaps, but with 
lead-times short for a fall launch, we may not be able to do it. 
Furthermore, PDFA has not been able to obtain pro bono production of 
the multicultural complement to the marijuana initiative for the 
Campaign's Hispanic, Asian and American Indian audiences.
    ONDCP is accountable to the Congress and to the nation to produce a 
successful, responsible Campaign. ONDCP will take the recommendations 
of the Task Force and work with our pro bono partners in making 
modifications to the Campaign advertising development process to ensure 
greater efficiency and effectiveness. ONDCP has begun to implement some 
of these changes with regard to ONDCP's more direct involvement in 
briefing pro bono ad agencies that are working on new marijuana ads. 
ONDCP will continue, as it has in the past, to use the flexibility we 
have to use other means to fill unmet and important Campaign needs.
    Question. How would you plan on obligating these funds? Would you 
competitively bid a contract or just provide additional resources to 
contractors you choose applicable?
    Answer. We would task our primary advertising contractor with the 
creative requirement. Our primary advertising contractor has the 
requirement to produce ads in its contract, including the creative 
portion when required to fill gaps in the advertising provided pro bono 
by PDFA. If the ad is interactive, our contractor would produce the ad 
under its contract, as PDFA does not do any interactive ads. If the ad 
is a multicultural ad, we first would consult PDFA to ensure it could 
not produce the ad. If, as in the preponderance of cases in the past, 
they confirmed they could not produce the ad, our primary advertising 
contractor would task its appropriate multicultural subcontractor, 
first asking if it would do the ad pro bono. Most of the multicultural 
ads done for the Campaign were done with the subcontractor to our 
primary advertising contractor providing its creative work pro bono. In 
a minority of cases we have had to pay for creative work. If the ad 
were of another type, e.g., drugs and terror ads, our primary 
advertising contractor would undertake the creative work. In the past, 
it has produced our drugs and terror ads through its donated creative 
work.
    Question. How many steps are involved?
    Answer. Our recent Strategic Development Task Force, which included 
membership from PDFA as well as other expert advisors, closely analyzed 
the creative development process for making new ads. They recommended a 
revised process which reduced the number of steps from 24 to 18.
    Question. How many consultants, both paid and non-paid, are 
involved?
    Answer. In fiscal year 2001, FISC awarded, on behalf of ONDCP, 1 
contract for consulting services. PDFA is the only unpaid consultant 
supporting the Campaign.
                              consultants
    Question. According to information provided to the Committee, the 
media campaign paid 31 contractors and subcontractors in fiscal year 
2001. This increased from 18 in fiscal year 1998.
    If the goals of the campaign have remained constant for the past 5 
years, as well as the funding, why has there been an enormous increase 
in paid consultants?
    Answer. In fiscal year 1998, the actual number of contractors and 
subcontractors was 14. In fiscal year 2001, the actual number of 
contractors and subcontractors was 21. The increase is a result of the 
Campaign's multi-cultural outreach effort. The number the Subcommittee 
is referring to, ``31 paid contractors and subcontractors in fiscal 
year 2001,'' includes not only contractors and subcontractors, but 
additionally includes other Federal agencies, IPAs, and consultants 
that have been involved with the Campaign since its inception.
    Question. Did ONDCP attempt the get these services pro bono before 
contracting out?
    Answer. Yes. It is standard practice among large advertisers and 
Federal agencies that have paid advertising programs to subcontract 
with companies that have special expertise in reaching ethnic audiences 
and sophisticated testing capabilities. No single agency has all of 
these capabilities, just as no homebuilder has all of the various 
capabilities needed to construct a home or building. No major paid ad 
campaign in the U.S.--public or private--obtains its service pro bono. 
The companies with whom ONDCP contracts provide essential and 
specialized services that are not available pro bono or among ONDCP 
staff.
    Question. Was it included in the initial bidding of the advertising 
contract to subcontract to 12 subcontractors? If not, who decided that 
Ogilvy and Mather would subcontract and for how much?
    Answer. Currently, Ogilvy has 10 subcontractors. Offerors submit 
subcontracting plans and proposed teams with their proposals, as 
required by the solicitation. However, the Government awards the 
contract to the prime contractor only and the prime contractor can 
change their subcontractors as long as they can prove that the new 
subcontractor is comparable to what was submitted in the prime's 
proposal. The prime contractor is ultimately responsible for providing 
service regardless whether the subcontractor does or does not do the 
work.
    Question. Please provide detailed information on the billing of the 
12 subcontractors to Ogilvy and Mather. What does the $4.18 million in 
fiscal year 2001 pay for?
    Answer. Ogilvy has 10 subcontractors. The $4.18 million, in fiscal 
year 2001, is the total paid for services provided by subcontractors, 
consultants, and vendors. The breakdown is as follows:
Subcontractors
    Admerasia--$162,983.--Admerasia is a small disadvantaged minority-
owned company, providing expertise in media buying and planning for the 
Asian-American audiences.
    Bromley Communications--$327,124.--Bromley is a large and minority-
owned agency, providing expertise in media buying and planning for the 
U.S. Hispanic audience.
    Chisholm Mingo Group--$374,794.--Chisholm is a minority-owned 
agency, providing expertise in media planning and buying for the 
African American audience.
    G&G Advertising--$323,964.--G&G is a small disadvantaged business 
(Section (8) of the Small Business Act), and to the best of our 
knowledge is the only advertising agency, of any size, in the Nation 
that offers expertise in reaching the American Indian Market.
    Mendoza, Dillon & Associates--$171,534.--Mendoza specialized in 
media planning and buying for the Hispanic audience. Mendoza was 
replaced by Bromley. The fees paid cover labor for January only and 
transition services.
    Muse, Cordero, Chen, & Partners--$213,263.--Muse specialized in 
media planning and buying for the Asian and African American audiences. 
They were replaced by Admerasia (Asian-American) and Chisholm Mingo 
(African American). The fees paid cover labor for January only and 
transition services.
    Porcaro Communications--$32,336.--Porcaro, a small business located 
in Anchorage, Alaska, is the only advertising agency that offers 
expertise in reaching the Alaska Native audience.
Consultants
    Behavior Change Expert Panel (BCEP) and Target Audience Specialists 
(TAS)--$196,070.--a panel of distinguished and experienced experts in 
behavioral science and target audience information. Their main 
responsibility is to ensure that the NYAMC is informed by the best 
available perspectives and insight on preventing illicit substance use 
among youth.
Vendors
    Millward Brown--$762,904.--Conducts the Media Campaign Advanced 
Tracking Study, which provides ongoing input to guide tactical and 
strategic campaign decisions.
    Strategic Message Specialist--$3,750.--Independent evaluator for 
match programming.
    Competitive Media Reporting--$690,000.--Helps ensure measurement 
and accountability of the pro bono match delivery of the NYAMC in 
accordance with the Congressional requirement to provide the pro bono 
match that shall ``suplement and not supplant'' public service 
advertising provided by the media industry.
    Qualitative/Formative Creative Evaluation Panels (FCEPs)--
$272,145--various vendors.--Qualitative research to refine and enhance 
the creative product during the development process. The cost includes 
recruitment, execution and completion of approximately 100 focus group 
sessions in a year, as well as supplier fees. This also include FCEPs 
for interactive advertising.
    Quantitative Creative Evaluation (Copy Testing)--$434,265--various 
vendors.--Undertaken to evaluate finished creative concepts for all 
target audiences and determine the effectiveness of creative product 
for use in the Campaign. The cost includes recruitment, execution, and 
completion of between 15 and 20 individual copy tests as well as 
supplier fees.
    Multicultural Research--$214,816--various vendors.--Qualitative 
research among Hispanic and Asian American youth about a broad range of 
drug and non-drug related issues. In particular, we were interested in 
obtaining feedback on the efficacy of the various anti-drug strategic 
platforms available to target Hispanic and Asian American youth. We 
were also interested in obtaining a better understanding of the tools 
that can be used to avoid drug usage.
    Question. Who decides on a subcontractor, ONDCP or the prime 
contractor? Is it included in the prime's initial bid for the contract? 
Please provide detail for each contract.
    Answer. Offerors submit subcontracting plans and proposed teams 
with their proposals, as required by the contract. However, the 
Government awards the contract to the prime contractor only and the 
prime contractor can change their subcontractors as long as they can 
prove that the new subcontractor is comparable to what was submitted in 
the prime's proposal. The prime contractor is ultimately responsible 
for providing service regardless whether the subcontractor does or does 
not do the work. ONDCP has no privy specific agreements between Ogilvy 
& Mather and its subcontractors.
    Question. Where, when, and how was it decided to spend funds on 
consultants who specialized in groups such as Alaskan natives and 
Puerto Ricans?
    Answer. Unlike a typical consumer product advertising campaign 
where messages are directed toward a particular audience capable of 
purchasing a product, ONDCP's Campaign attempts to reach all American 
teens and their parents, and other adult influencers. Research 
indicates that Alaskan Natives and Puerto Ricans are among the 
populations at great risk. ONDCP made this decision in 1997-98, after 
consulting with experts in the drug prevention, public health, and 
communications fields. Our advertising contractor subcontractors with 
two companies with specialized expertise in reaching these audiences. 
The U.S. Census Bureau, Centers for Disease Control, and other 
government advertisers have similar subcontractors because it enables 
them to accomplish the mission of their campaigns.
    Question. Why do you fund more than one subcontractor to focus on 
Hispanic Americans, Asian Americans, and African Americans? Also, why 
does both Ogilvy and Mather and Fleishman Hillard subcontract to focus 
on these groups?
    Answer. Ogilvy subcontracts with ethnic agency companies to plan 
and purchase advertising in media outlets intended to reach Hispanic 
Americans, Asian Americans, and African Americans. Most advertising 
agencies do not have such specialized expertise, and therefore 
subcontract with companies that possess extensive experience in placing 
advertising in ethnic media. It is more efficient and cost-effective to 
place media in this manner.
    Fleishman-Hillard subcontracts with companies that have specialized 
expertise in reaching hard-to-reach audiences, in addition to ethnic 
organizations and community groups. These organizations are essential 
to our efforts to reduce drug use among multicultural youth, and their 
expertise is necessary to gain ethnic audience involvement and 
credibility. This is especially important for those multicultural 
audiences who are not reached by in-language media because in order to 
reach and motivate these groups, the messages must be seen as relevant 
and ``endorsed'' by groups they know and in which they have confidence. 
Subcontractors who have expertise in creating advertising for 
multicultural audiences rarely have experience in working with 
community groups representing these populations. Therefore, acquiring 
such special expertise is necessary to effectively engage these groups, 
such as National Asian Pacific American Families Against Substance 
Abuse, ASPIRA, National Congress of Black Churches, 100 Black Men of 
America, etc. Without the involvement of such organizations, the 
Campaign would not have the necessary relevance and credibility 
essential to reach multicultural youth with effective messages and 
community-level activities. Some of the audiences targeted by the 
Campaign are reached more efficiently by non-advertising programs than 
they would be by advertising.
    Question. Why was Fleishman Hillard chosen for the communications 
contract?
    Answer. The Department of Health and Human Services, which earlier 
served as the Contracting Office for ONDCP, selected Fleishman Hillard 
in a free and open competition. The proposal, based on the technical 
approach, the capabilities of the firm and its subcontractors, staff, 
and experts identified for this work was the best value to the 
government. In particular, the proposal included an exceptional project 
director with extensive experience in health behavior change in 
relevant areas such as tobacco and HIV/AIDS.
    Question. Why was the contract for 5 years when most private 
industry ad campaigns hire public relations firms on a year to year 
basis?
    Answer. The Fleishman Hillard contract is a 1-year contract, with 
1-year options, up to a maximum of 5 years, based on performance. This 
type of contract provides the government with the most flexibility and 
best means to ensure cost-effective contractor performance for the 
duration of the Campaign. Further, it maximizes synergy with the 
advertising component of the Campaign. One-year contracts would require 
that the government hold a re-competition each year, taking valuable 
staff time and funds away from the Campaign, with no assurances of 
contractor continuity from 1 year to the next, thus decreasing overall 
effectiveness of the Campaign. Given the complexities of the Campaign 
and the sensitivity of the drug prevention issue, hiring a new 
contractor each year would require huge amounts of start-up time. The 
current contractor has performed well.
    Question. Under research and evaluation, please break down the 
details of the annual $7 million contract to Westat/Annenberg.
    Answer. The approximately $7 million per year (for 5 years) from 
ONDCP to NIDA is to support a contract awarded from NIDA to Westat for 
the full evaluation of the Campaign. Westat has a subcontract with 
Annenberg and together they conduct and analyze the evaluation. The 
contract includes data collection, analysis, and report generation for 
the project whose core study is a longitudinal assessment of 
approximately 14,000 youth and parents from 90 communities across the 
country.
    Question. Please break down the annual $2.5 million contract to 
NIDA.
    Answer. The annual $2.5 million funding from ONDCP to NIDA was used 
to fund research grants on persuasive communications. There were a 
total of five grants and five supplements to the grants. The studies 
funded under this initiative were designed to better inform drug abuse 
prevention efforts through improved understanding of the ways children 
and adults respond to media messages. These studies should provide the 
basis for improving prevention efforts in the future. ONDCP funded the 
studies for 1998 through 2001, but due to budgetary constraints have 
been unable to fund the final year of the projects in fiscal year 2002.
                            production costs
    Question. According to your agency, the costs for producing a TV 
commercial range from a few thousand dollars to $600,000.
    Please provide details for the production costs associated with a 
$600,000 commercial?
    Answer. To clarify the statement made by my staff, $600,000 has 
never been spent on a single commercial for the Campaign. That figure 
may have been derived from the cost of a pool of commercials. Several 
factors will ultimately affect the final production costs of a 
commercial. The type, location, number of actors, and number of 
shooting days will all affect the final cost. According to the American 
Association of Advertisers, the average cost of a 30-second commercial 
for any product in fiscal year 2000 was $332,000. ONDCP's average cost 
for the NYADMC has been less than half of that amount. Typical costs 
will include pre-post/wrap, shoot, pre-post/wrap materials & expenses, 
location expenses, props and wardrobe, studio rental & expense--stage, 
set construction crew, set construction materials, equipment rental, 
film raw stock develop and print, director fees, talent, talent 
expenses, editorial completion, videotape production, and completion.
    Question. What services and talent are provided pro bono?
    Answer. Under the pro bono system, all creative services, talent 
session fees, and residuals are donated. The use of all owned equipment 
used in the production of ads also is pro bono. Kodak provides a 20 
percent discount on all film used in Campaign ad production.
    Question. Where do the subcontractors fit in production costs? Are 
these costs broken down in the billing?
    Answer. Subcontractors fit in production costs only when they are 
producing the ad. If the ad is already produced, their role is limited 
to purchasing media time and space. Production costs are billed to us 
as either prime contractor production costs (with detailed breakout) or 
subcontractor production costs. The subcontractors do not provide a 
detailed breakout of production costs.
    Question. How does the media campaign production costs compare to 
the private sector?
    Answer. The Campaign's production costs for the average 30 second 
television ad (television is the largest component of all production 
costs) are less than half the typical industry cost of $332,000, 
according to a survey of the American Association of Advertising 
Agencies. The government pays for only out of pocket costs, not mark 
ups or profits.
                           ogilvy and mather
    Question. Is your agency seriously considering awarding another 
contract to Ogilvy and Mather for the media campaign?
    Answer. The contract is being re-solicited in an open competition 
with award expected in early July. Ogilvy has corrected its 
deficiencies and is legally able to submit an offer.
    Question. Given the fact that Ogilvy and Mather has admitting 
wrongly billing the government as part of its work on the media 
campaign, why would you consider providing public dollars to this 
company?
    Answer. The contract is being re-solicited in an open competition 
with award expected in early July. Ogilvy has corrected its 
deficiencies and is legally able to submit an offer.
    It should be noted that ONDCP Campaign personnel were instrumental 
in discovering Ogilvy's billing problems and in withholding payment of 
questionable bills. Nonetheless, ONDCP made significant strides to 
improve oversight. ONDCP moved responsibility for contract 
administration to the Navy from the Department of Health and Human 
Services. The Navy engaged the DCAA to review invoices and perform 
audits. Additionally, key media staff received Contracting Officer's 
Technical Representatives certification, thereby enhancing oversight 
capabilities.
    Prior to re-soliciting a new contract, ONDCP and the Navy conducted 
market research to determine whether any entities capable of providing 
the advertising services also had in place a DCAA approved accounting 
system. Market research indicated a number of companies met these 
prerequisites. Consistent with the Federal Acquisition Regulation, the 
Navy will only award the contract to an entity with an accounting 
system pre-certified by DCAA.
    Question. If a criminal investigation--which I understand is 
currently being conducted by the FBI--determines further wrongdoing on 
the part of Ogilvy or its employees, would you still permit Ogilvy to 
compete for the next contract or allow them to be considered?
    Answer. If future facts come to light concerning the fitness of the 
contractor to perform, ONDCP will take these matters up with the 
appropriate contracting and debarment authorities.
    Question. Who is the current Federal government contract manager of 
the media campaign?
    Answer. The Department of the Navy.
    Question. Why does not ONDCP itself manage the contract?
    Answer. The contract administration capacity of the Executive 
Office of the President is not sufficient to handle a contract of this 
size and complexity in addition to its normal responsibilities.
    Question. Doesn't this add yet another layer of bureaucracy to an 
already overly bureaucratized program?
    Answer. Recognizing that some process improvement/streamlining can 
and will be made, ONDCP does not believe that the Campaign is overly 
bureaucratic. However, the same amount of contract management activity 
is required whether it is performed by the contracting office of the 
EOP or the Navy.
    Question. Are you switching contracts from the Navy because you are 
dissatisfied with their performance in managing the contract?
    Answer. No. The Fleet Industrial Supply Center (FISC) made a 
determination that it will no longer act as a contracting activity for 
any Federal agency other than itself. This decision affected ONDCP as 
well as various other organizations. If we transfer contract 
administration to the Department of Interior, arrangements have already 
been made to retain DCAA (in fact the very same individuals will work 
on the account).
                                pro bono
    Question. What happened to the one for one pro bono match mandated 
by the Authorization and the fiscal year 1999 Appropriations Report and 
Bill?
    Answer. The Pro Bono match mandate is still in place, and all 
vendors must continue to give at least one dollar for every dollar 
spent.
    Per the Campaign's authorizing legislation, Congress mandated that 
every Federal dollar spent on paid advertising as part of the Campaign 
must be matched by media outlets on at least a one-for-one dollar value 
basis. The Pro Bono match program helps to ensure the preservation of 
the traditional donated media model of public service advertising.
    Through negotiation by the Campaign's contractors, the Campaign 
exceeded the one for one Pro Bono match requirement. Specifically, for 
the period beginning January 1998 (the initiation of the 12 market 
test) through September 2002, the total value of the Pro Bono match 
secured on behalf of the Campaign is projected to reach $665 million. 
The overall match has an index of 107 versus paid activity of $618 
million, meaning an additional $47 million of free media space and time 
above and beyond the one for one mandate will be received by the 
Campaign.
    Question. How was it decided to expand the program to include ads 
other than anti-drug?
    Answer. All advertising time used from the pro bono match is 
exclusively for drug-related advertising submitted by non-profit and 
government agencies and judged by an interdepartmental group to be 
directly relevant to the youth drug prevention goals of the Campaign, 
based upon established criteria. The group, which includes 
representatives of the Departments of Health and Human Services, Office 
of Juvenile Justice Prevention, Department of Education, PDFA, Ad 
Council and ONDCP is overseen by the Ad Council. The pro bono match is 
generating $665 million in contributions, as projected through 
September 2002, actually exceeding the congressional mandate of a 1:1 
match.
    Please note that since the beginning of the Campaign, the original 
intent of the broadcast and radio pro bono Media Match was not to 
support the ``core'' PDFA messages (although PDFA continues to receive 
a large share--approximately $80 million in the past year--of all pro 
bono time and space), but rather, to promote and support PSAs from 
grassroots organizations that provide essential drug treatment and 
prevention programs and social services in local communities.
    In fiscal year 1998, when Congress first appropriated funding for 
the Campaign, ONDCP, in concert with its media buying contractor, 
devised a negotiation policy for the purchase of media time and space. 
The policy required media outlets to match each Federal dollar spent 
for ad time or space with an equivalent amount in public service or in-
kind donations. The policy was specifically developed to address two 
congressional stipulations about the Campaign--(1) promote private 
sector participation in the Campaign and (2) ensure that the Campaign 
supports, not supplants existing public service advertising networks.
    The Ad Council was particularly concerned about the second issue 
and feared that the Campaign would contribute to the decline of public 
service time slots, making it more difficult for public health 
organizations to obtain visibility for their messages. Prior to the 
Campaign launch, the Ad Council and other public health organizations 
urged Congress to ensure that Campaign dollars not jeopardize existing 
public service time, which had been steadily declining. They 
recommended that the public service time that would be donated by media 
(the pro bono match) be shared with other organizations so as to ensure 
that the Campaign's media buying would not undermine existing public 
service messages. Additionally, the public health and drug prevention 
communities forcefully articulated the connection between youth drug 
prevention and a range of youth-related issues--underage drinking, 
parenting skills, after-school programs, drug treatment, youth 
hotlines, etc.
    The negotiating policy was far more successful than anyone had 
anticipated, with media outlets providing a 107 percent match for each 
Federal dollar (although some media outlets would not provide a match). 
When Congress authorized the Campaign in the summer of 1998, it 
mandated a ``match'' as a stipulation of Federal dollar purchase. It 
was no longer a negotiation policy. Both our advertising contractor and 
the Ad Council indicate that a number of media outlets would not 
provide a 100 percent pro bono match if they believed the time would be 
used exclusively for anti-drug ads.
    These PSAs fill a critical void in the Campaign because they offer 
fulfillment on a local level to the national core messages that are 
prepared by PDFA for ONDCP. The PSAs are sponsored by credible 
grassroots and government organizations all across America, such as: 
Big Brothers Big Sisters of America; Girl Scouts of the USA; America's 
Promise; YMCA; Boys & Girls Clubs; National Mentoring Partnership; 
National Crime Prevention Council; Save the Children; Alanon/Alateen; 
Center for Substance Abuse Prevention (CSAP); Center for Substance 
Abuse Treatment (CSAT); Mothers Against Drunk Driving (MADD); National 
Council on Alcohol and Drug Dependency (NCADD); National Fatherhood 
Initiative; National Inhalant Prevention Coalition; National Institute 
on Alcohol Abuse and Alcoholism (NIAAA); National Institute on Drug 
Abuse (NIDA); Community Drug Prevention PSA Campaign (ONDCP/Ad 
Council); Partnership for a Drug-Free America; Recording Artists, 
Actors and Athletes Against Drunk Driving (RADD); Substance Abuse and 
Mental Health Services Administration (SAMHSA/HHS); and U.S Dept. of 
Transportation/Drunk Driving Prevention.
    The media have always had the option to run more PDFA ads to 
satisfy their match requirement. PDFA ads have appeared in every 
quarterly reel to date. However, the media's support of the Campaign 
and its pro-bono match has always depended on their ability to remain 
flexible in selecting messages that they feel best contribute to 
reducing youth drug use, and those that best meet the needs of the 
audiences they serve.
    The media match fully supports anti-drug treatment and prevention 
messages (both paid and PSAs) that have been prepared, primarily by 
PDFA and ONDCP, as well as other non-profit and government 
organizations that helping to keep kids drug-free. More than 60 percent 
of all pro bono time and space is devoted specifically to ads that have 
specific substance abuse messages. The remainder includes messages for 
prevention and parenting strategies (after-school programs, mentoring, 
etc.) of the organizations like those noted above.
    All of the advertising is provided free to the Campaign (except 
those produced via the Partnership for a Drug Free America and the 
Campaign--where ONDCP pays for the production costs), and the great 
majority of ads (76 percent) specifically include anti-drug messages. 
Of the other free ads provided from the pro bono match that are not 
specifically anti-drug, they all directly relate to the goals of the 
Campaign by encouraging activities such as greater parental 
involvement, after-school programs, raising young people's self-esteem, 
mentoring, and other relevant youth related issues such as underage 
drinking and juvenile crime.
    Question. How can we move towards getting more anti-drug 
commercials included in the match, while still including other germane 
organizations?
    Answer. Currently, all of the commercials in the match are directly 
related to preventing youth substance abuse (although not necessarily 
conveying specific anti-drug messages). The ads are selected by a panel 
of public health and drug prevention experts including representatives 
of HHS, DOJ, Department of Education, ONDCP, PDFA and the Ad Council. 
Approximately 60 percent of the value of the ads run in the pro bono 
match are specifically related to substance abuse. The remainder 
consists of messages promoting after-school activities, good parenting 
skills, youth hotlines, mentoring, and other topics judged to support 
the goals of the Campaign.
                                 westat
    Question. Is it true that there were only seven girls in the cohort 
who were more likely to try marijuana due to exposure to the campaign? 
If so, why was that not defended in the hearing?
    Answer. No. The size of this subgroup of respondents is in fact 
several hundred and conforms with scientific sampling standards to 
ensure a statistically valid result. As noted previously, NIDA 
indicates that this unfavorable effect should be viewed as an interim 
result. It will be important to determine if this finding holds up once 
the full sample is available following completion of Wave 5 data 
collection.
                             authorization
    Question. What were the original reach and frequency goals of the 
campaign, and what were to be the measurable outcomes?
    Answer. The original reach and frequency goals of the Campaign were 
90 percent reach with 4.0 frequency/week for teens 12-17, and 74 
percent reach with 3.5 percent frequency/week for Adults 25-54. The 
measurable outcome would be to the extent the Campaign contributed to 
reducing drug use among youth.
    Question. Would you equate a ``measurable outcome'' with a 
``measure of success''?
    Answer. The measure of success that we are using for all drug 
control programs is whether they are contributing to achieving the 
President's goal of reducing drug use by 10 percent in 2 years and 25 
percent in 5 years.
    Question. In your opinion, has the campaign been successful in 
attaining these goals and outcomes?
    Answer. The Campaign successfully has exposed its target audience 
to anti-drug ads. Specifically, awareness of anti-drug advertising and 
anti-drug brand recognition have both increased significantly since the 
Youth branding campaign was launched in August 2000. Ad awareness went 
from 37 percent to 71 percent (as of week ending 6/16/02); anti-drug 
logo awareness went from 10 percent to 54 percent (for the same 
period).
    There is evidence consistent with a favorable Campaign effect on 
parents. Overall, there were statistically significant increases in 
four out of five parent belief and behavior outcome measures including 
talking about drugs with, and monitoring of, children. Parents who 
reported a higher level of exposure to Campaign messages scored higher 
on those outcomes; however, there is no evidence yet that youth 
behavior was affected as a result of parent exposure to the Campaign.
    Most parents and youth recalled exposure to Campaign messages, with 
about 70 percent of both parents and youth recalling exposure to one or 
more messages through all media channels each week. In 2001, about 68 
percent of youth aged 12 to 18 recalled the Campaign brand phrase 
targeted to youth and 55 percent of parents recalled the brand phrase 
targeted at parents.
    Unfortunately, the recent Westat evaluation demonstrates that the 
Campaign is not having a measurable positive impact on the most 
important measure of success--reducing drug use among youth. ONDCP is 
confident that the modification proposed to the Campaign will, in fact, 
enable the Campaign to become effective and contribute to achieving the 
president's goals.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Director Walters, the most recent evaluation seems to say 
that the anti-drug media campaign had some positive effects during the 
first 3 years but, frankly, it has been hard for us to tell due to the 
lack of concrete information from ONDCP. In any event, you have gone on 
record as saying that the current program does not work, and you have 
outlined some steps to make it better. However, I feel compelled to ask 
this.
    Is it possible that the young people of this country are not paying 
attention any more because the ``newness'' of the idea of an anti-drug 
media campaign has simply worn off?
    Answer. There is no evidence that the ``newness'' of the Campaign 
has worn off. Specifically, awareness of anti-drug advertising and 
anti-drug brand recognition have both increased significantly since the 
Youth branding campaign was launched in August 2000. Ad awareness went 
from 37 percent to 71 percent (as of week ending 6/16/02); anti-drug 
logo awareness went from 10 percent to 54 percent (for the same 
period).
    Total teen awareness for the entire drugs and terror campaign 
reached an impressive 78 percent in early May, with older teens peaking 
at 86 percent, an impressive and unusually high level of awareness for 
such a young campaign and significantly exceeding the 70-75 percent 
communication goal. The drugs and terror campaign also achieved an 
impressive 66 percent advertising recognition among Adults.
    The parental outcomes measured in the Westat study indicate that 
the Parents campaign is taking hold, changing behavior and cognition. 
From 2000 to 2001, there was a significant increase among parents in 
talking behavior, talking cognition, monitoring behavior, and 
monitoring cognition.
    According to Westat, annual drug use among current 16-18 year olds 
(who were 12-13 years old at the start of the Campaign) showed a solid 
(albeit directional) decline versus Wave 1: from 28.9 percent to 26.1 
percent. While we acknowledge that behavior change among Youth takes 
time, we believe we can strengthen that effort by refining the 
strategies and developing even more impactful initiatives targeting 
marijuana (as well as a new round of communications underscoring the 
link between drugs and terror that will be forthcoming).
    Question. If that is the case, what ideas do you have for something 
new?
    Answer. Since awareness is not an issue, we believe young people 
are paying attention to the Campaign. That said, we want to ensure that 
youth continue to be engaged in the message by imbuing the Campaign 
with sharper focused messages, and continuously introducing ``news'' 
such as drugs and terror, and countering their beliefs about marijuana 
being a ``soft'' drug with new negative marijuana consequences 
messages. Early evidence suggests this will be successful: new negative 
consequences marijuana messages slated for Fall are very compelling 
among all teens in qualitative research and a recently produced 
negative consequences marijuana execution showed a significant positive 
impact on anti-drug beliefs among youth in quantitative research.
    Question. Director Walters, in your prepared remarks you outline 
four specific things you plan to do to put the anti-drug media campaign 
back on track--test all ads, concentrate on the 14-16 age group, focus 
on marijuana, and become more involved in the development of ads.
    What assurances can you give us that these steps will result in 
reduced drug use by our kids?
    Answer. We have studied these issues thoroughly. We have learned a 
great deal from the evaluation of the Campaign up to this point. The 
measures we announced are backed by months of work by our Strategic 
Development Task Force. We have consulted and considered the views of 
those who have done social marketing campaigns addressing other 
behaviors. We believe we have put in place the correct campaign 
parameters to achieve positive results.
    Question. Is that all that needs to be done?
    Answer. No, we also need to have excellent campaign execution. We 
need to manage the many mechanisms of the total effort to make sure we 
get optimum performance. Finally, we need the support of the Congress 
to fund fully the President's fiscal year 2003 request of $180 million 
for the Campaign and permit continued flexibility in how ONDCP 
allocates the appropriated funds.
    Question. Director Walters, I'd like to take these four specific 
things one at a time and get some more information:
    Testing--how are ads tested now and exactly what do you plan to do 
differently?
    Answer. All TV ads will be thoroughly tested (qualitatively and 
quantitatively) before they are aired, based on a higher standard that 
we will develop after consulting with experts and our pro bono 
partners.
    Question. Age focus--you say that the general focus will be kids 9-
18 but that the target group will be in the 14-16 age group. Since the 
issues and interests of each group are so different, how can you do it 
all and still target one?
    Answer. For our youth target audience, we can only purchase media 
time and space in a category for teens age 12-17. Advertising messages 
with specific appeal to segments of the teen audience can be rotated in 
programs and print vehicles that skew to specific segments. For 
example, we reach younger teens (12-14) with ``Seventh Heaven'' which 
is highly rated against this segment.
    Question. Focus on marijuana--does this mean that there will no 
longer be ads warning kids to stay away from such things as ecstasy and 
date-rape drugs?
    Answer. Marijuana use is the single most prevalent drug used by 
America's youth. According to the most recent findings from the 2000 
National Household Survey on Drug Abuse, 7.2 percent of youth (ages 12-
17) reported that they are ``current'' users of marijuana. Of those 
same youth, only 0.6 percent report current use of cocaine, and only 
0.1 percent report current use for heroin. In the same survey 18.3 
percent of youth (ages 12-17) reported using marijuana in their 
lifetime, with 2.4 percent using cocaine and 0.4 percent using heroin.
    Other troubling statistics relating to youth and marijuana are:
  --Perceived harmfulness of smoking marijuana regularly decreased 
        among 8th graders from 74.8 percent in 2000 to 72.2 percent in 
        2001 (Monitoring The Future).
  --Early adolescent marijuana use is related to later adolescent 
        problems, such as lower educational achievement, according to a 
        study published in the American Journal of Public Health in 
        1999.
  --More than 3,800 youth aged 12 to 17 tried marijuana for the first 
        time every day in 1999 (the latest year for which data are 
        available) (National Household Survey on Drug Abuse).
    As we look to achieve better results, it is clear that we cannot 
expect to make progress toward our goal of reducing youth drug use 
until we significantly reduce the use of marijuana, the preponderant 
drug of choice among youth.
    However, fiscal year 2002 Conference report language directed the 
Campaign to allocate $5 million (out of the $180 million appropriated) 
``for advertising time and space specifically targeted at combating the 
drug Ecstasy.'' ONDCP intends to base this effort on anti-ecstasy 
television ads already developed by the Partnership for a Drug Free 
America.
    This anti-ecstasy advertising will be directed toward youth and 
will appear on popular youth-oriented network television programs on 
the key networks that youth watch most, such as WB, MTV, UPN, ESPN, 
Fox, and Much Music. Programs may include shows such as WB's (``Seventh 
Heaven,'' ``Gilmore Girls,'' ``Dawson's Creek,'') UPN's (``The 
Hughleys,'' ``Wolf Lake,'' ``The Parkers''); MTV's (``Real World,'' 
``WWF Heat''); Fox's (``Mad TV,'' ``Family Guy''); ESPN's Sports 
Center; and Much Music's (``Live at Much Music,'' ``Oven Fresh''). 
These programs air in primetime (8-11 p.m.) and late night (11:30 
p.m.).
    The above schedule is based on ONDCP's April-June 2002 planned 
television schedule. Actual programs airing ecstasy advertising will 
vary depending upon availability and scheduling and will air between 
June and September 2002.
    Question. Development process--right now ONDCP utilizes the 
voluntary efforts of various non-profit groups to create and develop 
ads. Will the direct involvement of ONDCP reduce the amount of money 
available for actually purchasing ad space and time?
    Answer. The Task Force convened a specific Working Group, which 
examined the current creative process and recommended revisions that 
would achieve maximum efficiency of time and cost effectiveness. Task 
Force members agreed on new measures that allow ONDCP earlier 
visibility and involvement in the creative development process. This 
will give ONDCP the opportunity to advise PDFA of its views on new ads 
being developed in the earliest concept stages.
    A positive illustration of flexibility and early involvement of 
ONDCP in the ad development process was recently illustrated when 
Campaign staff worked directly with our contract ad agency to develop 
ads specifically designed and tested for Native American audiences, and 
ads that for the first time link drug money with the support of terror. 
In both cases, ONDCP was involved early in the creative development 
process, and the creative team became thoroughly educated about the 
Campaign. In these cases, the ads were possible through the donated 
created services of our contract agency.
    ONDCP will take the recommendations of the Task Force and work with 
our pro bono partners in making modifications to the Campaign 
advertising development process to ensure greater efficiency and 
effectiveness. ONDCP has begun to implement some of these changes with 
regard to ONDCP's more direct involvement in briefing pro bono ad 
agencies that are working on new marijuana ads. ONDCP will continue, as 
it has in the past, to use the flexibility we have to use other means 
to fill unmet and important Campaign needs.
    ONDCP does not believe it would have to purchase all creative work. 
However, if a worst-case scenario developed, we estimate it would cost 
no more than $10 million to do so. ONDCP would work with the 
Subcommittee to identify funding from within the Media Campaign 
appropriation to fund any creative costs.
    Question. Director Walters, the anti-drug media campaign was 
originally authorized for 5 years. That time is up.
    What is the status of the reauthorization of this project?
    Answer. The Campaign is an important tool in reducing youth drug 
use to meet the goals of the National Drug Control Strategy and it 
should be reauthorized. ONDCP is working with authorizing committees 
and individual members in both houses to prepare a reauthorization 
measure.
    Question. What statutory changes, if any, have you requested to 
overhaul this program?
    Answer. ONDCP has not yet requested any statutory changes.
                                 ______
                                 

                Questions Submitted by Senator Jack Reed

                            non-ad programs
    Question. How do non-advertising components fit into your overall 
plan for the campaign? (behavioral, community outreach or PR programs).
    Answer. The non-advertising communications component of the 
Campaign (approximately $11 million per year) is an integral part of 
the advertising. Each ad includes a website where an individual can go 
to obtain additional information. The parent ads have phone numbers 
that link to a national clearinghouse where operators can assist 
callers seeking materials, resources, or even emergency treatment.
    While advertising is good at raising awareness, meaningful drug 
prevention must include more substantive involvement of the audiences. 
A 30-second TV ad needs to connect the viewer to sources of further 
information and relevant resources, such as a toll-free telephone 
number or website. A youth may want to search for information on 
specific drug risks, or a parent may want more details on how to 
recognize signs of drug involvement or need to know the location of a 
local anti-drug coalition. To date, the Campaign has responded to well 
over 2 million telephone calls, has gotten tens of millions of web site 
visitors, and has shipped tons of drug education materials, reaching 
virtually every ZIP code in the Nation with requested information. 
Advertising alone cannot respond to individuals' needs for tailored 
information and referrals to local prevention and treatment 
organizations.
    The Campaign utilizes a public communications outreach effort which 
builds on and complements the advertising component. Significant 
efforts under this ``non-advertising'' component include a public 
information campaign that directly supports our advertising messages 
and builds credibility for the Campaign, a robust partnership 
initiative that expands the collective communications output of the 
Campaign by building relationships with a wide range of private sector 
media organizations and nonprofit organizations committed to the goals 
of the Campaign. Pursuant to Congressional direction and ONDCP's 
extensive consultation process, the Campaign has evolved to include the 
following:
    Multicultural Component.--ONDCP developed a robust multicultural 
component to the Campaign, with ads and outreach materials created in a 
variety of languages, based on dedicated research to identify the 
unique cultural differences in the way drugs are regarded by African 
American, Hispanic, American Indian and Alaska Native, and multiple 
Asian and Pacific Islander ethnic groups. For example, 
``LaAntiDroga.com'' provides parents and other adult caregivers with 
strategies and tips in Spanish on raising healthy, drug-free children. 
Free e-mail parenting tips are available in Spanish and a parenting 
brochure is under development. This summer, the Campaign is publishing 
updated brochures on marijuana and inhalants in Korean, Cambodian, 
Chinese and Vietnamese.
    Grassroots Outreach.--ONDCP established grassroots programs that 
broadened our message delivery nationwide through professional, 
nationwide, public communications outreach and support to community 
anti-drug coalitions, civic organizations, parenting and youth serving 
organizations, entertainment media, and faith organizations.
    Corporate Participation.--ONDCP is reaching out to corporate 
America and receiving valuable support in extending the Campaign's 
messages through the marketing and communications programs and networks 
of some of the Nation's best-known companies. For example, Safeway is 
reaching customers in more than 1,700 grocery stores and Capital One is 
including anti-drug messages on 20 million billing statements. Borders 
and Waldenbooks will distribute the Campaign's parenting brochures in 
over 1,000 stores. The Campaign's ``Work'' program provides employers 
easy access to drug prevention materials for dissemination to 
employees. Blue Cross Blue Shield and AT&T are participating in the 
Campaigns Work program by heavily promoting Campaign messages and 
materials to their tens of thousands of employees.
    Interactive Programs.--ONDCP created sophisticated Interactive 
communications programs, including effective Internet destinations 
where parents and youth can receive factual, research-based information 
about drugs. With nearly 17 million youth ages 12-17 using the Internet 
regularly, the Campaign has devoted significant resources to developing 
and promoting online anti-drug information. The Campaign's suite of 
nine Websites has garnered over 35 million page views. Freevibe.com, 
which helps youth understand the dangers of drugs, has attracted over 7 
million visitors since its launch in the Fall of 1999. Site visitors 
now are spending an average of 8-9 minutes surfing anti-drug 
information compared to an average of 3-4 minutes when we launched 
Freevibe.com 3 years ago. TheAntiDrug.com, which provides parents and 
other caring adults with strategies and tips on raising drug-free 
children, has attracted over 3 million visitors.
    Support for Public Service Advertising.--The Campaign designed and 
operates a system to lend support to other public service advertising 
through the Advertising Council. The system works by designating pro 
bono broadcast ad time provided by media outlets in fulfillment of the 
Campaign's statutory obligation to obtain a dollar's worth of in kind 
public service for every dollar's worth of advertising the Campaign 
purchases. Through this system, more than 60 non-profit organizations 
and other government agencies have received prime time network and 
cable positions for their public service advertising that carries anti-
drug messages or messages supporting underlying values such as 
effective parenting, youth mentoring, after school programs, or 
education. More than $370 million-worth of television and radio ad 
support for these organizations and their messages has been provided 
through the Campaign.
    Promote Community Anti-drug Coalitions.--Also through the Ad 
Council, the Campaign conducts a public service advertising campaign 
dedicated solely to promoting the growth and effectiveness of community 
anti-drug coalitions, which by itself has garnered more than $121 
million in donated media for its ads.
    Question. How much money is in your budget for non-advertising 
programs?
    Answer. Over the course of the Campaign, ONDCP has spent 87 percent 
of its appropriated dollars on advertising. Advertising includes media 
time and space for ad placement (87.2 percent), production (6.1 
percent), direct labor (2.6 percent), overhead (3.0 percent), and fixed 
fees (1.1 percent). Of the 13 percent that is not devoted to 
advertising, 6 percent is for evaluation and research, 4 percent is for 
integrated communications, 2 percent for Clearinghouse operations, 1 
percent is for the communications strategy/corporate participation, and 
1 percent is for ONDCP management costs (percentages may not add due to 
rounding).
    Question. In a normal campaign to affect behavior, what's the 
typical breakdown of advertising vs. non-advertising spending?
    Answer. It is common practice in paid behavior change campaigns to 
spend far less on advertising that what is currently spent on 
advertising by ONDCP. The public health community and other media 
campaigns that focus on behavior change, along with research on these 
efforts, indicate that messages and must come from multiple sources in 
the environments of those whose behavior is being targeted. For 
adolescents, this means that in addition to advertising, youth should 
receive messages from parents, coaches, the faith community, schools, 
and in the after school programs and organizations that attract their 
participation (Scouts, YMCAs, etc.).
    In addition, messages in pop culture via the Internet, television 
programming, films, etc. should also include these messages. There is 
no formula for the split between ads versus other non advertising 
communication, but the American Legacy Foundation (focusing on youth 
anti-tobacco efforts) and the Center for Disease Control's media 
campaign on youth physical fitness each spend less than 60 percent of 
their budgets on advertising--ONDCP spends 87 percent. To change 
behavior, whether convincing a baby boomer to submit to a colon cancer 
checkup or changing youth attitudes about drugs, messages must not only 
be powerful and resonate with the audience they are intended to reach, 
they must come from a variety of influences in the environment of those 
whose behavior is targeted for change. Today's youth watch less 
television than the youth of 15 years ago. We need to reach them where 
they are.
    Question. Can you change behavior with advertising alone?
    Answer. No, neither ONDCP nor the public health community believes 
that the Campaign can attain its goal of reducing drug use among youth 
with advertising alone. In authorizing the structure of the Campaign, 
Congress made clear that ONDCP should develop an integrated 
comprehensive public health communications campaign--not merely an 
advertising effort. [21 U.S.C. Sec. 1802 (a)(1)(h)] ONDCP committed to 
Congress that the Campaign would rely on the best advice from the 
public health community, behavioral science, and the best practices of 
the marketing communications industry.
    Question. Do you have any idea how much money is being spent by 
corporate America to support these non-ad programs?
    Answer. The Campaign's Corporate Partner program, initiated in 
September 2001, leverages the communications infrastructures of 
America's businesses to expand and enhance the Campaign's reach. 
Approximately $8 million in non-advertising programs has been 
contributed by Fortune 500 companies such as Safeway, DKNY, AT&T, 
Capital One, and Borders Bookstore. Benefits include donated 
advertising space for current Campaign PSAs; message and resource 
promotion through millions of direct mail messages, and the opportunity 
to place anti-drug materials in thousands of retail locations. For 
example, Safeway launched a national anti-drug advertising and 
communications effort in more than 1,700 locations and Borders/
Waldenbooks will use their network of more than 1,000 stores to 
distribute the parenting brochure.
    An independent assessment of the value of corporate participation, 
based upon data available from completed activities, will be delivered 
in a full report to Congress at the conclusion of the year.
    The above figures do not include other non-advertising 
contributions donated by media outlets as a result of an in-kind match 
via an advertising buy.
                              other issues
    Question. Mr. Johnston's testimony raises a concern that placing 
the name ``Office of National Drug Control Policy'' as a tag line at 
the end of each ad may be a turn-off to some adolescents. Similarly, 
both he and Mr. Burke have questions about whether the ``Anti-Drug'' 
branding theme may fall flat with older, at-risk teenagers.
    What is your view?
    Answer. We agree that placing ``ONDCP'' at the end of the 
commercials could be a ``turn-off'' to some of our target audiences. 
Similarly we discovered that placing ``PDFA'' in commercials provides 
no meaningful benefit to the target audience. These findings were 
confirmed by early Campaign research.
    In marked contrast, ``The anti-drug'' is a very meaningful 
research-based theme that youth have embraced as their own. ONDCP 
conducted extensive research, with high sensation seeking (at risk) 
teens and tweens from communities across the country to understand how 
youth would respond to the idea of an ``anti-drug''. Kids strongly 
embraced the idea of an ``anti-drug''--something important enough in 
their lives to stand between them and drugs--and appropriated it for 
themselves, as ``my anti-drug.'' Not only did youth of all ages find 
ownership and empowerment in the idea of an ``anti-drug'' brand that 
reflected their own values and passions (i.e., ``Soccer. My Anti-
Drug,'' ``Dreams. My Anti-Drug''), they led us to the idea that the 
brand could serve as an invitation to other youth to reflect on what 
their anti-drugs might be.
    Younger youth spoke very concretely about specific activities or 
hobbies that they considered anti-drugs' (i.e., ``Soccer. My Anti-
Drug''), and older youth very much endorsed intangible values as their 
anti-drugs. For older youth, respect of family/friends, their futures, 
opportunities, and careers were sited frequently as anti-drugs and 
reflected more aspirational and adult versions of the ``anti-drug'' 
brand.
    Our research showed us that youth audiences were hungry to know 
more about, and see and hear what was important in their peers lives 
that kept them from turning to drugs. Kids wanted to hear what was 
keeping their peers drug-free. It also serves as an anchor to unify 
disparate messages that come from a range of volunteer advertising 
agencies working through the PDFA pro bono process. We strongly believe 
that the ``anti-drug'' is relevant for all teens, including the older 
cohort, though we agree that the treatment of the brand in 
communications is vital to staying relevant to this more discerning 
target.
    According to public statements by the Partnership for a Drug-Free 
America in recent weeks, the Partnership informed ONDCP of its concerns 
with the direction of the campaign as early as October 2000.
    Question. When you took office in December 2001, did ONDCP staff 
make you aware of the issues as expressed by the Partnership?
    Answer. Yes. I was briefed extensively on the issues as well as 
analyses that the Partnership had done on the Campaign. Many of the 
issues PDFA publicly expressed concern about have been corrected. For 
example, the Campaign now has three message platforms, not 12. Flights 
of ads are at least 3 months long, not 6-8 weeks. Contrary to some 
statements made about the Campaign, the value of anti-drug ads placed 
in the media by the Campaign has never been greater, reaching more than 
$220 million in the last year, including pro bono messages. ONDCP will 
continue to work with PDFA and its partners to address any outstanding 
issues.
    A recent Wall Street Journal article discussing the National Youth 
Anti-Drug Media Campaign claimed that your office was concerned about a 
finding that the ads may have encouraged some kids to try drugs, but 
the Westat reports says that finding was an anomaly within the data.
    Question. Can you give us a little more insight into this?
    Answer. The findings presented in the NIDA/Westat report state that 
there is little evidence of direct favorable effects on youth. We did 
not feel that we could or should hide from the findings. For youth aged 
12 to 18, there were neither overall change in drug use nor 
improvements in beliefs and attitudes about marijuana use between 2000 
and 2001. For some outcomes and for some subgroups of respondents, the 
evaluation report raises the possibility that those with more exposure 
to the specific Campaign ads at the beginning of Phase III of the 
Campaign had less favorable outcomes over the following 18 months. In 
particular, 12- to 13-year-olds who report higher exposure to anti-drug 
ads in the first year of Phase III report a less strong rejection of 
marijuana use in the next year (a statistically significant finding).
    Further analysis is needed to determine whether this finding is 
simply anomalous or whether it should be used as a basis for inferring 
a negative Campaign effect. However, as this age group is a key target 
of the Media Campaign, we feel it would be irresponsible to ignore the 
data and wait for further waves of data collection before making any 
changes. Instead, we have worked swiftly to assess how to refocus the 
Campaign to ensure that it has a positive effect on youth attitudes and 
behavior about illegal drugs, particularly marijuana.
    I understand that your office has stated that the recent ``drugs 
and terrorism'' ads have been the most effective issued by the media 
campaign to date.
    Question. What evidence do you have to show that these ads changed 
drug-related attitudes, or reduced drug use among teens?
    Answer. The ads have generated a large response from across the 
country. Total teen awareness for the entire drugs and terror campaign 
reached an impressive 78 percent in early May, with older teens peaking 
at 86 percent, a significant and unusually high level of awareness for 
such a new campaign. The campaign also achieved an impressive 66 
percent advertising recognition among Adults. (NYAMC Advanced Tracking 
Study-Milward Brown).
    The post-9PM scheduling strategy appears to be quite effective in 
driving response for drugs and terror advertising. Viewers are directed 
to www.theantidrug.com, the Campaign's parenting Web site, where 
traffic surged after the ads were introduced. From the ads' launch on 
February 3 through February 27, page views on the site rose more than 
21 percent. Visitors to the site doubled from an average 125,000 per 
month to 250,000, and the time spent at the site by visitors increased 
from an average 6 minutes to 10 minutes. During the same Feb. 3-Feb. 27 
period, 1,282 parents signed up to receive a weekly parenting tips e-
mail. Wave 5 of the Westat Evaluation Report will provide more details.
    Question. How do you intend to balance the campaign's predominant 
focus on marijuana with emerging threats like methamphetamine and 
Ecstasy (which have become a serious problem in my state of Rhode 
Island)?
    Answer. Marijuana use is the single most prevalent drug used by 
America's youth. According to the most recent findings from the 2000 
National Household Survey on Drug Abuse, 7.2 percent of youth (ages 12-
17) reported that they are ``current'' users of marijuana. Of those 
same youth, only 0.6 percent report current use of cocaine, and only 
0.1 percent report current use for heroin. In the same survey 18.3 
percent of youth (ages 12-17) reported using marijuana in their 
lifetime, with 2.4 percent using cocaine and 0.4 percent using heroin.
    Other troubling statistics relating to youth and marijuana are:
  --Perceived harmfulness of smoking marijuana regularly decreased 
        among 8th graders from 74.8 percent in 2000 to 72.2 percent in 
        2001 (Monitoring The Future).
  --Early adolescent marijuana use is related to later adolescent 
        problems, such as lower educational achievement, according to a 
        study published in the American Journal of Public Health in 
        1999.
  --More than 3,800 youth aged 12 to 17 tried marijuana for the first 
        time every day in 1999 (the latest year for which data are 
        available) (National Household Survey on Drug Abuse).
    As we look to achieve better results, it is clear that we cannot 
expect to make progress toward our goal of reducing youth drug use 
until we significantly reduce the use of marijuana, the preponderant 
drug of choice among youth.
    However, fiscal year 2002 Conference report language directed the 
Campaign to allocate $5 million (out of the $180 million appropriated) 
``for advertising time and space specifically targeted at combating the 
drug Ecstasy.'' ONDCP intends to base this effort on anti-ecstasy 
television ads already developed by the Partnership for a Drug Free 
America.
    This anti-ecstasy advertising will be directed toward youth and 
will appear on popular youth-oriented network television programs on 
the key networks that youth watch most, such as WB, MTV, UPN, ESPN, 
Fox, and Much Music. Programs may include shows such as WB's (``Seventh 
Heaven,'' ``Gilmore Girls,'' ``Dawson's Creek''); UPN's (``The 
Hughleys,'' ``Wolf Lake,'' ``The Parkers''); MTV's (``Real World,'' 
``WWF Heat''); Fox's (``Mad TV,'' ``Family Guy''); ESPN's Sports 
Center; and Much Music's (``Live at Much Music,'' ``Oven Fresh''). 
These programs air in primetime (8-11 p.m.) and late night (11:30 
p.m.).
    The above schedule is based on ONDCP's April-June 2002 planned 
television schedule. Actual programs airing ecstasy advertising will 
vary depending upon availability and scheduling and will air between 
June and September 2002.
                                 ______
                                 

               Question Submitted by Senator Mike DeWine

    Question. Do you think that ads portraying the negative 
consequences of drug use are more effective, (in terms of intention to 
use and use), than ads that portray positive alternatives to drug use? 
Please explain your answer based on your research.
    Answer. No, we do not believe that negative consequence ads on 
their own are more successful in changing intentions to use. The 
Campaign's extensive copytesting research has shown that ads developed 
across both platforms have successfully changed anti-drug attitudes and 
intentions. The Campaign's research, as well as the behavioral science 
literature, strongly suggest that the most effective approach to 
preventing drug use includes a combination of these messages. 
Behavioral science experts concur with our qualitative research, 
underscoring the importance of presenting both negative consequences of 
use, as well as positive alternatives, in order to most successfully 
arm youth against potential drug trial or use.
    In light of the recent media focus and studies on the importance of 
social norming', there is even more evidence suggesting that without a 
positive alternative approach to balance out the more traditional 
negative consequence messaging youth have received, we will not be able 
to engage youth and change their drug related intentions and behaviors. 
That said, we believe that the Campaign can do a better job at 
achieving that balance: over the past 2 years the focus skewed toward 
positive alternatives, which is, in part, why our emphasis will be on 
negative beginning in Fall 2002.
    More sharply focused impactful messages are essential regardless of 
whether they support the negative consequences or positive alternative 
platforms.
                                 ______
                                 

                 Questions Submitted to James F. Burke

             Questions Submitted by Senator Byron L. Dorgan

    Question. You unequivocally state that an anti-drug media campaign 
can be effective on youth behavior. How can we change the current media 
campaign to do just that?
    Answer. A return to the focus and basic campaign structure of 1998-
99 is the first step that should be taken to improve the National Youth 
Anti-Drug Media Campaign (NYADMC)'s effectiveness on youth behavior. 
This means:
  --Strategic focus on the risks and social disapproval of drugs 
        (marijuana and other drugs such as methamphetamine and Ecstasy 
        that pose a risk for teens);
  --Reaching a communications target of youth 12-17, not focusing 
        exclusively on 11-13 year olds in the hope that we can 
        ``inoculate'' them against the possibility of drug use for the 
        whole of their adolescent years;
  --Involvement of behavioral science on an as-needed basis, as message 
        strategies are being formulated and not during the creative 
        development of messages; and
  --Office of National Drug Control Policy (ONDCP) involvement at 
        appropriate checkpoints: approval of messages strategy; initial 
        strategic briefing of Partnership for a Drug-Free America 
        (PDFA)'s volunteer ad agency; creative concept (script or 
        storyboard) approval for production; ONDCP Director's approval 
        of finished and pre-tested ads for air.
    Question. Since there are so many players at the table, how would 
you recommend consolidating the number of consultants?
    Answer. NYADMC contractors/consultants should be limited to those 
groups absolutely essential for the administration of an anti-drug 
advertising campaign. The principal advertising contractor's role 
should be limited to media planning and buying, and administrative 
functions such as trafficking and keeping of talent records. The 
subcontracting out of ad testing will almost certainly be necessary as 
well. Where necessary, professional expertise on media planning and 
buying for key multicultural audiences should be brought on board on a 
project basis. Academic/behavioral science and target audience 
consultants should be available to PDFA, to be used on as-needed basis 
in the development of new creative strategies.
    Question. Who should be at the table when creating a new strategy 
or a new ad?
    Answer. ONDCP and PDFA should be the only players in the 
development of new message strategies or new ads. As indicated above, 
PDFA may wish to consult outside experts in the formation of new 
strategies. Message evaluation /testing will be conducted by 
independent researchers at the concept and finished stages of creative 
development. But the actual formation and recommendation of new 
strategies and ads should be ONDCP's and PDFA's province alone.
    Question. I have heard from a number of groups and individuals 
stating that the campaign was effective in the beginning but has 
decreased significantly over the past few years. Since the Partnership 
plays a key role in the media campaign, what changes can you make as a 
partner in this project in order to make this an effective campaign?
    Answer. The major changes that PDFA must make are (a) a more 
complete commitment to servicing the campaign in the way a blue chip 
advertising agency would manage a major account, with multiple points 
of contact and regular, thorough communication; and (b) redoubled 
efforts, in concert with ONDCP, to streamline the campaign's creative 
development process to facilitate the timely delivery of all NYADMC 
messages, and to insure that all NYADMC ads are tested prior to air to 
insure their effectiveness.
    Question. Director Walters alleges that a major problem with the 
campaign is the lengthy timeline for the development of the creative 
side of an advertisement. Since Congress intended the Partnership be 
responsible for the creative side, how can we amend the timeline to 
meet ONDCP's needs?
    Answer. First, by reducing the number of parties who have a say in 
creative development, the creative development timeline can be 
shortened. In the past, it has been necessary to revise ads in concept 
and even finished form to address changes in strategy or second 
thoughts proposed by one party or another after the ad concept has been 
presented--and this has a significant impact on the time required for 
completion of messages. Second, however, PDFA can and must seek 
innovative ways of enabling our volunteer agencies to produce more 
messages faster than they have in the past. This will mean more careful 
planning of the creative workload, and thorough strategic briefings to 
our volunteer agencies; learning from our experience to date which 
approaches have tended to work better than others; encouraging agencies 
to develop simple, powerful concepts that can be more readily extended 
into multiple messages across all media; and developing an 
``inventory'' of messages that can be pressed immediately into service 
in the event that testing uncovers problems with a planned campaign.
    Question. According to experts in the advertising field, the ONDCP 
media campaign is the most diverse of its kind. Diverse means they are 
devoting resources and media time targeting more ethnic groups than 
most private industry campaigns. The ONDCP media campaign pays 
consultants to target American Indians, Hispanic Americans, African 
Americans, Alaskan Native, Puerto Rico, Asian Americans, Urban Youth, 
youth/teens, teenagers, and parents. Most private campaigns, including 
the Truth Campaign preventing smoking, spend resources targeting 
African Americans, Hispanic Americans, and Asian Americans. How many 
groups are usually targeted in an ad campaign?
    Answer. The number of groups targeted in an ad campaign depends 
principally on (a) the demographics, or desired demographics, of the 
product or service that is being marketed, and (b) the available 
advertising budget. PDFA recognizes that there is an added obligation, 
in a publicly funded public health campaign, to insure that no group is 
being unfairly deprived of the benefits of the communication.
    Question. How was the decision made to target all of these groups? 
Were you involved in that decision?
    Answer. The roster of targeted groups for the NYADMC was determined 
by the campaign's advertising contractor and subcontractors. In the 
first 2 years of the campaign, ads in English (reaching General Market 
and African American audiences) and Spanish, plus a small number of 
Asian language ads were produced and distributed; the more ambitious 
multicultural effort was launched when the new contractor was brought 
on board in 1999. PDFA was not consulted in this decision process, but 
our understanding, based on our inclusion in subsequent multicultural 
``summit'' meetings and discussions, is that the multicultural effort 
was driven by a belief that individual ethnic/racial audiences needed 
to be addressed in distinctive ways--not just in their native 
languages, but with different, tailored communications strategies. The 
decision to reach each of these audiences via customized advertising 
clearly added significantly to the creative development burden placed 
on PDFA and its volunteer agencies.
    Question. Can the targeting of these groups be done by experts in 
the field pro bono?
    Answer. The development of creative concepts for multicultural 
audiences can be achieved pro bono; the barrier that smaller 
multicultural ad agencies have faced, however, has been fronting the 
hard costs of production and awaiting ONDCP reimbursement after 
production was complete. For this reason, PDFA has had to recruit only 
the largest multicultural agencies (many of them part of larger 
communications conglomerates) for NYADMC assignments, since only they 
were able to carry the costs of producing the ads. Looking forward, we 
will be helped by ONDCP's agreement, just within the past few months, 
to advance half the cost of production in cases where an agency is 
simply unable to float the full cost of production.
    Question. Often times, when people see one of the media campaign 
ads, they have their own ideas about how they would have written the ad 
or how they would talk to kids about marijuana or Ecstasy. Some want 
the ads to be harder hitting; some want them to deliver a more positive 
message.
    How do you decide what the appropriate balance is when talking to 
kids about drugs?
    Is there a science to all of this?
    Answer. PDFA's model for development of anti-drug messages is 
grounded chiefly in the findings of the University of Michigan's 
``Monitoring the Future'' survey, which since 1975 has tracked drug 
attitudes and usage of 8th, 10th and 12th graders nationally. MTF has 
found that historically, the two attitudes which correlate most 
strongly with teen drug use are perception of risk and perceived social 
disapproval of drugs. Over time, the Partnership has based nearly all 
its messages on these two strategic pillars--understanding that there 
are multiple kinds of risk (physical, emotional, psychological, social) 
and multiple ways of expressing social disapproval (including the 
communication of ``social norms'' as a message to teens who tend to 
overstate the prevalence of drug use among their peers).
    PDFA's message strategies also draw heavily on our own Partnership 
Attitude Tracking Study (PATS), fielded annually among 8,000 teens and 
1200 parents by Audits & Surveys Worldwide, an independent research 
firm. PATS' measures of drug-related attitudes -especially perceived 
risk and perceived disapproval among peers--are particularly useful, 
and help PDFA determine which specific risks of drug use to focus on in 
our messages. In addition to PATS, PDFA undertakes major quantitative 
studies on a project basis -most recently, for example, a study on 
Ecstasy--to determine which specific risks have most leverage with 
target audiences.
    The ``positive'' approach referred to by Senator Reed, an approach 
typified by the ``anti-drug'' branding which was imposed on NYADMC 
youth advertising over the last 2 years, finds a receptive audience 
among many in the public health and social services fields (note: not 
the target audience) as a ``refreshing'' alternative to what some of 
them perceive as the ``scare tactics'' reflected in past risk messages. 
It is less clear, however (and it is not supported by the Michigan 
research), that these positive messages are effective in driving down 
drug use. The Partnership's own 1996 segmentation study of teen 
attitudes towards marijuana, for example, indicated that positive 
messages are more likely to reinforce the already positive anti-drug 
attitudes of non-users, while risk messages were more likely to be 
effective against teens who are attitudinally more susceptible to drug 
use.
    Question. What kind of focus groups or other research do you do 
before developing these ads?
    Answer. All NYADMC messages are based on strategies which have 
emerged from behavioral research and have been used in public health 
campaigns covering a broad range of issues. Additionally, in the 
initial stage of the campaign, qualitative research (mainly focus 
groups) was undertaken to identify key strategic ideas that resonated 
with teens and parents. (A main PDFA concern as the campaign entered 
its second 2 years was that new and complex strategies were introduced 
to the campaign, not all of which had been proven as workable in 
advertising--as opposed to in-school or clinical settings. A result was 
that PDFA's volunteer agencies were sometimes asked to ``pioneer'' the 
communication via advertising of a classroom technique such as ``rule-
setting skills for parents''--and finding it unworkable within the 
limits of a 30-second message.)
    Once ad concepts are developed, target audience focus groups are 
shown each concept and used to determine if the main idea of the 
message is getting through, and if there are any ``red flags''--
unanticipated negative consequences of the communication. Once ads have 
gotten a clean bill of health at the concept stage, have been through 
the necessary reviews and approvals and have been produced, they are 
quantitatively tested with their target audiences.
                                 ______
                                 

                Questions Submitted by Senator Jack Reed

    Question. According to Mr. Johnston's testimony there is fairly 
strong evidence that PDFA's campaign against inhalants in 1995 had a 
substantial impact on awareness of the dangers of inhalant use among 
younger teens. Those ads may have been particularly effective because 
the dangers of these drugs were not well known at that point.
    Do you feel similar results could be achieved with Ecstasy and 
other new drugs that come onto the scene?
    How would you modify the ad campaign to achieve such a result?
    Answer. The Partnership does believe that similar results can be 
achieved with Ecstasy. The comparison with inhalants is instructive, 
because with Ecstasy, as with inhalants, the risks are not well known 
and the media can play a uniquely powerful role in educating youth and 
parents about its dangers. PDFA produced in late 2001 a series of new 
Ecstasy messages targeted to parents and teens, and two of these 
messages have now been adopted by the NYADMC for use this summer. But 
given the dramatic increases that we've seen in Ecstasy (trial among 
high school seniors has doubled since 1996, with 12 percent of high 
school seniors now having tried the drug), and the relatively low 
perception of its risk among many teens, we believe that Ecstasy should 
play an even greater role within the NYADMC's strategic portfolio.
    Methamphetamine is another drug where the media can play an 
important educative role, especially in those regions of the country--
the West, Southwest and Midwest--where meth is particularly prevalent 
and its risks are not always well understood. Meth is not now addressed 
by the NYADMC.
    While there will always be a need to educate youth and their 
parents about the dangers of emergent new drugs, PDFA also sees great 
value in addressing the overall behavior of ``getting high''--the 
impulse among many risk-seeking teens to abuse whatever drug happens to 
be available. The great risk of adolescent drug use is not just the 
specific effects produced by the drug of the moment, but the longer-
term risk of developing a reliance on mind-altering substances to 
escape from day-to-day concerns or to interact with peers.
    Question. I understand that a task force that included 
representatives of ONDCP and PDFA was convened earlier this year to 
look at a number of current issues in the Media Campaign. Can you 
comment on the results of these task force meetings.
    Answer. Task Force was convened earlier this year to look into a 
number of issues in the Media Campaign. Individual ``working groups'' 
within the Task Force addressed issues that the Partnership had been 
raising for some time: (a) the appropriate age of target youth; (b) the 
appropriate portfolio of message strategies for target youth; (c) the 
creative development process; and (d) advertising testing procedures. 
PDFA and one of its Creative Review Committee members were represented 
on the Task Force, along with representatives of ONDCP, Ogilvy & 
Mather, the Ad Council and the Behavior Change Expert Panel (BCEP).
    Question. Has a report been produced?
    Answer. The Task Force produced a report, which was presented to 
ONDCP campaign management in early June. (Those present for ONDCP 
included the Counsel to the Director and ONDCP's legislative affairs 
personnel.)
    Question. What were the task force's conclusions, and do you have 
any concerns about recommendations made by the Task Force?
    Answer. In its conception, deliberations and recommendations, the 
Task Force was entirely an effort to effect ``evolutionary'' change 
within the unchanging management structure of the campaign. The Task 
Force recommendations included changes to the age of the youth target 
(from 11-13 year olds to 14 and 15 year olds) and in the portfolio of 
youth message strategies (changes proposed by PDFA a year and half 
earlier), as well as fine-tuning of both the creative development and 
ad testing procedures. These modifications were agreed to PDFA, and are 
fine as far as they go. Never contemplated by the Task Force, however, 
because it was impermissible from ONDCP's standpoint, was the 
``revolutionary'' change needed to return the campaign to the 
effectiveness of its first 2 years.
    PDFA believes that only ``revolutionary'' change in the campaign's 
structure and processes will make the campaign effective once again. 
This revolutionary change involves the fencing out of parties other 
than ONDCP and PDFA from the creative development process. Academic 
advisors may provide input as necessary when new strategies are 
required, and contractors may be needed to execute essential functions 
such as media planning and buying, trafficking and talent record 
keeping. But the actual formulation of strategy and development of 
messages must be restored to PDFA, reporting in to ONDCP as 
administrator of the NYADMC.
                                 ______
                                 

   Questions Submitted to Dr. Robert C. Hornik, Ph.D., and Dr. Dave 
                             Maklan, Ph.D.

             Questions Submitted by Senator Byron L. Dorgan

    Question. Your study implies that the Campaign has been 
``successful'' in reaching target audiences, both parental and youth. 
However, the Campaign has NOT been a success in affecting youth 
behavior. Has the Campaign, then, been a ``success'' by that 
definition?
    Answer. The Campaign has not been a success in affecting youth 
marijuana use. Since that is the ultimate criterion for success, the 
Campaign cannot be judged a success as of yet. The report notes that 
the Campaign did take the first step down the path to success by 
getting on the air and being noticed by its audiences. Absent that 
there would be little chance of ultimate success. However that is only 
one step on the path to the success that matters, namely, youth 
behavior change.
    Question. After a 5-year, nearly $1 billion media Campaign, 
originally authorized and funded to positively affect youth drug use, 
how do you account for an INCREASE in drug use by those targeted by the 
ads?
    Answer. We view these results as interim, awaiting confirmation in 
the next report when we will have the evaluation study's full 
longitudinal sample (only 40 percent of the full longitudinal sample 
was available for the Wave 4 semi-annual report). If the results 
reported in this, our most recent report, hold up in the next report 
(due in approximately 5 months), we will consider some possible 
explanations for the unanticipated negative effect. Two speculations we 
are considering now: (1) those with high exposure to the ads took away 
the message that marijuana use was a common behavior (or else why was 
there so much attention to it) and inferred that most youth were using 
marijuana which supported their own trial use, and (2) the subgroup of 
youth who responded to the ads with skepticism showed a boomerang 
effect--the more they saw the ads the more they reacted against them 
and the more likely they were to initiate marijuana use--a phenomenon 
known as reactance' in the psychological literature. However, we do not 
have data yet to support either of these speculations and we think an 
inference of a negative effect needs to await the next report when we 
can examine the full sample and address evidence for particular 
mechanisms of effect.
    Question. You state that evidence of unfavorable delayed effects on 
youth could be interim results. Would another year of the Campaign have 
a positive affect on Youth attitudes? Two Years? Three? The bottom line 
is, based on your conclusions, can a media campaign alone create the 
desired results for which the Campaign was originally authorized and 
funded?
    Answer. We cannot project what the effects of this Campaign will be 
in future years. However, there is good evidence from other youth 
Campaigns, notably those addressing tobacco use, which do show evidence 
for effects, making it possible that a media campaign can show effects 
on youth substance use. Also, there is evidence from one field 
experiment in Kentucky that showed favorable effects of an advertising 
campaign on marijuana use. Thus the prior history of campaigns 
indicates that it is possible for a media campaign to affect youth 
substance use. In this context, it is worth noting that marijuana use 
(and all drug use) has varied a great deal over time, suggesting that 
it is not a constant behavior, but one that varies with external 
influences, reinforcing the idea that it might be affected by a 
campaign.
    Question. Director Walters has expressed his desire to now focus 
the campaign on marijuana use among older teens. How will this change 
work with your ongoing study based on 12-18 year olds? Is this a 
different focus and are we starting the research over or is there a way 
to connect the two?
    Answer. The sample for the National Survey of Parents and Youth 
(NSPY) study will be adequate to look at effects on older teens. In our 
current reports we separate analyses for 12-13 and 14-18 year olds, in 
any case.
    Question. Does the focus of the study need to incorporate other 
intangible factors to accurately reflect youth attitudes and use? Isn't 
this merely adjusting or tinkering with the data to achieve the desired 
results?
    Answer. There are two types of adjustments used in our analysis. 
The first type is to weight the data in accordance with the sampling 
plan, to ensure that the results from our sample of parents and youth 
can be extrapolated to the Nation. This is standard practice in large, 
complex multistage household surveys, and Westat has developed state-
of-the-art software to ensure that the sample weights are as accurate 
as possible. The second type is to adjust the data for ``confounders,'' 
i.e., factors other than exposure that can make estimates of exposure 
effects misleading. As we note in our prior testimony, it was not 
feasible for the evaluation to employ a control group that was 
unexposed to the ONDCP Media Campaign, but in every other way the same 
as those exposed. Consequently, a straight comparison of high exposure 
and low exposure youth would be invalid because the two groups 
potentially differ on many factors other than exposure to the Campaign 
that might affect outcomes. These are the confounders. It is standard 
evaluation practice in such situations to attempt to identify and 
measure potential confounders in advance so their influence on outcomes 
can be controlled for. Only then is it possible to validly measure the 
effect of the Campaign. For this evaluation, the identification of 
potential confounders was an intensive process that included a careful 
search through the literature and consultation with leading experts in 
the substance abuse and the communications research fields. These 
confounders are not ``intangibles'' as suggested in the question, but 
specific variables known from prior research to be related to youth 
drug use. Our current analytic model includes approximately 150 such 
confounders.
    Question. What has been the total cost to the government of 
conducting your study? What do the funds actually pay for?
    Answer. The Westat contract for the Evaluation of the National 
Youth Anti-Drug Media Campaign was awarded in September 1998. The 
contract performance period is 5 years, 7 months, ending in April 2004. 
The total Westat contract amount is $34,879,613. As of May 2002, funds 
expended were about $27,928,000. The funds are used for the labor and 
materials costs of Westat and two subcontractors: the Annenberg School 
for Communication at the University of Pennsylvania, and National 
Development and Research Institutes (NDRI). Funds cover project 
management costs, development of a campaign evaluation plan, 
development of hard copy and computerized instruments and other survey 
procedures used in the National Survey of Parents and Youth (NSPY), 
preparation of the sample design for NSPY, field preparations including 
recruitment and training of interview staff and data collection of 
NSPY, data management and processing of NSPY data and data analysis, 
data file documentation and report generation of the seven semi annual 
NSPY reports and two special analysis reports.
    The Evaluation's cost monitoring system shows that, to date:
  --Approximately 4 percent of expended funds went to project 
        management related activities including general project 
        management, client liaison, and briefings/testimony to ONDCP/
        Congress;
  --Approximately 11 percent of expended funds have gone to a variety 
        of activities related to evaluation design including 
        development of the evaluation plan for the Campaign, sample 
        design, development and testing of the NSPY survey's four 
        initial interview and four followup interview instruments, and 
        OMB clearance;
  --Approximately 63 percent of funds expended to date went to data 
        collection. In addition to actual implementation and management 
        of the data collection plan, this set of activities also 
        includes a wide variety of activities such as the development 
        and programming of the NSPY survey instruments, the development 
        of several procedures manual and training materials, 
        interviewer recruitment and training, Media liaison activities, 
        and the monthly updating of Campaign ads shown to respondents 
        during their interviews;
  --Approximately 9 percent of expended funds have gone to the design, 
        development and maintenance of the NSPY survey management 
        systems, data cleaning activities, database management, and 
        other data processing related activities; and
  --Approximately 13 percent of funds expended thus far have gone to 
        activities associated with the development of project reports 
        including sample weighting, data analysis, the design and 
        preparation and distribution of four Semi-Annual Reports of 
        Findings and one Special Report, and related file 
        documentation.
    Question. The Monitoring the Future annual grant award in 2002 was 
$4,729,000 for total costs (that is, direct and indirect costs 
combined). Westat is contracted at $7 million annually. Could you 
please comment on the differences between your two evaluations and if 
you have ideas on the $2.3 million difference in cost for two 
nationwide evaluations
    Answer. The major differences are that Westat's National Survey of 
Parents and Youth involve (a) in-home interviewing with (b) both 
parents and children, and (c) are undertaken all year round, while the 
MTF surveys are (a) in classroom surveys of (b) youth, and (c) 
undertaken during the Spring only. NSPY also involves following the 
same youth (and parents) over time, which is not done for most of the 
MTF samples.
    The MTF studies provide a long time series for youth behavior and 
attitudes about drugs, and are of great value for detecting trends over 
time. Their samples are larger than in the NSPY survey, and thus they 
also can provide precise estimates of small changes over time.
    However the NSPY surveys have substantial advantages as well.
    Only the NSPY surveys are able to attribute observed trends to the 
specific influence of ONDCP's National Youth Ant-Drug Media Campaign on 
youth and their parents. The reasons for this include:
  --The NSPY studies have extensive measurement of specific exposure to 
        the Campaign--involving actually showing respondents Campaign 
        ads that have been playing recently and asking about their 
        recall of, and reactions to, these ads. MTF asks a general 
        question about exposure to radio and television anti-drug 
        advertising, but cannot incorporate exposure questions 
        specifically related to the campaign. In the analyses reported 
        in the current semi-annual report of findings, the interim 
        evidence of negative delayed effects of exposure on youth 
        beliefs and behavior, comes largely from the use of these 
        specific measures only possible in NSPY. These unfavorable 
        effects were not detected when parallel analyses were done with 
        the very general sorts of exposure measures used by MTF, (and 
        also available from NSPY). Those potentially negative effects 
        would have been missed if the NSPY analysis had depended only 
        on general exposure measures such as those available from the 
        MTF.
  --The NSPY studies are undertaken year round, while the MTF surveys 
        are only administered in the late Spring. This means that the 
        MTF cannot include questions about specific ads, which vary 
        around the year, and it cannot be sensitive to changes in the 
        Campaign that occur during a given year.
  --The NSPY study follows individual youth over time while the MTF 
        surveys, by and large, do not involve repeated interviews with 
        the same individuals. Because the NSPY will eventually involve 
        three separate interviews with each youth, it will enable the 
        evaluation to examine the effects of the ONDCP Media Campaign 
        over time, and in particular show whether early exposure to the 
        Campaign produces more or less likelihood of subsequent 
        initiation of drug use. This is only possible because the same 
        youth are followed for 3 years.
  --The MTF surveys do not include parents. The NSPY surveys include 
        parents of the same youth who are interviewed. Thus it is 
        possible only with the NSPY to see the effects of the Campaign 
        on parents, and to see whether any influence of the Campaign on 
        parents actually is passed through to their children. This 
        would not be possible if parents and children within a 
        household were not interviewed and their responses linked for 
        analysis.
  --At the request of Congress NSPY results are presented every 6 
        months, based on new data collection. The MTF surveys, 
        collected on a calendar year basis, could not meet this 
        schedule.
  --The NSPY semi-annual reports are based on extensive analysis of 
        Campaign effects evidence on both parents and youth and 
        including trend, cross-sectional and delayed effects analysis, 
        as well as extensive analysis of exposure to a wide range of 
        drug-related messages. MTF analysis is largely restricted to 
        presentation of trend data.
    Question. Is it true that there were only seven girls in the cohort 
who were more likely to try marijuana due to exposure to the campaign?
  --If so, why was that not defended in the hearing?
  --How can you state that as evidence when it is based on only seven 
        individuals? Isn't there a scientific threshold?
    Answer. In all cases, the analysis of initiation of marijuana use 
by 12 to 18 year old girls between their initial NSPY interview and 
their first followup interview was based on more than 7 girls. All 
results that were reported in the Fourth Semi-Annual Report of Findings 
as statistically significant used standard scientific criteria (a 
chance probability less than 5 percent).
    There were 855 girls aged 12 to 18 who had never used marijuana 
when initially interviewed for NSPY (last row of the table below). For 
this entire age group, 11.8 percent (101 girls) reported they had 
initiated marijuana use by their first followup interview (raw data 
percentages in the first row of the table). Among the girls with the 
lowest level of exposure to ONDCP Media Campaign ads, only 3.6 percent 
reported marijuana use between their initial and first followup NSPY 
interviews (raw data percentage). If the entire sample of 855 girls had 
initiated marijuana use with the same probability as this least exposed 
group there would have been only 31 girls reporting initiation within 
the last 18 months (3.6 percent - 855 girls). Thus, the raw 
data indicates that if we attribute to a Campaign effect all of the 
difference between the observed number of girls who initiated marijuana 
use between interviews (101) and the number of girls one would expect 
if the sample of girls had little or no exposure to the Campaign (31), 
the excess initiation by girls associated with Campaign exposure was 70 
(101-31), or about 8.2 percent of all the girls. When we take into 
account the appropriate sample weights and confounder adjustments (the 
second row in the table), the estimated percentage of girls age 12 to 
18 who initiated marijuana use between interviews increases from the 
11.8 percent observed from the raw data to 12.9 percent (weighted and 
adjusted data). This increases the number of girls beyond that expected 
in the absence of a Campaign effect from 70 girls to 79 girls (12.9 
percent--3.7 percent times 855). Thus, both the raw data and the 
weighted/adjusted data estimates of the number of extra marijuana 
initiators among girls aged 12 to 18 are at least ten times greater 
than the ``seven girls'' indicated in the question.
    Percent of girls aged 12-18 who had never used marijuana at their 
initial NSPY interview, but had initiated use by the first followup 
interview, 18 months later, by level of Campaign exposure at initial 
interview.

 ----------------------------------------------------------------------------------------------------------------
                                                     Little/no       Moderate         Higher
                                                     exposure        exposure        exposure          Total
----------------------------------------------------------------------------------------------------------------
Percent who initiated marijuana use (raw data)..             3.6            11.3            17.3            11.7
Percent who initiated marijuana use (adjusted &              3.7            12.9            21.6            12.9
 weighted data).................................
Raw sample sizes................................             196             335             324             855
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

                Question Submitted by Senator Jack Reed

    Question. You mentioned that while the results of surveys indicate 
a favorable effect on parents in terms of increased parent awareness 
and involvement, the surveys also show that the campaign has not had a 
measurable positive effect on youth marijuana use.
    Do you feel that the amount of time covered by the study was 
sufficient to produce meaningful results?
    Answer. The study covered 2 years of data collection, and about 18 
months between average date of interview in the first survey round and 
the average date of the fourth survey round. The Monitoring the Future 
data goes back to before the beginning of the Campaign but did not show 
any decrease in marijuana use for 10th or 12th graders, and the slight 
positive trend for 8th graders it showed between 1998-2000 actually 
began 2 years earlier, before initiation of the Campaign (the decline 
between 1996-1998 for 8th graders was approximately the same as that 
observed for the 1998-2000 period).
    While there has been a suggestion that change in behavior would 
take a long time it was expected that changes in beliefs and attitudes 
would occur more quickly. We have not seen positive trends in behavior 
or in these intermediate beliefs and attitudes. Nonetheless, we will 
have additional results to report for data collected through June 2002 
(and subsequently data collected through June 2003), and we will be 
able to see whether an additional 6 months (or 18 months) allows 
detection of effects. Our next report will be available in 
approximately 5 months.

                         CONCLUSION OF HEARING

    Senator Dorgan. Thank you very much. This hearing is 
recessed.
    [Whereupon, at 4:27 p.m., Wednesday, June 19, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]




</pre></body></html>
